 SIGAR
      14-19
                                                 Special Inspector General for
                                                  Afghanistan Reconstruction




                                                           SIGAR 14-19 Financial Audit




                   USAID’s Community Development
                   Program: Audit of Costs Incurred by
                   Mercy Corps




                                                            JANUARY
                                                                        2014

SIGAR 14-19-FA / Community Development Program
January 13, 2014


Dr. Rajiv Shah
Administrator
U.S. Agency for International Development

Mr. William Hammink
Mission Director for Afghanistan
U.S. Agency for International Development


This letter transmits the results of our audit of costs incurred by Mercy Corps, in partnership with Save the
Children Federation, under a cooperative agreement with USAID for the Community Development Program. 1
The audit covered the period March 10, 2009, to December 31, 2011, and was performed by Mayer Hoffman
McCann P.C. It covered $69,050,785 in expenditures.

The Community Development Program provided “cash-for-work” wages to local participants in 11 provinces
throughout Afghanistan. According to Mercy Corps, the purpose of this program is to provide temporary
employment in public projects (such as repairing roads, clearing debris, or re-building infrastructure) to the
most vulnerable segments of a population. Mercy Corps reported that the program provided wages to 30,000
participants.

The specific objectives of this financial audit were to

    •    render an opinion on the fair presentation of Mercy Corps’ Fund Accountability Statement; 2
    •    determine and report on whether Mercy Corps has taken corrective action on recommendations from
         prior audits or assessments;
    •    identify and report on significant deficiencies, including any material weaknesses, in Mercy Corps’
         internal control over financial reporting; and
    •    identify and report on instances of material noncompliance with terms of the award and applicable
         laws and regulations.
In contracting with an independent audit firm and drawing from the results of its audit, SIGAR is required by
auditing standards to provide oversight of the audit work performed. Accordingly, SIGAR reviewed Mayer
Hoffman McCann P.C.’s audit results and found them to be in accordance with generally accepted government
auditing standards.
Mayer Hoffman McCann P.C. issued a qualified opinion on the fairness of the presentation of the Fund
Accountability Statement based upon the identification of $682,241 of questions costs, which represent a
material misstatement of the Fund Accountability Statement. Mayer Hoffman McCann P.C. also noted two prior
recommendations that could have a material effect on the Fund Accountability Statement and determined that
adequate corrective action was not taken on one of the recommendations. Specifically, Mercy Corps has not


1 USAID’s Cooperative Agreement, 306-A-00-09-00512-00. Save the Children Federation received a subaward under the

cooperative agreement.
2 The Fund Accountability Statement is a special purpose financial statement that includes all revenues received, costs

incurred, and any remaining balance for a given award during a given period.
taken adequate actions to address an internal control designed to monitor to Save the Children Federation’s
use of federal funds. In addition, Mayer Hoffman McCann P.C. found six other internal control deficiencies and
three instances of noncompliance, which prompted the auditors to question a total of $682,241 in incurred
costs. Of the questioned costs, $2,296 was considered to be ineligible costs 3 and the remaining $679,945
unsupported costs. 4 See table 1.


Table 1 - Summary of Questioned Costs
                                                Questioned Costs
                   Category                                                     Ineligible               Unsupported
                                                      Total

 Personnel                                                     $21,758                    $1,853                   $19,905

 Fringe Benefits                                                $4,720                       $175                    $4,545

 Travel                                                           $80                                                   $80

 Contractual (Program)                                         $13,825                                             $13,825

 Contractual (Subgrant)                                     $630,593                                              $630,593

 Other Direct Costs                                             $5,421                                               $5,421

 Indirect Costs                                                 $5,844                       $268                    $5,576

 Totals                                                     $682,241                      $2,296                  $679,945

Given the results of the audit, SIGAR recommends that the Mission Director of USAID/Afghanistan:
    1. Determine the allowability of and recover, as appropriate, $682,241 in questioned costs identified in
       the report.

    2. Advise Mercy Corp to address the six internal control findings identified in the report.
    3. Advise Mercy Corp to address the three compliance findings identified in the report.
We will be following up with your agency to obtain information on the corrective actions taken in response to
our recommendations.




John F. Sopko
Special Inspector General
 for Afghanistan Reconstruction                                                                      (F017)




3 Ineligible costs are costs that the auditor has determined to be unallowable. These costs are recommended for exclusion

from the Fund Accountability Statement and review by USAID to make a final determination regarding allowability.
4 Unsupported costs are those costs for which adequate or sufficient documentation necessary for the auditor to determine

the propriety of costs was not made available.




                                                           2
                  MERCY CORPS

      Financial Audit of Costs Incurred Under
  Cooperative Agreement No. 306-A-00-09-00512-00

For the Period March 10, 2009 to December 31, 2011
                                      MERCY CORPS

                           Financial Audit of Costs Incurred Under
                      Cooperative Agreement No. 306-A-00-09-00512-00

                    For the Period March 10, 2009 to December 31, 2011


                                      Table of Contents


                                                                         Page
Summary:
 Background                                                               1
 Objectives, Scope and Methodology                                        1
 Summary of Results                                                       4
 Summary of Mercy Corps’ Responses to Findings                            8
 Review of Prior Findings and Recommendations                             9

Independent Auditors’ Report on Fund Accountability Statement            11

Fund Accountability Statement                                            13

Notes to Fund Accountability Statement                                   14

Independent Auditors’ Report on Internal Control                         21

Independent Auditors’ Report on Compliance                               23

Findings and Responses                                                   24

Appendices:
 Appendix A: Response to Findings                                        46
 Appendix B: Detail Results to Finding 2013-1                            84
 Appendix C: Auditors’ Rebuttal to Response to Findings                  90
 Appendix D: Management Responses to Specific Transactions Questioned    94
  and MHM Rebuttal
                                            MERCY CORPS

                                Financial Audit of Costs Incurred Under
                           Cooperative Agreement No. 306-A-00-09-00512-00

                          For the Period March 10, 2009 to December 31, 2011


SUMMARY

Background

On March 10, 2009, the United States Agency for International Development (USAID) awarded
Cooperative Agreement No. 306-A-00-09-00512-00 (Agreement) to Mercy Corps, in partnership with
Save the Children Federation (SCF). The initial award was in the amount of $10,500,000 with a period
of performance from March 10, 2009 through November 5, 2009. The initial award included a
$2,000,000 subaward to SCF, which was also included in the scope of this audit. The purpose of the
Agreement was to provide support for the Community Development Program (CDP) (formerly the Food
Insecurity Response for Urban Populations Program (FIRUP)) in four key provinces in northern
Afghanistan. Specifically, the Agreement was to provide Cash-for-Work (CFW) wages for 30,000 local
participants in the Afghan cities and suburbs of Mazar-e-Sharif, Kunduz, Pul-e-Khumri, and Bamyan.
The Agreement was modified 13 times, increased the award to $69,237,804, extended the period of
performance through December 31, 2011 and increased the number of provinces included in the scope
by adding Balkh, Baghlan, Fariyab, Kapisa, Parwan, Samangan, and Sar e Pul. Of the total obligated
amount, $19,500,000 was subawarded to SCF. Mercy Corps is a 501(c)(3) tax-exempt organization
based in Portland, Oregon.

The Special Inspector General for Afghanistan Reconstruction (SIGAR) contracted with Mayer Hoffman
McCann P.C. (MHM) to perform a Financial Audit of Costs Incurred under the Agreement for the period
March 10, 2009 to December 31, 2011.


Objectives, Scope and Methodology

Objectives

The objectives of the audit include the following:

   •   Internal Controls – Evaluate and obtain a sufficient understanding of Mercy Corps’ internal
       controls related to the award; assess control risk; and identify and report on significant
       deficiencies including material internal control weaknesses.

   •   Compliance – Perform tests to determine whether Mercy Corps complied, in all material
       respects, with the award requirements and applicable laws and regulations; and identify and
       report on instances of material noncompliance with terms of the award and applicable laws and
       regulations, including potential fraud or abuse that may have occurred.

   •   Corrective Action on Prior Findings and Recommendations – Determine and report on whether
       Mercy Corps has taken adequate corrective action to address findings and recommendations
       from previous engagements that could have a material effect on the Fund Accountability
       Statement.



                                                     1
                                            MERCY CORPS

                                Financial Audit of Costs Incurred Under
                           Cooperative Agreement No. 306-A-00-09-00512-00

                          For the Period March 10, 2009 to December 31, 2011


SUMMARY

   •    The Fund Accountability Statement (FAS) – Express an opinion on whether the FAS for the
        award presents fairly, in all material respects, revenues received, costs incurred, items directly
        procured by the U.S. Government and fund balance for the period audited in conformity with the
        terms of the award and generally accepted accounting principles or other comprehensive basis
        of accounting.


Scope

The scope of this audit included all costs incurred during the period March 10, 2009 to December 31,
2011 under the Agreement. Our testing of indirect costs was limited to determining that the indirect
costs were calculated using the correct final negotiated indirect cost rates or provisional indirect cost
rates, as applicable for the given fiscal year, as approved by USAID.


Methodology

In order to accomplish the objectives of this audit, we designed our audit procedures to include the
following:

Entrance Conference

An entrance conference was held via conference call on June 17, 2013.                Participants included
representatives of Mercy Corps, SIGAR and USAID.

Planning

During our planning phase, we performed the following:

   •    Obtained an understanding of Mercy Corps;
   •    Reviewed award No. 306-A-00-09-00512-00 and all modifications;
   •    Reviewed regulations specific to USAID and the award;
   •    Performed a financial reconciliation; and
   •    Selected samples based upon our approved sampling techniques. According to the approved
        sampling plan, we used the detailed accounting records that were reconciled to the financial
        reports, and based upon the risk assessed included as part of the approved Audit Plan, we
        performed data mining to assess individual expenditure accounts and transactions that were
        considered to be high or medium risk for inclusion in our test of transactions. If the population of
        a given cost category tended to be large in number of transactions and more homogeneous in
        nature, we selected a statistical sample of the costs. The sample size tested was based upon a
        95% confidence level with 5% maximum tolerable error rate. The sample was selected on a
        random basis. All other cost categories and/or accounts for which it was not appropriate to


                                                     2
                                           MERCY CORPS

                               Financial Audit of Costs Incurred Under
                          Cooperative Agreement No. 306-A-00-09-00512-00

                         For the Period March 10, 2009 to December 31, 2011


SUMMARY

       select a statistical sample, we selected the sample on a judgmental basis.         Our sampling
       methodology for judgmental samples is as follows:

           o   For related party transactions, we tested 100% of the transactions.
           o   For high risk cost categories, we sampled at least 50% of the dollar value of the account.
           o   For medium risk cost categories, we sampled at least 20% of the dollar value of the
               account.
           o   For low risk cost categories, we sampled 10% of the dollar value of the account, not to
               exceed 50 transactions in total for all accounts comprising low risk cost categories.

       For those cost categories and/or accounts that were selected on a statistical basis, we
       calculated an error rate and projected the results to the population. If the results for a
       judgmental sample indicated a material error rate, our audit team consulted with the Audit
       Manager and Project Director as to whether the sample size should be expanded. If it appeared
       that based upon the results of a judgmental sample, an entire account was deemed not
       allowable, we did not expand our testing, but instead questioned the entire account.

       For management and administration, although the entire cost category was assessed to be high
       risk, it was made up of several different accounts. We reviewed the individual accounts that
       comprised management and administration from a risk perspective, based upon dollar value of
       the account and/or nature of expenses included in the account. Those individual accounts
       deemed to be high risk were judgmentally sampled at high risk levels.


Internal Control Related to the FAS

We reviewed Mercy Corps’ internal controls related to the FAS. This review was accomplished through
interviews with management and key personnel, review of policies and procedures, identifying key
controls within significant transaction cycles, and testing those key controls.

Compliance with Agreement Requirements and Applicable Laws and Regulations

We reviewed the Agreement, modifications and subawards and documented all compliance
requirements that could have a direct and material effect on the FAS. We assessed inherent and
control risk as to whether material noncompliance could occur. Based upon our risk assessment, we
designed procedures to test a sample of transactions to ensure compliance.

Corrective Action on Prior Findings and Recommendations

We requested all reports from previous engagements in order to evaluate the adequacy of corrective
actions taken on findings and recommendations that could have a material effect on the FAS. See the
Review of Prior Findings and Recommendations subsection of this Summary for this analysis.



                                                   3
                                           MERCY CORPS

                               Financial Audit of Costs Incurred Under
                          Cooperative Agreement No. 306-A-00-09-00512-00

                         For the Period March 10, 2009 to December 31, 2011


SUMMARY

Fund Accountability Statement

In reviewing the FAS, we performed the following:

   •   Reconciled the costs on the FAS to the Agreement and general ledger;
   •   Traced receipt of funds to the accounting records; and
   •   Sampled and tested the costs incurred to ensure the costs were allowable, allocable to the
       Agreement, and reasonable.

Exit Conference

An exit conference was held on September 26, 2013 via conference call. Participants included
representatives of Mercy Corps, SCF, SIGAR and USAID. During the exit conference, we discussed
the preliminary results of the audit and established a timeline for providing any final documentation for
consideration and reporting.


Summary of Results

Our audit of the costs incurred by Mercy Corps under the Agreement with USAID identified the
following matters:


Auditor’s Opinion on FAS

We issued a qualified opinion on the fairness of the presentation of the FAS based upon the
identification of $682,241 of questioned costs, which represents a material misstatement of the FAS.
The ultimate determination of whether the identified questioned costs are to be accepted or disallowed
rests with USAID.


Questioned Costs

There are two categories of questioned costs, ineligible and unsupported. Ineligible costs are those
costs that are deemed to not be allowable in accordance with the terms of the Agreement or applicable
laws and regulations, including 22 CFR Part 226 and Office of Management and Budget (OMB) Circular
A-122. Unsupported costs are those costs for which no or inadequate supporting documentation was
provided for our review. A summary of questioned costs is as follows.




                                                    4
                                          MERCY CORPS

                              Financial Audit of Costs Incurred Under
                         Cooperative Agreement No. 306-A-00-09-00512-00

                        For the Period March 10, 2009 to December 31, 2011


SUMMARY

Ineligible Costs

   •   Mercy Corps claimed personnel costs for 3 employees who either did not work on the CDP or
       worked less than 100% on the CDP but were claimed at 100%, which resulted in questioned
       costs of $2,296. See Finding 2013-2 in the Findings and Responses section of this report.

Unsupported Costs

   •   Documentation was either not provided or insufficient documentation was provided to support
       CFW expenses claimed under the contractual (program) and contractual (subgrant) cost
       categories. The contractual (program) cost category consists of contractual costs incurred by
       Mercy Corps. The contractual (subgrant) cost category consists of contractual costs incurred by
       SCF. This resulted in questioned costs of $369,474. See Finding 2013-1 in the Findings and
       Responses section of this report.

   •   Personnel and related costs were not supported by valid employee agreements and timesheets,
       or timesheets were not approved by the immediate supervisor, which resulted in questioned
       costs of $260,623. See Finding 2013-2 in the Findings and Responses section of this report.

   •   Documentation was either not provided or insufficient documentation was provided to support
       transactions selected for testing within travel, contractual (subgrant) and other direct costs,
       which resulted in questioned costs of $42,844. See Finding 2013-3 in the Findings and
       Responses section of this report.

   •   Documentation was not provided to support procurement efforts within contractual (program),
       contractual (subgrant) and other direct costs, which resulted in questioned costs of $7,004. See
       Finding 2013-4 in the Findings and Responses section of this report.

Total questioned costs as a result of our audit are as follows. These questioned costs resulted in a
material misstatement of the FAS.

       Ineligible costs                         $ 2,296
       Unsupported costs                         679,945

         Total questioned costs                 $682,241


Internal Control Findings

Internal control findings are classified into three categories, deficiency, significant deficiency, and
material weakness. A deficiency in internal control exists when the design or operation of a control
does not allow management or employees, in the normal course of performing their assigned functions,


                                                  5
                                            MERCY CORPS

                               Financial Audit of Costs Incurred Under
                          Cooperative Agreement No. 306-A-00-09-00512-00

                         For the Period March 10, 2009 to December 31, 2011


SUMMARY

to prevent, or detect and correct, misstatements on a timely basis. A significant deficiency is a
deficiency, or a combination of deficiencies, in internal control that is less severe than a material
weakness, yet important enough to merit attention by those charged with governance. A material
weakness is a deficiency, or a combination of deficiencies, in internal control, such that there is a
reasonable possibility that a material misstatement of the FAS will not be prevented, or detected and
corrected on a timely basis. A summary of the internal control findings noted as a result of the audit are
as follows:

Material Weakness

The following material weaknesses were reported.

      Finding                                                                        Auditee’s
      Number              Internal Control Finding – Material Weakness              Concurrence
      2013-1       Documentation was either not provided or insufficient             Disagree
                   documentation was provided to support CFW expenses
                   claimed under the contractual (program) and contractual
                   (subgrant) cost categories, which resulted in questioned
                   costs of $369,474.

       2013-2      Mercy Corps claimed personnel costs for 3 employees who            Partially
                   either did not work on the CDP or worked less than 100%             Agree
                   on the CDP but were claimed at 100%, which resulted in
                   questioned costs of $2,296. Additionally, personnel and
                   related costs were not supported by valid employee
                   agreements and timesheets, or timesheets were not
                   approved by the immediate supervisor, which resulted in
                   questioned costs of $260,623.

Significant Deficiency

The following significant deficiencies were reported:

      Finding                                                                        Auditee’s
      Number             Internal Control Finding – Significant Deficiency          Concurrence
      2013-3       Documentation was either not provided or insufficient              Partially
                   documentation was provided to support transactions                  Agree
                   selected for testing within travel, contractual (subgrant) and
                   other direct costs, which resulted in questioned costs of
                   $42,844.

       2013-4      Documentation was not provided to support procurement             Disagree


                                                     6
                                          MERCY CORPS

                              Financial Audit of Costs Incurred Under
                         Cooperative Agreement No. 306-A-00-09-00512-00

                        For the Period March 10, 2009 to December 31, 2011


SUMMARY

      Finding                                                                     Auditee’s
      Number             Internal Control Finding – Significant Deficiency       Concurrence
                  efforts within contractual (program), contractual (subgrant)
                  and other direct costs, which resulted in questioned costs
                  of $7,004.

       2013-6     The same individual prepared, reviewed and entered 6            Disagree
                  Subjournal Vouchers into the Subjournal.

       2013-7     Mercy Corps miscoded supplies in the amount of $18,391           Agree
                  as contractual (program) costs, and fringe benefits in the
                  amount of $380 as travel costs.


Deficiencies

No deficiencies were reported.


Compliance Findings

As part of obtaining reasonable assurance about whether the FAS is free from material misstatement,
we performed tests of its compliance with certain provisions of the Agreement and other laws and
regulations. Noncompliance with certain provisions of the Agreement and other laws and regulations
could have a direct and material effect on the determination of FAS. The results of our tests disclosed
the following instances of non-compliance.

      Finding                                                                     Auditee’s
      Number                            Compliance Finding                       Concurrence
      2013-5      Documentation was not provided to support that Mercy            Disagree
                  Corps and SCF conducted reviews of 16 and 99 vendors,
                  respectively, in the Excluded Parties List System (EPLS)
                  prior to entering into vendor contracts.

       2013-8     Foreign tax reports for the periods October 1, 2008 to           Agree
                  September 30, 2009 and October 1, 2010 to September 30,
                  2011 were not provided.

       2013-9     No evidence was provided to support whether Mercy                Agree
                  Corps’ property management system was approved by
                  either the USAID Agreement Officer or Agreement Officer’s
                  Representative.


                                                   7
                                           MERCY CORPS

                               Financial Audit of Costs Incurred Under
                          Cooperative Agreement No. 306-A-00-09-00512-00

                         For the Period March 10, 2009 to December 31, 2011


SUMMARY

Summary of Mercy Corps Responses to Findings

The following represents a summary of the general management response provided by Mercy Corps to
the audit report and its responses to each finding. The complete responses received can be found in
Appendix A to this report.

   •   In Mercy Corps’ general comments to the audit report, it indicated that SCF did not claim
       $90,859 of indirect costs due to limitations in the Agreement. Mercy Corps is requesting that
       any indirect costs questioned be offset against these costs not claimed. Mercy Corps also
       documented its indirect cost rates by year.

   •   Finding 2013-1: Mercy Corps disagrees with this finding. It states that the FIRUP CFW
       guidelines only offer a framework to the various steps and parties in monitoring and
       implementing the CFW program and not all documentation that was missing should result in
       questioned costs. SCF indicated the original documentation, which was maintained in
       Afghanistan, was and is available for review.

   •   Finding 2013-2: Mercy Corps partially disagrees with this finding. It states that it is in
       compliance with OMB Circular A-133 as the timesheets were signed by the employees and the
       documented calculation of salary, wages and net pay was approved by a responsible party of
       the organization. Mercy Corps disagrees with the questioned costs due to missing employment
       agreements, as it believes there is other documentation that supports the amount agreed and
       paid to the employee, such as the offer letter or pay slip. Mercy Corps does accept the
       ineligible costs and questioned costs relating to missing timesheets. The missing timesheets
       and employment agreements for SCF have been located and are available for review.

   •   Finding 2013-3: Mercy Corps partially disagrees with this finding. The ticket change fee was
       approved by the traveler and the Country Director who had signed off on the Operational
       Expense Report that showed evidence of the tickets purchased and associated costs. For the
       Certification for a non-U.S. flight carrier, Mercy Corps states that there is not a requirement that
       this be approved. The travel in question was from Kabul to Dubai, and there is no U.S. Flag
       carrier that provides service between these destinations. The traveler had completed the
       Certification electronically and had attached it to his submitted Travel Approval form. Mercy
       Corps accepts the observation related to the journal entry that was not reviewed and approved.
       SCF stated that some of the documents were provided during audit, but there was insufficient
       time to address the auditors’ questions prior to finalizing the audit. Additional documents have
       been located in Afghanistan and available for review.

   •   Finding 2013-4: Mercy Corps disagrees with this finding. It recognizes the importance of
       following its procurement policy in order to document compliance with the Procurement
       Standards in 22 CFR 226.40 through 22 CFR 226.49. While not all steps in the procurement
       process were documented according to its procurement manual, the procurements were done in


                                                    8
                                          MERCY CORPS

                              Financial Audit of Costs Incurred Under
                         Cooperative Agreement No. 306-A-00-09-00512-00

                        For the Period March 10, 2009 to December 31, 2011


SUMMARY

       a manner to ensure open and free competition and to ensure reasonable and necessary costs
       to the program. The six transactions for SCF were under $500, and it states a quotation and bid
       analysis is not required per its procurement policy.

   •   Finding 2013-5: Mercy Corps disagrees with this finding. Mercy Corps states that its and SCF’s
       policies are in compliance with the applicable thresholds for the verification of debarment and
       suspension for transactions greater than or equal to $25,000, and are in compliance with the
       applicable rules and list-checking was not required on these non-threshold transactions.
       Additionally, just 1 of the sampled transactions for SCF exceeded $25,000.

   •   Finding 2013-6: Mercy Corps disagrees with this finding. It indicates that the subjournal
       voucher is not a control document related to the disbursement of cash, but rather serves as a
       coversheet for the supporting documentation for each transaction. The subjournal voucher
       summarizes the key financial information related to the transactions and provides a unique
       tracking number, linking a line entry in the accounting system with the original documentation
       that supports the transaction. The subjournal voucher is entered into a subjournal and uploaded
       monthly into the financial system. The subjournal is prepared and reviewed by separate
       individuals.

   •   Finding 2013-7: Mercy Corps agrees with this finding. It recognizes the importance of properly
       classifying expenses and will continue to reinforce its policies surrounding financial review of
       transactions. Mercy Corps states that there are rare instances of miscoding that weren’t
       identified and corrected within the financial system.

   •   Finding 2013-8: Mercy Corps agrees with this finding. It plans to take additional care to ensure
       electronic filing of the submission of the Foreign Tax Reports. Mercy Corps will contact the
       Mission and determine if the required report has been filed. Mercy Corps states that no foreign
       taxes would have been reported under this Agreement.

   •   Finding 2013-9: Mercy Corps agrees with this finding. It plans to improve filing of such
       approvals for future awards. While Mercy Corps was not able to produce documentation
       evidencing Mission approval for this specific award, it states that its systems for property
       management do comply with the applicable requirements set out in the Standard Provision and
       in 22 CFR 226.30-37. Compliance with these standards is audited as part of its A-133 audit.


Review of Prior Findings and Recommendations

We reviewed the adequacy of the corrective actions taken to address findings and recommendations
from previous engagements that could have a material effect on the FAS. Mercy Corps had audits of
its expenditures of federal awards performed in accordance with the Single Audit Act each year from
2009 through 2012. One of USAID’s programs was selected as a major program during each of these


                                                  9
                                          MERCY CORPS

                               Financial Audit of Costs Incurred Under
                          Cooperative Agreement No. 306-A-00-09-00512-00

                         For the Period March 10, 2009 to December 31, 2011


SUMMARY

audits. Of the 4 years of Single Audit Act audits performed, two findings were identified in 2010 that
could have a material effect on the FAS. Based upon our review, adequate corrective action was taken
on only one of the findings as described below.

   •   Physical Verification of Assets

       Mercy Corps failed to perform a physical count of equipment acquired with federal funds and
       reconcile the inventory to its equipment records at least once every 24 months. In response to
       this finding, Mercy Corps revised its policies to require that a physical count of assets be
       performed annually.       During our fieldwork, Mercy Corps provided us with supporting
       documentation evidencing that it has conducted a physical inventory of its assets on an annual
       basis and that it reconciled the results to its general ledger. As such, the corrective action has
       been adequately implemented.

   •   Subrecipient Monitoring

       Mercy Corps did not establish and maintain internal control designed to monitor its
       subrecipient’s use of federal awards. In response to this finding, Mercy Corps revised its
       policies and established a monitoring control for its subrecipients of federal funds. During our
       fieldwork, Mercy Corps provided us with documentation supporting that an annual site visit was
       performed on its subrecipients. Additionally, Mercy Corps requested, obtained and reviewed an
       OMB Circular A-133 report in accordance with the Single Audit Act from its subrecipients.
       However, during our testing of SCF, we noted similar weaknesses still exist as detailed in
       Finding 2013-1 in the Findings and Responses section of this report. As such, the corrective
       action has not been adequately implemented.




                                                   10
Board of Directors
Mercy Corps
45 S.W. Ankeny Street
Portland, Oregon 97204



                           INDEPENDENT AUDITORS’ REPORT
                         ON FUND ACCOUNTABILITY STATEMENT


We have audited the Fund Accountability Statement of Mercy Corps for Cooperative Agreement
Number 306-A-00-09-00512-00 (Agreement) with the United States Agency for International
Development (USAID) for the period March 10, 2009 through December 31, 2011. The Fund
Accountability Statement is the responsibility of Mercy Corps’ management. Our responsibility
is to express an opinion on the Fund Accountability Statement based on our audit.

We conducted our audit of the Fund Accountability Statement in accordance with Government
Auditing Standards issued by the Comptroller General of the United States. Those standards
require that we plan and perform the audit to obtain reasonable assurance about whether the
Fund Accountability Statement is free of material misstatement. An audit includes examining,
on a test basis, evidence supporting the amounts and disclosures in the Fund Accountability
Statement. An audit also includes assessing the accounting principles used and significant
estimates made by management, as well as evaluating the overall Fund Accountability
Statement presentation. We believe that our audit provides a reasonable basis for our opinion.

We identified several transactions totaling $682,241 that were questionable based upon our
review of the underlying support for the specified transactions. The ultimate determination of
whether the identified questioned costs are to be accepted or disallowed rests with USAID.

In our opinion, except for the possible effects of the matter described in the preceding
paragraph and the ultimate determination and resolution of the identified questioned costs, the
Fund Accountability Statement referred to above presents fairly, in all material respects,
program revenues, costs incurred and reimbursed, and items and technical assistance directly
procured by USAID for the indicated period in accordance with the terms of the Agreement and
in conformity with the basis of accounting described in Note 2.




                                              11
Board of Directors
Mercy Corps
45 S.W. Ankeny Street
Portland, Oregon 97204

In accordance with Government Auditing Standards, we have also issued our reports dated
December 4, 2013 on our consideration of Mercy Corps’ internal control over financial reporting
and our tests of its compliance with certain provisions of laws and regulations. Those reports
are an integral part of an audit performed in accordance with Government Auditing Standards
and should be read in conjunction with this Independent’s Auditor’s Report in considering the
results of our audit.

This report is intended for the information of Mercy Corps, United States Agency for
International Development, and the Special Inspector General for Afghanistan Reconstruction.
Financial information in this report may be privileged. The restrictions of 18 USC 1905 should
be considered before any information is released to the public.




Irvine, California
December 4, 2013




                                              12
                                                     Mercy Corps

                                      Financial Audit of Costs Incurred under
                                 Cooperative Agreement No. 306-A-00-09-00512-00

                                            Fund Accountability Statement

                            For the Period March 10, 2009 through December 31, 2011



                                                                                  Questioned Costs
                                  Budget            Actual          Ineligible      Unsupported        Total       Notes
Revenues:
   306-A-00-09-00512-00      $ 69,237,804      $ 69,099,844     $           -       $       -      $           -    (3)

Total revenues                   69,237,804        69,099,844               -               -                  -

Costs incurred:
   Personnel                      6,734,791         6,015,911             1,853          19,905         21,758      (4)
   Fringe benefits                2,641,057         2,008,374               175           4,545          4,720      (5)
   Travel                           392,330           370,127               -                 80             80     (6)
   Equipment                        526,000           429,782               -               -              -
   Supplies                         418,833           551,784               -               -              -
   Contractual (program)         30,942,081        32,517,525               -            13,825         13,825      (7)
   Contractual (subgrant)        19,500,000        19,504,355               -           630,593        630,593      (8)
   Other direct costs             2,709,170         2,252,440               -             5,421          5,421      (9)
   Indirect costs                 6,635,738         5,400,487               268           5,576          5,844     (10)
   De-obligation                 (1,262,196)              -                 -               -              -

Total costs incurred             69,237,804        69,050,785             2,296         679,945        682,241

Outstanding fund balance     $          -      $      49,059             (2,296) $      (679,945) $    (682,241)   (11)




                                    See Notes to Fund Accountability Statement

                                                         13
                                         MERCY CORPS

                             Financial Audit of Costs Incurred Under
                        Cooperative Agreement No. 306-A-00-09-00512-00

                              Notes to Fund Accountability Statement

                       For the Period March 10, 2009 to December 31, 2011


(1)   Status and Operation

      Mercy Corps (also referred to as “Company”) was founded in 1979 in the state of Washington
      as Save the Refugees Fund, and in 1982 formalized as Mercy Corps. The Company
      subsequently moved its headquarters to its current location in Portland, Oregon, but is
      incorporated as a nonprofit organization under the laws of the state of Washington. Since 1979,
      Mercy Corps has provided relief and development assistance in the form of food, shelter, health
      care, agriculture, water and sanitation, education and small business loans to countries around
      the world.

      On March 10, 2009, USAID awarded Cooperative Agreement No. 306-A-00-09-00512-00
      (Agreement) to Mercy Corps, in partnership with SCF. The initial award was in the amount of
      $10,500,000 with a period of performance from March 10, 2009 through November 5, 2009. Of
      the initial award, $2,000,000 was subawarded to SCF. The purpose of the Agreement was to
      provide support for the Community Development Program (formerly the FIRUP Program) in four
      key provinces in northern Afghanistan. Specifically, the Agreement was to provide CFW wages
      for 30,000 local participants in the Afghan cities and suburbs of Mazar-e-Sharif, Kunduz, Pul-e-
      Khumri, and Bamyan. The Agreement was modified 13 times, increased the award to
      $69,237,804, extended the period of performance through December 31, 2011 and increased
      the number of provinces included in the scope by adding Balkh, Baghlan, Fariyab, Kapisa,
      Parwan, Samangan, and Sar e Pul. Of the total obligated amount, $19,500,000 was
      subawarded to SCF.


(2)   Summary of Significant Accounting Policies

      (a)    Basis of Accounting

             The Fund Accountability Statement reflects the revenues received and expenses
             incurred under the Agreement. It has been prepared on the accrual basis of accounting.
             Under the accrual basis of accounting, revenues are recognized when earned and
             expenses are recognized when incurred.

      (b)    Foreign Currency Conversion Method

             Mercy Corps converts its expenses that were paid in local currency (Afghanis) into
             reporting currency (U.S. Dollar) by applying an average monthly rate based upon the
             bank rates used to transfer funds between U.S. dollar account and Afghanis account.




                                                 14
                                               MERCY CORPS

                                 Financial Audit of Costs Incurred Under
                            Cooperative Agreement No. 306-A-00-09-00512-00

                                   Notes to Fund Accountability Statement

                                                   (Continued)


(2)   Summary of Significant Accounting Policies (Continued)

      (c)       Questioned Costs

                There are two categories of questioned costs, ineligible and unsupported. Ineligible
                costs are those costs that are deemed to not be allowable in accordance with the terms
                of the Agreement or applicable laws and regulations, including Office of Management
                and Budget (OMB) Circular A-122 and 22 CFR Part 226. Unsupported costs are those
                costs for which no or inadequate supporting documentation was provided for our review.


(3)   Revenues

      As of December 31, 2011, Mercy Corps has received $69,097,560 in payments from USAID
      under the Agreement plus earned interest in the amount of $2,284, which represent total
      program revenue of $69,099,844. For the period of March 10, 2009 through December 31,
      2011, the Company has invoiced $69,050,785 to USAID. The balance of $49,059 represents
      an amount due to USAID (see Note 11).


(4)   Personnel

      Mercy Corps reported personnel costs in the amount of $6,015,911 for the period March 10,
      2009 through December 31, 2011. Ineligible and unsupported personnel costs consisted of the
      following. See Finding 2013-2 in the Findings and Responses section of this report. Also, see
      Notes 5 and 10 for details of the associated fringe benefits and indirect costs, respectively.

                                 Observation                     No. of Errors   Questioned Cost
            Ineligible costs:
               Salary claimed at 100% when employee worked
                 only 50% on the program                               1             $ 1,762
               Per diem allowance claimed for an employee
                 that did not work on the program                      2                  91

            Total ineligible personnel costs                           3               1,853

               Unsupported costs:
                 Missing employee timesheets                         33              $11,388
                 Missing employment agreement                         2                  836
                 Missing supervisor approval of timesheet             7                7,681

               Total unsupported personnel costs                     42               19,905

            Total questioned personnel costs                         45              $21,758



                                                       15
                                                 MERCY CORPS

                                 Financial Audit of Costs Incurred Under
                            Cooperative Agreement No. 306-A-00-09-00512-00

                                  Notes to Fund Accountability Statement

                                                  (Continued)


(5)   Fringe Benefits

      Mercy Corps reported fringe benefits in the amount of $2,008,374 for the period March 10, 2009
      through December 31, 2011, which represents approximately 33% of personnel costs. The
      Company did not have an approved fringe benefit rate. Instead, it claimed actual fringe benefits
      directly incurred under the Agreement. Total ineligible and unsupported fringe benefit costs
      consisted of the following. See Finding 2013-2 in the Findings and Responses section of this
      report. Also, see Note 10 for details related to the associated indirect costs.

                                                                     Questioned           Associated
                               Observation                             Cost             Fringe Benefits
         Ineligible costs:
            Salary claimed at 100% when employee worked
              only 50% on the program                                 $ 1,762              $ 175
            Per diem allowance claimed for an employee
              that did not work on the program                             91                    -

         Total ineligible fringe benefit costs                           1,853                175

               Unsupported costs:
                 Missing employee timesheets                          $11,388                2,644
                 Missing employment agreement                             836                   62
                 Missing supervisor approval of timesheet               7,681                1,840

               Total unsupported fringe benefit costs                  19,905                4,545

         Total questioned fringe benefit costs                        $21,758              $4,720


(6)   Travel

      Mercy Corps reported travel costs in the amount of $370,127 for the period March 10, 2009
      through December 31, 2011. Insufficient documentation was provided for 1 sampled
      transaction as follows. See Finding 2013-3 in the Findings and Responses section of this
      report. Also, see Note 10 for details related to the associated indirect costs.

                                                             Number of      Questioned
                       Observation                            Errors          Cost
         Lack of approval for flight change fee                  1             $80

           Total questioned travel costs                         1                $80




                                                        16
                                            MERCY CORPS

                              Financial Audit of Costs Incurred Under
                         Cooperative Agreement No. 306-A-00-09-00512-00

                                Notes to Fund Accountability Statement

                                               (Continued)


(7)   Contractual (Program)

      Mercy Corps reported contractual (program) costs in the amount of $32,517,525 for the period
      March 10, 2009 through December 31, 2011 as follows:

           CFW program                                         $21,095,305
           Other program costs                                  11,422,220

             Total contractual (program) costs                 $32,517,525

      The following observations were noted during testing of contractual (program) costs, which
      resulted in questioned costs of $13,831. See Findings 2013-1 and 2013-4 in the Findings and
      Responses section of this report. Also, see Note 10 for details related to the associated indirect
      costs.

                                                                                Total Number
                                                                               of Transactions
                                     Observation                                  with Errors    Amount
           Results of CFW transaction testing noted numerous errors
            including: incomplete project reports; missing or illegible CFW
            fingerprints or signatures, or the same individual’s fingerprint
            was on different documents; Participant/Tools and
            Equipment Distribution List (PEDL) was missing or not
            approved; a photograph of the workgroup was not taken at
            the beginning of the project; incorrect wage rate was paid to
            CFW laborers; and no approvals of timesheets for CFW
            laborers                                                                  42         $11,511
           Missing procurement documentation                                           1           2,314

             Total questioned contractual (program) costs)                            43         $13,825


(8)   Contractual (Subgrant)

      Mercy Corps reported contractual (subgrant) costs in the amount of $19,504,355 for the period
      March 10, 2009 through December 31, 2011. All costs reported under this cost category were
      incurred by SCF. SCF claimed actual fringe benefits incurred and applied an approved final
      negotiated general and administrative (G&A) rate to its costs. The approved G&A rates were as
      follows:




                                                     17
                                          MERCY CORPS

                              Financial Audit of Costs Incurred Under
                         Cooperative Agreement No. 306-A-00-09-00512-00

                               Notes to Fund Accountability Statement

                                             (Continued)


(8)   Contractual (Subgrant) (Continued)

              Year Ended December 31            Approved G&A Rate
                       2009                          18.92%
                       2010                          15.92%
                       2011                          20.75%

      Questioned costs associated with the contractual (subgrant) cost category were primarily
      attributable to missing documentation as follows. See the specific finding number for details
      related to the observation noted.

        Finding                                                                          Questioned
        Number                               Observation                                    Cost
        2013-1      Lack of complete documentation to support CFW program costs           $356,495
        2013-2      Unsupported personnel and fringe benefit costs                         233,135
        2013-3      Unsupported travel costs                                                39,288
        2013-4      Lack of adherence to procurement procedures                              1,675

          Total questioned contractual (subgrant) costs                                    $630,593


(9)   Other Direct Costs

      Mercy Corps reported other direct costs in the amount of $2,252,440 for the period March 10,
      2009 through December 31, 2011. Questioned costs consisted of the following. See the
      specific finding number for details related to the observation noted. Also, see Note 10 for details
      related to the associated indirect costs.

        Finding                                                                          Questioned
        Number                                Observation                                  Cost
        2013-3      Journal entry not reviewed and approved                               $3,101
        2013-4      Lack of adherence to procurement procedures                            2,320

          Total questioned other direct costs                                              $5,421




                                                   18
                                          MERCY CORPS

                              Financial Audit of Costs Incurred Under
                         Cooperative Agreement No. 306-A-00-09-00512-00

                               Notes to Fund Accountability Statement

                                               (Continued)


(10)   Indirect Costs

       Mercy Corps reported indirect costs in the amount of $5,400,487 for the period March 10, 2009
       through December 31, 2011. These indirect costs are not included as a separate line item on
       the FAS, but are included as a component of each of the cost categories presented. The
       Company has an approved indirect cost rate for overhead. The negotiated final overhead rates
       for the period under audit were:

                                                    Approved
                  Year Ended June 30              Overhead Rate
                         2009                        13.24%
                         2010                        10.30%
                         2011                        11.77%
                         2012                        15.73%

       The overhead rate is applied to total direct costs, excluding capital expenditures (valued at over
       $5,000 or more per unit), donated material, donated commodities and expenses funded from
       the Ocean Freight, Inland Transportation and ITSH funding sources related to USAID Title II
       Food for Peace programs, loan principal costs, and sub-award costs in excess of $100,000 per
       sub-award per year.

       The appropriate overhead rate for each year was applied to the individual costs questioned. A
       summary of associated questioned indirect costs by cost category is as follows.

                                                                              Associated
                                                             Questioned       Questioned
                         Cost Category                          Cost         Indirect Cost
           Personnel (Note 4)                                 $26,478          $3,306
           Travel (Note 6)                                         80               10
           Contractual (program) (Note 7)                      13,825            1,832
           Other direct costs (Note 9)                          5,421              696

             Total questioned indirect costs                                   $5,844




                                                   19
                                         MERCY CORPS

                              Financial Audit of Costs Incurred Under
                         Cooperative Agreement No. 306-A-00-09-00512-00

                               Notes to Fund Accountability Statement

                                            (Continued)


(11)   Outstanding Fund Balance

       As of December 31, 2011, there was an outstanding amount due to USAID in the amount of
       $49,059, which represents amounts received from USAID in excess of costs incurred. Mercy
       Corps filed the final Federal Financial Report (SR425) with USAID in August 2013. With this
       final report, the total costs incurred changed due to the finalization of the program since the
       initial filing on July 25, 2012. USAID subsequently granted permission for Mercy Corps to use
       the excess funds received for approved costs of other USAID programs.




                                                 20
Board of Directors
Mercy Corps
45 S.W. Ankeny Street
Portland, Oregon 97204



               INDEPENDENT AUDITORS’ REPORT ON INTERNAL CONTROL


We have audited the Fund Accountability Statement of Mercy Corps with respect to Cooperative
Agreement Number 306-A-00-09-00512-00 (Agreement) with the United States Agency for
International Development (USAID) for the period March 10, 2009 through December 31, 2011,
and have issued our report thereon dated December 4, 2013. We conducted our audit in
accordance with auditing standards generally accepted in the United States of America and the
standards applicable to financial audits contained in Government Auditing Standards issued by
the Comptroller General of the United States.

Management of Mercy Corps is responsible for establishing and maintaining effective internal
control over financial reporting. In planning and performing our audit, we considered Mercy
Corps’ internal control over financial reporting, with respect to the Agreement, as a basis for
designing our auditing procedures for the purpose of expressing our opinion on the Fund
Accountability Statement, but not for the purpose of expressing an opinion on the effectiveness
of Mercy Corps’ internal control over financial reporting with respect to the Agreement.
Accordingly, we do not express an opinion on the effectiveness of Mercy Corps’ internal control
over financial reporting with respect to the Agreement.

Our consideration of internal control over financial reporting was for the limited purpose
described in the preceding paragraph and was not designed to identify all deficiencies in internal
control over financial reporting that might be significant deficiencies or material weaknesses and
therefore, there can be no assurance that all deficiencies, significant deficiencies, or material
weaknesses have been identified. However, as described in the accompanying Findings and
Responses, we identified certain deficiencies in internal control over financial reporting that we
consider to be material weaknesses and other deficiencies that we consider to be significant
deficiencies.

A deficiency in internal control exists when the design or operation of a control does not allow
management or employees, in the normal course of performing their assigned functions, to
prevent, or detect and correct misstatements on a timely basis. A material weakness is a
deficiency, or a combination of deficiencies, in internal control such that there is a reasonable
possibility that a material misstatement of the entity’s financial statements will not be prevented,
or detected and corrected on a timely basis. We consider the deficiencies described in the
accompanying Findings and Reponses as items 2013-1 and 2013-2 to be material weaknesses.



                                                21
Board of Directors
Mercy Corps
45 S.W. Ankeny Street
Portland, Oregon 97204

A significant deficiency is a deficiency or a combination of deficiencies in internal control that is
less severe than a material weakness, yet important enough to merit attention by those charged
with governance. We consider the deficiencies described in the accompanying Findings and
Responses as items 2013-3, 2013-4, 2013-6 and 2013-7 to be significant deficiencies.

Mercy Corps’ response to the findings identified in our audit is described in the accompanying
Findings and Responses. We did not audit Mercy Corps’ response and, accordingly, we
express no opinion on it.

This report is intended for the information of Mercy Corps, United States Agency for
International Development, and the Special Inspector General for Afghanistan Reconstruction.
Financial information in this report may be privileged. The restrictions of 18 USC 1905 should
be considered before any information is released to the public.




Irvine, California
December 4, 2013




                                                 22
Board of Directors
Mercy Corps
45 S.W. Ankeny Street
Portland, Oregon 97204



                  INDEPENDENT AUDITORS’ REPORT ON COMPLIANCE


We have audited the Fund Accountability Statement of Mercy Corps with respect to Cooperative
Agreement Number 306-A-00-09-00512-00 (Agreement) with the United States Agency for
International Development (USAID) for the period March 10, 2009 through December 31, 2011,
and have issued our report thereon dated December 4, 2013. We conducted our audit in
accordance with auditing standards generally accepted in the United States of America and the
standards applicable to financial audits contained in Government Auditing Standards issued by
the Comptroller General of the United States

As part of obtaining reasonable assurance about whether Mercy Corps’ Fund Accountability
Statement is free of material misstatement, we performed tests of its compliance with certain
provisions of laws, regulations, contracts, and grant agreements, noncompliance with which
could have a direct and material effect on the determination of Fund Accountability Statement
amounts. However, providing an opinion on compliance with those provisions was not an
objective of our audit, and accordingly, we do not express such an opinion. The results of our
tests disclosed instances of noncompliance or other matters that are required to be reported
under Government Auditing Standards and which are described in the accompanying Findings
and Responses as items 2013-5, 2013-8, and 2013-9.

Mercy Corps’ response to the findings identified in our audit is described in the accompanying
Findings and Responses. We did not audit Mercy Corps’ response and, accordingly, we
express no opinion on it.

This report is intended for the information of Mercy Corps, United States Agency for
International Development, and the Special Inspector General for Afghanistan Reconstruction.
Financial information in this report may be privileged. The restrictions of 18 USC 1905 should
be considered before any information is released to the public.




Irvine, California
December 4, 2013


                                             23
                                             MERCY CORPS

                                Financial Audit of Costs Incurred under
                           Cooperative Agreement No. 306-A-00-09-00512-00

                                          Findings and Responses

                          For the Period March 10, 2009 to December 31, 2011


2013-1: Lack of Complete Documentation to Support Cash-for-Work Programs

Condition:
Within the CFW Program, a total of 113 transactions, consisting of 59 program transactions totaling
$59,347 and 54 subgrant transactions totaling $312,670, were statistically selected for testing. A
summary of the observations noted is as follows.

                                                                              Total Number
                                                                             of Transactions
                                   Observation                                  with Errors    Amount
      Contractual (program):
        Results of CFW transaction testing noted numerous errors
          including: incomplete project reports; missing or illegible CFW
          fingerprints or signatures, or the same individual’s fingerprint
          was on different documents; Participant/Tools and Equipment
          Distribution List (PEDL) was missing or not approved; a
          photograph of the workgroup was not taken at the beginning of
          the project; incorrect wage rate was paid to CFW laborers; and
          no approvals of timesheets for CFW laborers                               42         $ 11,511

      Contractual (subgrant):
        Results of CFW transaction testing noted numerous errors
          including: missing project reports; missing or illegible CFW
          fingerprints or signatures, or the Payment Summary Report was
          missing or lacked approvals; Material/Refuse Tracking Form was
          missing; the village or location was not identified in the
          supporting documentation; and a photograph of the workgroup
          was not taken at the beginning and/or at the completion of the
          project                                                                   54          312,266

      Total questioned CFW costs due to lack of adequate supporting
       documentation                                                                96         $323,777

Details of the individual observations noted can be found in Appendix B to this report.


Cause:
Mercy Corps did not properly monitor its field team members or its subrecipient to ensure they were
following the requirements of the FIRUP1 CFW Guide when documenting the CFW program to ensure
that all costs incurred were allowable, allocable and reasonable.


1
 The Food Insecurity Response for Urban Populations (FIRUP) Program is now known as the Community
Development Program (CDP). The Guide, however, still uses the FIRUP Program name and is entitled the
FIRUP Cash for Work – Step-by-Step Guide to Program Implementation.


                                                      24
                                           MERCY CORPS

                               Financial Audit of Costs Incurred Under
                          Cooperative Agreement No. 306-A-00-09-00512-00

                                        Findings and Responses

                                              (Continued)


2013-1: Lack of Complete Documentation to Support Cash-for-Work Programs (Continued)

Criteria:
Mercy Corps developed a step-by-step guide for the implementation of the CDP CFW Program. The
FIRUP Cash For Work – Step-by-Step Guide to Program Implementation (FIRUP Guide) provides
detailed instructions as to project identification, proposal review, project development and approval, and
project implementation. Each of the steps in the FIRUP Guide contain details as to the who, what, why,
when and how for each component of the CFW Program. The detailed steps identify specific positions
required to make approvals and specific reports that are required to be generated as outputs. If the
steps in the FIRUP Guide are followed completely, then costs incurred will be deemed reasonable,
allowable and allocable to the CDP. If the Guide is not followed, then the reasonableness, allowability
and allocability of the costs can be uncertain.

FIRUP Cash for Work – Step-by-Step Guide to Program Implementation, states, in part:

       “Output 1: CfW04 – Participant / Tools and Equipment Distribution List (PEDL)…

         •   Area Supervisor is responsible for ensuring that each Site Supervisor properly
             maintains the PEDL throughout the project adding any new CfW participants.
         •   CfW Coordinator reviews and approves the PEDL at the end of the project and
             sends it to the Project Assistant…

       What: On the first day of project implementation the Site Supervisor records names of
       each participant and the equipment they have been issued as well as demographic data.
       Area Supervisor takes a photo of the work group….

       Output 2: CfW05 – Weekly Timesheet and CfW06 Payment Summary Form…

         •   Program Manager reviews and approves the Payment Summary Forms…and
             submits them to the Finance Officer.

         •   Finance reviews all Timesheets and Payment Summary Form for each Area
             Supervisor and signs Timesheets and Payment Summary Form….

       What: Each timesheet will indicate both morning and afternoon participation. It will also
       track: total days worked; total wages to be received; as well as signature (or thumbprint)
       indicating agreement with amount to be paid…

       Output 3: CfW07 – Materials / Refuse Tracking Form…

       What: Each Form will track the distribution of materials from waybill (or other delivery form) to
       the project site….”



                                                   25
                                         MERCY CORPS

                             Financial Audit of Costs Incurred Under
                        Cooperative Agreement No. 306-A-00-09-00512-00

                                      Findings and Responses

                                            (Continued)


2013-1: Lack of Complete Documentation to Support Cash-for-Work Programs (Continued)

      “Output 4: CfW08 – Daily Field Report…

      What: A review of the day’s activities and a documentation of issues that need to be
      addressed per project…

      Output 5: CfW09 – Weekly Project Summary…

      What: A weekly report summarizing each project that captures participant data, project
      status and cumulative project progress as well as any issues encountered and actions
      taken…

      Output 6: CfW010 – Monthly Program Summary…

      What: A monthly report summarizing progress against indicators and any issues
      encountered, actions taken and lessons learned…

      Output 7: CfW11 – Project Completion Report…

      What: The final document indicating that a project is complete and documents important
      quantitative data and other reporting information including lessons learned. Also records
      what involvement, if any, the government had in the project for management
      purposes…”

In addition to the FIRUP Guide which documents the policies and procedures for Mercy Corps
to administer the CFW Program, Mercy Corps’ subrecipient, SCF, has its own policies and
procedures to which it follows, in addition to the FIRUP Guide.

SCF’s Cash Wages Distribution Policy and Procedures – Save the Children, Community
Development Program, states, in part;

      “Monitoring of Time Sheet:
         • Every working day a group leader checks the time sheets in the presence of the
             participants who have signed the timesheets.
         • During the implementation of the project SCI staff Area Supervisor checks the
             time sheet in the presence of the participants in the project sites. Also the
             Engineers, Community Mobilizers and other staff spot check the timesheets
             during the monitoring visits.
         • After each 06 working days of the project duration Area Supervisors check,
             collect and sign-off the time sheets from the project sites and send them to the
             office for payment of wages.



                                                 26
                                           MERCY CORPS

                               Financial Audit of Costs Incurred Under
                          Cooperative Agreement No. 306-A-00-09-00512-00

                                        Findings and Responses

                                               (Continued)


2013-1: Lack of Complete Documentation to Support Cash-for-Work Programs (Continued)

       “Preparation of Payment:
           • SCI Finance team check working hours, signatures by the participants,
              signatures for review by the group leader and area supervisor. They then use
              the timesheets calculate wages based on work hours and counter checked
              against project agreement as regards names and rates. They then prepare the
              Summary Payment for the project site;
           • After preparation of the Summary payment it is approved by the Project
              Manager or designated staff….”


Effect:
Incomplete or missing project and other required reports, lack of photographs evidencing the work
groups and work that was performed, lack of disclosure of villages or locations where work was
performed, paying incorrect rates to laborers, and missing, illegible or inconsistent fingerprints does not
allow Mercy Corps to ensure that individual laborers actually worked or that projects were actually
completed. Given that all payments are made in cash, the risk of misappropriated funds is elevated
and the requirement to completely document the program as outlined in the FIRUP CFW Guide is
critical to support that funds were used for their intended purpose. Total questioned costs as a result of
the test exceptions are as follows:

                                   Questioned       Associated           Total
         Cost Category               Cost          Indirect Cost    Questioned Cost
    Contractual (program)          $ 11,511          $ 1,468          $ 12,979
    Contractual (subgrant)          312,266           44,229            356,495

      Total questioned costs        $323,777         $45,697            $369,474

The sampled costs were statistically selected. Had the results of our testing been extrapolated to the
population of each of the affected cost categories, the total questioned costs related to a lack of
complete documentation to support the CFW program would have been $4,091,657 and $8,730,556 for
the Contractual (program) and Contractual (subgrant) cost categories, respectively. However, in the
recommendation below, we are taking the conservative approach by not projecting the results to the
population, but asking Mercy Corps to take action on the actual questioned costs identified in the
sample.”


Recommendation:
We recommend that Mercy Corps either provide the necessary CFW documentation to USAID or return
$369,474 representing a lack of complete documentation to support the CFW program.




                                                    27
                                          MERCY CORPS

                               Financial Audit of Costs Incurred Under
                          Cooperative Agreement No. 306-A-00-09-00512-00

                                        Findings and Responses

                                             (Continued)


2013-2: Personnel Costs Claimed for Non-Program Personnel and Missing Documentation

Condition:
Mercy Corps claimed personnel costs for employees that either did not work in the CDP Program, or
worked partially in the CDP Program. Additionally, various records requested to support personnel and
personnel-related costs were either not provided, illegible or those records that were provided did not
completely support the costs claimed. The schedule below identifies the number of errors and
associated questioned costs.

                                                                 Number of    Questioned
                          Observation                             Errors        Cost
  Personnel:
    Ineligible costs:
       Salary claimed at 100% when employee worked
        only 50% on the program                                       1         $ 1,762
       Per diem allowance claimed for an employee that
        did not work on the program                                   2               91

     Total ineligible personnel costs                                 3            1,853

     Unsupported costs:
       Missing employee timesheets                                  33            11,388
       Missing employment agreement                                  2               836
       Missing supervisor approval of timesheet                      7             7,681

     Total unsupported personnel costs                              42            19,905

  Total questioned personnel costs                                  45            21,758

  Contractual (subgrant):
    Salary:
       Payroll distribution reports, cash disbursement
        vouchers, and overtime authorization forms
        provided were illegible                                       2           27,466
       Support provided does not agree with or support the
        sample selected                                               4           33,390
       No supporting documentation provided                           1           13,261
       Missing employment agreements                                  3           65,553
       Missing employment agreements and timesheets                   4           23,138

     Total questioned salary                                        14          162,808




                                                  28
                                           MERCY CORPS

                                Financial Audit of Costs Incurred Under
                           Cooperative Agreement No. 306-A-00-09-00512-00

                                       Findings and Responses

                                              (Continued)


2013-2: Personnel Costs Claimed for Non-Program Personnel and Missing Documentation
(Continued)

                                                                Number of    Questioned
                          Observation                            Errors        Cost
  Contractual (subgrant) (continued):
    Direct fringe benefits:
       Missing employment agreements and timesheets                 6         $ 1,962
       Support provided does not agree with or support the
        sample selected                                             1              722
       Illegible support provided                                   1              265
       No timesheet and payroll register were provided              1            2,309

     Total questioned direct fringe benefits costs                  9            5,258

  Total questioned contractual (subgrant) costs                    23          168,066

  Total questioned costs                                           68         $189,824

These questioned costs have been classified as follows:

      Ineligible costs                            $ 1,853
      Unsupported costs                            187,971

        Total questioned costs                  $189,824

In addition, Mercy Corps employees are paid based upon a pay scale and grade matrix. The exact pay
grade for each employee was not reflected on any of the payroll records or in the personnel files. As
such, we were unable to determine whether the rates actually paid were in accordance with the pay
grade assigned. No costs were questioned as compensating controls existed in the form of
management review and approval of payroll registers.


Cause:
Mercy Corps claiming personnel costs for employees that either did not work on the CDP Program or
that worked partially on the Program occurred due to clerical error in coding the hours worked during
the early stages of implementing the Program in Afghanistan. Once the Program was established,
these errors no longer occurred. The missing and insufficient documentation, which consisted primary
of timesheets, was due to an ineffective record filing and retention policy.




                                                     29
                                          MERCY CORPS

                              Financial Audit of Costs Incurred Under
                         Cooperative Agreement No. 306-A-00-09-00512-00

                                       Findings and Responses

                                              (Continued)


2013-2: Personnel Costs Claimed for Non-Program Personnel and Missing Documentation
(Continued)

Criteria:
All costs claimed under the Agreement as personnel costs must be supported by timesheets and
approved by a supervisor as required by OMB Circular A-122, Attachment B, Paragraph 8,
Compensation for personal services, which states, in part:

        “…m. Support of salaries and wages.

        (1) Charges to awards for salaries and wages, whether treated as direct costs or
        indirect costs, will be based on documented payrolls approved by a responsible
        official(s) of the organization. The distribution of salaries and wages to awards must be
        supported by personnel activity reports…”

Additionally, Mercy Corps Field Administration Manual, Section 2, Compensation, Paragraph 2.3.6,
Personnel Activity Reports (Timesheets), states, in part:

       “Each staff must complete a Personnel Activity Report (commonly referred to as a
       timesheet) each month demonstrating hours worked each day with a correlating cost
       center...

       Personnel Activity Reports (timesheets) are completed throughout the month and given
       to supervisors for review and approval on the last working day of the month…”

As to the lack of records available for review, 22 CFR 226.53, Retention and access requirement for
records, states, in part:

       “…(b) Financial records, supporting documents, statistical records, and all other records
       pertinent to an award shall be retained for a period of three years from the date of
       submission of the final expenditure report or, for awards that are renewed quarterly or
       annually, from the date of the submission of the quarterly or annual financial report, as
       authorized by USAID…”

Additionally, OMB Circular A-122, Attachment A, Paragraph A, Basic Considerations, states, in part:

       “…2. Factors affecting allowability of costs. To be allowable under an award, costs must
       meet the following general criteria:..

       g. Be adequately documented....”




                                                  30
                                           MERCY CORPS

                                Financial Audit of Costs Incurred Under
                           Cooperative Agreement No. 306-A-00-09-00512-00

                                        Findings and Responses

                                                (Continued)


2013-2: Personnel Costs Claimed for Non-Program Personnel and Missing Documentation
(Continued)

Furthermore, Mercy Corps Field Finance Manual, Section 17.2.3, Safeguarding Records, states, in
part;

         “Records serve as basic evidence that a transaction took place and that Mercy Corps
         and donor policies were followed. Missing or inadequate records can result in audit
         findings and costly disallowances, as well as a loss of trust from donors. Field offices
         must therefore take care to ensure that financial records are safeguarded from loss or
         misuse…”


Effect:
Failure to maintain adequate supporting documentation resulted in an inability to demonstrate that
costs incurred were allowable, allocable and related to the Agreement. A lack of adequate
management review over the coding of expenses to ensure the proper program has been charged
raises concern over the cost accounting system. Total questioned costs, including associated indirect
costs, are as follows:

                                   Questioned      Associated     Associated          Total
         Cost Category               Cost            Fringe      Indirect Cost   Questioned Cost
    Personnel – ineligible         $ 1,853          $ 175          $ 268            $ 2,296
    Personnel – unsupported          19,905           4,545           3,038            27,488
    Contractual (subgrant)          168,066          34,156         30,913           233,135

         Total questioned costs     $189,824        $38,876        $34,219           $262,919


Recommendation:
   (1) We recommend that Mercy Corps either provide an explanation including supporting
       documentation to clarify as to how the ineligible costs are allowable, or return $2,296 for the
       ineligible personnel costs.

   (2)     We recommend that Mercy Corps either provide the missing documentation or return
           $260,623 for unsupported personnel costs.

   (3)     We recommend that Mercy Corps provide training to its staff on safeguarding records and
           records retention as outlined in the CFR, OMB A-122 and its own Field Finance Manual.




                                                    31
                                              MERCY CORPS

                                 Financial Audit of Costs Incurred Under
                            Cooperative Agreement No. 306-A-00-09-00512-00

                                           Findings and Responses

                                                  (Continued)


2013-3: Missing or Insufficient Source Documentation to Support Expenses

Condition:
Mercy Corps was unable to provide records, or provided insufficient records, to support transactions
selected for testing within the Travel, Contractual (Subgrant) and Other Direct Costs cost categories.
Specifically, the following observations were noted:

                                                                            Number of
                                                                           Transactions
                                        Observation                         With Errors    Amount
  Travel:
               Lack of prior approval for flight change fee                      1          $     80

  Subtotal travel                                                                1                80

  Contractual (subgrant):
               Amount incorrectly calculated on the Goods Received Note,         1                  5
                 the Store Receipt and the Issue/Purchase Request Form
               Cash Disbursement Voucher not signed by preparer or               1               320
               reviewer
               Invoices, purchase orders and receiving reports provided          2              4,615
               were ineligible
               No payment voucher and cancelled check provided                   1               366
               No receipt for travel expense provided                            1               120
               Missing travel authorization request                              5               757
               No invoice provided                                               2               227
               No purpose of trip on Travel Authorization Request                1               400
               No support provided                                              14            24,058
               No Travel Authorization Request provided and expense
                  report was not approved                                        1                 96
               Trip cancellation fee charged to the Agreement                    1                 40
               Only partial invoices provided                                    8              2,476

  Subtotal contractual (subgrant)                                               38            33,480

  Other direct costs:
                Journal entry was not reviewed and approved                      1              3,101

  Subtotal other direct costs                                                    1              3,101

  Total costs for which missing or insufficient support was provided            40          $36,661




                                                       32
                                           MERCY CORPS

                               Financial Audit of Costs Incurred Under
                          Cooperative Agreement No. 306-A-00-09-00512-00

                                       Findings and Responses

                                              (Continued)


2013-3: Missing or Insufficient Source Documentation to Support Expenses (Continued)

Cause:
The majority of the missing documentation was the responsibility of SCF. SCF stated that they had 11
audits going on this year, and during the course of refiling documents, the support had been either
misfiled or misplaced.


Criteria:
22 CFR 226.53, Retention and access requirement for records, states, in part:

       “…(b) Financial records, supporting documents, statistical records, and all other records
       pertinent to an award shall be retained for a period of three years from the date of
       submission of the final expenditure report or, for awards that are renewed quarterly or
       annually, from the date of the submission of the quarterly or annual financial report, as
       authorized by USAID…”

Additionally, OMB Circular A-122, Attachment A, Paragraph A, Basic Considerations, states, in part:

       “…2. Factors affecting allowability of costs. To be allowable under an award, costs must
       meet the following general criteria:..

       g. Be adequately documented....”

Furthermore, Mercy Corps Field Finance Manual, Section 17.2.3, Safeguarding Records, states, in
part;

       “Records serve as basic evidence that a transaction took place and that Mercy Corps
       and donor policies were followed. Missing or inadequate records can result in audit
       findings and costly disallowances, as well as a loss of trust from donors. Field offices
       must therefore take care to ensure that financial records are safeguarded from loss or
       misuse…”

Additionally, Mercy Corps Field Finance Manual, Section 6.3.1.5, Fly America Act, states, in part;

       “All work-related travel by Mercy Corps employees must be approved in advance by the
       traveler’s supervisor before travel arrangements are made. International travel should
       be approved by the Country Director in addition to the employee’s supervisor.”




                                                   33
                                        MERCY CORPS

                             Financial Audit of Costs Incurred Under
                        Cooperative Agreement No. 306-A-00-09-00512-00

                                     Findings and Responses

                                            (Continued)


2013-3: Missing or Insufficient Source Documentation to Support Expenses (Continued)

Effect:
Failure to maintain adequate supporting documentation resulted in an inability to demonstrate that
costs incurred were allowable, allocable and related to the Agreement. Total questioned costs,
including associated indirect costs, are as follows:

                                Questioned      Associated          Total
          Cost Category           Cost         Indirect Cost   Questioned Cost
    Travel                       $     80         $ 10            $     90
    Contractual (subgrant)        33,480            5,808          39,288
    Other direct costs             3,101              365            3,466

      Total questioned costs      $36,661            $6,183       $42,844


Recommendation:
We recommend that Mercy Corps either provide adequate documentation to USAID or return $42,884
for costs which were inadequately supported. (Note – No recommendation is made to correct the
cause in this Finding as implementing Recommendation 3 in Finding 2013-2 addresses the issue.)




                                                34
                                             MERCY CORPS

                                Financial Audit of Costs Incurred Under
                           Cooperative Agreement No. 306-A-00-09-00512-00

                                        Findings and Responses

                                               (Continued)


2013-4: Lack of Adherence to Procurement Procedures

Condition:
Mercy Corps was unable to provide records, or provided insufficient records, to support the
procurement efforts as follows:

                                                                          Number of
                                                                         Transactions
      Cost Category                       Observation                     with Errors       Amount
  Contractual (program)     Missing approval on bid analysis                   1            $2,314
  Contractual (subgrant)    Missing quotation and/or bid analysis              6             1,425
  Other direct costs        Missing procurement documentation                  2             2,320

   Total costs for which procurement procedures were not followed              9            $6,059


Cause:
Mercy Corps did not effectively oversee its procurement processes to ensure its established
procedures were followed, and the documentation supporting the procurement process was not
maintained as required. Additionally, the majority of the missing documentation was the responsibility
of SCF. SCF stated that they had 11 audits going on this year, and during the course of refiling
documents, the support had been either misfiled or misplaced.


Criteria:
22 CFR 226.43, Competition, states, in part:

       “All procurement transactions shall be conducted in a manner to provide, to the
       maximum extent practical, open and free competition…Awards shall be made to the
       bidder or offeror whose bid or offer is responsive to the solicitation and is most
       advantageous to the recipient, price, quality and other factors considered…”

Additionally, 22 CFR 226.46, Procurement records, states:

       “Procurement records and files for purchases in excess of the small purchase threshold
       shall include the following at a minimum:

       (a) Basis for contractor selection,

       (b) Justification for lack of competition when competitive bids or offers are not obtained,




                                                   35
                                              MERCY CORPS

                                Financial Audit of Costs Incurred Under
                           Cooperative Agreement No. 306-A-00-09-00512-00

                                         Findings and Responses

                                                (Continued)


2013-4: Lack of Adherence to Procurement Procedures (Continued)

       “and

       (c) Basis for award cost or price.”

Mercy Corps Field Procurement Manual, Section 6.5, Documenting the procurement of goods, states:

       “All procurement activities must be fully and transparently documented. This is the sole
       process used by Mercy Corps to manage its procurement processes and demonstrate to
       donors that funds are being responsibly committed. A completed purchase must be
       supported with a fully cross-referenced “stand alone” file. Documentation must be
       completed fully and accurately in every case. Any anomalies or deviation from policy or
       procedure in a purchase must be documented with a signed (at minimum, by the
       Procurement Manager) explanatory “note to the file”. Full supporting documentation
       must answer any question that an auditor or external examiner may pose, without the
       necessity to refer to Procurement or Finance staff for explanation.”

Additionally, Mercy Corps Field Procurement Manual, Section 6.5.1.5, Quotation Analysis, states:

       “Purpose:

       The Quotation Analysis is the document used to summarize and compare supplier
       offers. It also documents and details justification of the selection of a given supplier.

       Completed by the Procurement Manager.

       Approved by the Quotation Analysis Committee. It is composed by officers from the
       Procurement Department, The Manager of the Originator’s Program and an approval
       authority; depending on the value of the purchase this can be a Senior Program
       Manager, the Head of Office or the Country Director…”

The Save the Children International Afghanistan Procurement Guidelines, states, in part:

       “…5. Threshold values: The table below sets out the procedures that need to be applied
       relative to the financial value or thresholds when carrying out a single purchase,
       procurement contract (see definition) or framework agreement…

       1 quote (verbal, written, catalogue)                          $0 – 500”




                                                     36
                                         MERCY CORPS

                                Financial Audit of Costs Incurred Under
                           Cooperative Agreement No. 306-A-00-09-00512-00

                                      Findings and Responses

                                             (Continued)


2013-4: Lack of Adherence to Procurement Procedures (Continued)

Effect:
Lack of support and adherence to procurement procedures does not allow Mercy Corps to demonstrate
that USAID funds were used for intended purposes, or that goods and services were actually received
or procured at a reasonable cost. Total questioned costs, including associated indirect costs, are as
follows:

                                  Questioned     Associated          Total
          Cost Category             Cost        Indirect Cost   Questioned Cost
    Contractual (program)          $2,314            $364          $2,678
    Contractual (subgrant)          1,425             250           1,675
    Other direct costs              2,320             331           2,651

         Total questioned costs     $6,059            $945           $7,004


Recommendation:
   (1) We recommend that Mercy Corps either provide adequate documentation to USAID or return
       $7,004 for costs in which there was a demonstrated lack of adherence to procurement
       procedures.

   (2)     We recommend that Mercy Corps establish procedures to ensure that all procurement files
           contain documentation as required by the CFR and its own Field Procurement Manual.




                                                 37
                                          MERCY CORPS

                               Financial Audit of Costs Incurred Under
                          Cooperative Agreement No. 306-A-00-09-00512-00

                                       Findings and Responses

                                              (Continued)


2013-5: Need to Review the Excluded Parties List

Condition:
No documentation was provided to support that Mercy Corps and SCF conducted reviews of 16 and 99
vendors, respectively, in the Excluded Parties List System (EPLS) prior to entering into vendor
contracts to verify that the vendors were not suspended, debarred or otherwise excluded from receiving
Federal funds.


Cause:
Mercy Corps has established an internal policy whereby it does not review the EPLS for purchases of
goods or services from vendors when the cost is less than $5,000. Additionally, Mercy Corps’
subrecipient, SCF, only reviews the EPLS for purchases of goods or services from vendors when the
cost is greater than $25,000. Both Mercy Corps and SCF were of the opinion that a threshold could be
set for performing the search based on reasonableness of dollar amount.


Criteria:
Cooperative Agreement No. 306-A-00-09-00512-00, Attachment C, Section C.10, Debarment,
Suspension, and Other Responsibility Matters Responsibility, states in part:

       “…b. The recipient agrees that, unless authorized by the Agreement Officer, it will not
       knowingly enter into any subagreements or contracts under this grant with a person or
       entity that is included on the Excluded Parties List System (http://epls.arnet.gov)...”

This criteria requires that Mercy Corps not do business with excluded parties. As such, Mercy Corps
must review the excluded parties list prior to entering into any contracts and document evidence of this
review in order to demonstrate it has complied with the criteria.


Effect:
By not checking the EPLS for vendors excluded from Federal procurement and nonprocurement
programs, Federal funds might be paid to a vendor that is debarred, suspended, or otherwise prohibited
from receiving Federal funds. None of the vendors were determined to be on the excluded parties list
and therefore no costs were questioned in this finding.




                                                  38
                                        MERCY CORPS

                             Financial Audit of Costs Incurred Under
                        Cooperative Agreement No. 306-A-00-09-00512-00

                                     Findings and Responses

                                           (Continued)


2013-5: Need to Review the Excluded Parties List (Continued)

Recommendation:
   (1) We recommend that Mercy Corps establish procedures to ensure it and its subrecipients
       review all vendors to ensure they do not appear as an excluded party on the System for
       Award Management (SAM), which has since replaced the EPLS, prior to entering into a
       contract for goods and/or services, and then periodically throughout the period of
       performance.

   (2)   We recommend that Mercy Corps revise and ensure its subrecipients revise its existing
         policies by removing the thresholds for searching for an excluded party in order to be in
         compliance with the CFR and the Agreement.




                                                39
                                          MERCY CORPS

                              Financial Audit of Costs Incurred Under
                         Cooperative Agreement No. 306-A-00-09-00512-00

                                      Findings and Responses

                                             (Continued)


2013-6: Lack of Segregation of Duties within Cash Disbursement Process

Condition:
There is a lack of segregation of duties within the cash disbursement process. The same individual
prepared, reviewed and entered the following Subjournal Vouchers into the Subjournal. Additionally, no
documentation was provided to support that an independent review was performed on the Subjournal.

    Sample No.           Cost Category                Amount
       29         Other direct costs                  $1,079
       32         Contractual (program)                   22
       33         Contractual (program)                  316
       56         Travel                                  33
       58         Travel                                  21
       59         Travel                                  11


Cause:
Mercy Corps indicated that the same individual could perform all functions as compensating controls
existed in the review of the Subjournal by a separate individual.


Criteria:
Mercy Corps Field Finance Manual, Section 2, Internal Controls, Paragraph 2.3, Basic Internal
Controls, states, in part:

       “…1. Segregation of duties – Responsibilities in a process should be separated and
       delegated to several employees rather than entrusted to one employee, with the goal of
       providing a system of checks and balances to prevent errors or dishonest behavior…

       2. Signature requirements – By requiring signatures, unauthorized transactions are
       prevented and accountability is established…

       5. Dual controls – Double-checks or reviews should be performed to ensure that critical
       decisions, high-value transactions or external reports are substantially correct…”


Effect:
Since the Subjournal Voucher is the initial document that supports and captures all aspects of a
transaction, a lack of segregation of duties and independent review could result in items coded
incorrectly or unauthorized transactions processed. No costs were questioned as the sampled items
were properly supported, allowable and allocable to the Agreement.




                                                 40
                                       MERCY CORPS

                             Financial Audit of Costs Incurred Under
                        Cooperative Agreement No. 306-A-00-09-00512-00

                                    Findings and Responses

                                          (Continued)


2013-6: Lack of Segregation of Duties within Cash Disbursement Process (Continued)

Recommendation:
We recommend that Mercy Corps review its cash disbursement process to ensure there are adequate
segregation of duties, that all Subjournal Vouchers are reviewed by an individual other than the
preparer, and that this review be documented.




                                              41
                                           MERCY CORPS

                               Financial Audit of Costs Incurred Under
                          Cooperative Agreement No. 306-A-00-09-00512-00

                                       Findings and Responses

                                              (Continued)


2013-7: Misclassified Expenses

Condition:
The following misclassified expenses were noted:

   •   Supplies in the amount of $18,391 were miscoded as contractual (program) costs; and

   •   Fringe benefits related to relocation in the amount of $380 was miscoded as travel costs.


Cause:
This condition occurred due to a lack of adequate management oversight over the recording and
posting of transactions.


Criteria:
Mercy Corps Field Finance Manual, Section 2, Internal Controls, Paragraph 2.5.2, Responsibilities of
Approval and Review Authorities, states, in part:

       “…Financial review is a compliance check…By signing for financial review, the review is
       confirming that:

       1. the expense has been authorized according to the Approval Authority Matrix;
       2. the expenditure is within budget guidelines;
       3. the expenditure is in compliance with Mercy Corps and donor policies;
       4. the expense has been coded correctly;
       5. the calculations are correct;
       6. the required supporting documentation is in order and adequately explains the
       transaction…”


Effect:
The inaccurate classification of expenses can result in the inaccurate reporting of costs by cost
category, which can undermine the budgetary controls in place per the Agreement. No costs were
questioned as a result of this finding as the costs were properly supported, allowable and allocable to
the Agreement.


Recommendation:
We recommend that Mercy Corps provide training to management regarding what is required to be
looked at when performing a financial review of transactions in accordance with its established policies.




                                                   42
                                           MERCY CORPS

                               Financial Audit of Costs Incurred Under
                          Cooperative Agreement No. 306-A-00-09-00512-00

                                       Findings and Responses

                                              (Continued)


2013-8: Foreign Tax Reports Missing

Condition:
Mercy Corps was not able to provide copies of foreign tax reports submitted for the periods October 1,
2008 to September 30, 2009 and October 1, 2010 to September 30, 2011.


Cause:
Mercy Corps has experienced turnover with staff responsible for the program. Individuals familiar with
the program are no longer working with Mercy Corps and the individuals assuming responsibility were
unable to locate the requested documentation. Additionally, management did not adequately enforce
its records retention policy.


Criteria:
Cooperative Agreement No. 306-A-00-09-00512-00, Attachment C, Section C.25, Reporting of Foreign
Taxes (March 2006), states in part:

       “a. The recipient must annually submit a report by April 16 of the next year.
       b. Contents of the report must contain…

       (vii) Report is required even if recipient did not pay any taxes during the report period…”

Additionally, Mercy Corps Field Administration Manual, Section 3, Office Management, Paragraph
3.3.2, Grant Agreement Files, states, in part:

       “Copies of all grant agreements, budgets, amendments, reports, documentation, donor
       correspondence and other key program documents should be kept in a centralized
       location as a permanent office record of Mercy Corps projects. All original grant
       documents are archived in the HQ Finance Department…”


Effect:
Not retaining copies of reports filed does not allow Mercy Corps to demonstrate to USAID that it has
complied with requirements of the Agreement.


Recommendation:
   (1) We recommend that Mercy Corps strengthen its record retention policy related to grant
       agreement files to ensure all program documentation is properly retained.




                                                   43
                                          MERCY CORPS

                               Financial Audit of Costs Incurred Under
                          Cooperative Agreement No. 306-A-00-09-00512-00

                                       Findings and Responses

                                              (Continued)


2013-8: Foreign Tax Reports Missing (Continued)

   (2)   Since Mercy Corps was unable to locate the Foreign Tax Reports, we recommend that it
         contact the taxing authority to confirm whether the Reports have been filed, and if not, that it
         file the required reports.




                                                   44
                                          MERCY CORPS

                               Financial Audit of Costs Incurred Under
                          Cooperative Agreement No. 306-A-00-09-00512-00

                                       Findings and Responses

                                              (Continued)


2013-9: Property Management System Lacked Approval

Condition:
The property management system used by Mercy Corps for the receipt, use, maintenance, protection,
custody and care of equipment, materials and supplies for which it has custodial responsibility, was not
approved by either the USAID Agreement Officer or Agreement Officer’s Representative.


Cause:
Mercy Corps indicated that the approval may have been obtained as part of the commencement of
other USAID programs in Afghanistan but was unable to locate evidence of approval.


Criteria:
Cooperative Agreement No. 306-A-00-09-00512-00, Attachment C, Section C.23, Title to and Care of
Property (Cooperating Country Title) (November 1985), states in part:

       “c. The recipient shall prepare and establish a program, to be approved by the
       appropriate USAID Mission, for the receipt, use, maintenance, protection, custody and
       care of equipment, materials and supplies for which it has custodial responsibility,
       including the establishment of reasonable controls to enforce such program…”

Additionally, Mercy Corps Field Administration Manual, Section 3, Office Management, Paragraph
3.3.2, Grant Agreement Files, states, in part:

       “Copies of all grant agreements, budgets, amendments, reports, documentation, donor
       correspondence and other key program documents should be kept in a centralized
       location as a permanent office record of Mercy Corps projects. All original grant
       documents are archived in the HQ Finance Department…”


Effect:
Failure to obtain approval of the property management system as required by the Agreement can result
in a system that lacks adequate controls to safeguard property acquired with Federal funds.


Recommendation:
We recommend that Mercy Corps establish procedures to ensure that it obtains approval of its property
management system as required by the Agreement, and that the approval be documented and
maintained in its grant files.




                                                  45
                                                                                     APPENDIX A
                                         MERCY CORPS

                              Financial Audit of Costs Incurred Under
                         Cooperative Agreement No. 306-A-00-09-00512-00

                                       Response to Findings

                     For the Period March 10, 2009 through December 31, 2011


Included on the following pages is Mercy Corps’ response received to the findings identified in this
report.




                                                46
                                                                                         APPENDIX A




Thank you for the opportunity to review the draft report and provide management comments to the
findings. In review of the report, two errors were noticed and we ask that the report be corrected
prior to the report being issued.

A.       Corrections

     1. Notes to Fund Accountability Statement, (8) Contractual (Subgrant). As discussed during the
        audit fieldwork, Save the Children was unable to claim $90,859.13 in Indirect Costs due to the
        limit on Indirect Costs line item included in their sub-grant agreement. The amount of
        questioned costs relating to Indirect Costs is less than the amount of unclaimed Indirect Costs
        from Save the Children. Since Save the Children would be able to claim up to their Indirect
        Costs limit on allowable direct costs, they should not be required to repay indirect costs as
        they would still have a balance of unclaimed indirect costs. Therefore, only the Direct Costs
        should be referenced as questioned within the report and not a combination of the direct and
        indirect costs. Could you please revise the appropriate references within the report to reflect
        the direct charges only?

          Finding                                       Referenced as
          Number           Direct       Indirect         Questioned
         2013-1          $ 312,266      $ 44,229        $     356,495
         2013-2            202,222        30,913              233,135
         2013-3             33,480         5,808               39,288
         2013-4              1,425           250                1,675
                         $ 549,393      $ 81,200        $     630,593

     2. Notes to Fund Accountability Statement, (10) Indirect Costs. The negotiated final overhead
        rates for the period under audit were as follows.

         Year Ended June 30              Approved Overhead Rate
                2009                            13.24%
                2010                            10.30%
                2011                            11.77%
                2012                            15.73%




                                                   47
                                                                                         APPENDIX A




B.      Management Comments

Save the Children has also provided a response to their findings, which is summarized within Mercy
Corps’ response and included as an Annex to Mercy Corps’ Findings for reference. They have
acknowledged the difficulty in responding to fully during the audit for various reason, and have advised
that they have been able to find much of the missing information, including time sheets, employment
contracts, some cash-for-work payment summaries, and missing vouchers. These documents as well as
the original cash-for-work vouchers of Save the Children are available in Afghanistan for review. If
there is an opportunity for SIGAR or USAID/Afghanistan to review prior to issuing the audit report, Save
the Children can make the documents available. Otherwise, they will be available for
USAID/Afghanistan to review once the report is issued.

2013-1: Lack of Complete Documentation to Support Cash-for-Work Programs

Management Response:

Mercy Corps disagrees with the condition in this finding and the resulting questioned costs. Mercy
Corps developed the FIRUP Cash-for-Work guidelines to provide an overview of each step in the Cash-
for-Work program cycle. These program implementation guidelines offer a framework for the various
steps and parties involved in monitoring the implementation of the cash-for-work program. Not all
steps are meant to offer an internal control procedure around the handling of cash and documentation
of distribution of cash to beneficiaries. Many of the referenced steps in the audit report are for
internal management purposes and were not designed to serve a compliance requirement. Some steps
result in a document, while others happen through meetings or informal e-mails, such as the Daily
Report. The steps were followed, but due to the length of the program and the length of time since it
has closed, some reference items, such as photos, that were filed electronically are no longer
accessible. The absence of documentation for the non-financial steps should not result in question
costs, especially as there was a third party monitor hired by USAID/Afghanistan in place for monitoring
and evaluation of the program and would have reviewed the non-financial components of the program.
As this is a financial audit, it is only Step 4 – Project Implementation, Output 2: Weekly Timesheets and
Payment Summary Form that details the requirements of documenting payment to the beneficiary and
should be the criteria in testing the allowability of cash for work payments.

The guidelines for Output 2 are detailed below:

Output 2: CfW05 – Weekly Timesheet and CfW06 Payment Summary Form
     WHO:
          • Group Leader prepares the timesheet for their group (if they are literate) recording days
             worked for each individual participant on a daily basis, INCLUDING THEMSELVES.




                                                  48
                                                                                             Page 2 of 14
                                                                                          APPENDIX A




           •Site Supervisors are responsible for ensuring weekly timesheets are maintained for each
            of their Group Leaders (up to three groups) who are reporting to them. The SS will sign
            and submit the Timesheets to the Area Supervisor at the end of each week.
        • Participants sign timesheets acknowledging they agree with the time and days worked
            and amount they expect to receive.
        • Area Supervisor reviews and approves the timesheets for each of up to nine projects and
            completes one Payment Summary Form sending all documents to the CfW Coordinator.
            They also maintain one weekly timesheet for all Site Supervisors under their supervision.
        • CfW Coordinator reviews the packet of timesheets with Payment Summary Form
            attached and gives them to the Program Manager for approval.
        • Program Manager reviews and approves the Payment Summary Forms for up to 10 Area
            Supervisors (90 projects) and submits them to the Finance Officer.
        • Finance reviews all Timesheets and Payment Summary Form for each Area Supervisor
            and signs Timesheets and Payment Summary Form. Finance prepares payments (see
            Payments section below).
        • Area Supervisors ensures document indicating receipt of payment (could be photocopied
            timesheet) for each individual is collected from Group Leaders and given to Finance.
      WHAT: Each timesheet will indicate both morning and afternoon participation. It will also track:
            total days worked; total wages to be received; as well as signature (or thumbprint)
            indicating agreement with amount to be paid.
      WHY: To track daily attendance per individual participant, calculate weekly wages, document
            total wages expected to be received and document receipt of payment.
      WHEN: Updated daily (morning and afternoon) and submitted weekly.
      HOW: Through the monitoring of daily attendance.

Mercy Corps followed the CFW guidelines to support the distribution to beneficiaries. The table below
summarizes the financial conditions in Appendix B and outlines why the costs should be deemed
allowable. In addition to the below, sample 15, 40 and 52 had no findings relating to the requirements
in Output 2, and therefore their questioned costs should be removed from the report.

Sample Nos.        Condition Noted in Audit     Notes on Allowability
1, 4, 9, 10, 12,   Signature was missing from   This finding relates to testing of Site Supervisor timesheets.
14, 17, 19, 24,    a worker                     In these cases the Site Supervisor did not finger print on each
30, 34, 36, 37,                                 day of work, but rather signed or finger printed when the
 43, 51, 56, 58                                 entire wage was received and signed or finger printed the
                                                wage approval. Each morning and afternoon worked was
                                                marked as worked. This complies with the requirements
                                                detailed above as the Area Supervisor maintains the
                                                timesheet and has noted when the time has been worked,




                                                  49
                                                                                              Page 3 of 14
                                                                                          APPENDIX A




Sample Nos.        Condition Noted in Audit     Notes on Allowability
                   Signature was missing from   and the Site Supervisor acknowledges the wage to be
                   a worker                     received and the payment received. There is no missing
                   (continued)                  signature, and as such the costs should not be questioned.
2, 23, 26, 33,     Fingerprints were            There are pen marks on the timesheet, but it is unclear if this
41, 46, 51, 56,    tampered by pen mark         was done prior to or after the fingerprint. There are marks
      59                                        on the days to show when morning and afternoons have
                                                been worked, and at times a single pen mark in the wage
                                                approval or wage received box. These are likely there to
                                                serve as a reminder that the fingerprint needs to be made or
                                                to document review of the fingerprint, or sometimes would
                                                have been the result of monitors or Site Supervisors double-
                                                checking the attendance of the workers listed. These sheets
                                                are generally printed or photocopied in the field where
                                                conditions can be challenging. This can also lead to marks on
                                                the sheets and then compounded if a Site Supervisor ticks or
                                                marks to aid in their review. These marks have not altered
                                                the presentation or presence of the fingerprint and so it is
                                                inaccurate to suggest that the finger print has been
                                                “tampered” by pen mark.
2, 5, 6, 13, 26,   Fingerprints for the same    The auditor did not provide specific reference to which
32, 33, 34, 43,    worker appears different     worker’s fingerprint appears different so we cannot speak to
  45, 53, 55                                    each specific example. However, this is a common issue with
                                                many NGOs performing CFW programming and we also saw
                                                this in our own monitoring of the program. Various reasons
                                                for the appearance of different finger prints include:
                                                • Workers used different fingers due to injury or a rush to
                                                     complete the timesheet. While this was not the
                                                     procedure, it happened on occasion.
                                                • On occasions where a worker was ill or unable to attend
                                                     work, which inevitably happens in a program of this size,
                                                     that worker would sometimes send a relative to
                                                     complete work in his place, hence the appearance of
                                                     apparently different fingerprints for the “same” worker.
                                                • Laborers were not informed in advance when wages
                                                     would be distributed due to security reasons, and
                                                     therefore may be absent when the wage was distributed.
                                                     Payment was then made to a relatives, co-worker or
                                                     community leader and later handed over to the
                                                     beneficiary.




                                                  50
                                                                                              Page 4 of 14
                                                                                       APPENDIX A




Sample Nos.       Condition Noted in Audit    Notes on Allowability
                  Fingerprints for the same   Each timesheet would have been prepared by the group
                  worker appears different    leader; the Site Supervisor would ensure that the timesheet
                  (Continued)                 is being properly maintained; the timesheets would have
                                              been reviewed and approved by the Area Supervisor and
                                              from this the Payment Summary Form would have been
                                              completed. The Program Manager would review and
                                              approve the Payment Summary form. There was also
                                              monitoring of the projects by Mercy Corps staff and a
                                              USAID/Afghanistan contracted third party. As such, there
                                              were sufficient compensating controls to ensure that
                                              beneficiaries received the CFW payments even if there were
                                              irregularities in the fingerprinting.
 4, 5, 6, 7, 9,   Fingerprints are            The auditor did not provide specific reference to which
11, 22, 31, 38,   similar/identical for       worker’s fingerprint appears different so we cannot speak to
43, 45, 47, 57    multiple workers            each specific example. However, this was also observed by
                                              Mercy Corps during program implementation. On several
                                              occasions Mercy Corps team member specifically
                                              investigated what appeared to be similar or identical
                                              fingerprints for different workers, but on-site verification
                                              with actual workers present in fact confirmed that the
                                              fingerprints – while appearing similar – were accurate (that
                                              is, were from different workers as listed). The similar
                                              appearance of fingerprints is due to the conditions under
                                              which fingerprinting was conducted: workers were
                                              fingerprinted on hand-held pieces of paper in conditions that
                                              were often dusty or windy, and workers’ hands were often
                                              dirty from construction materials, therefore making the
                                              resulting fingerprints either indistinct or similar-looking.
      10          The incorrect wage rate     The auditors did not provide a reference to which worker
                  was paid for the type of    was paid the incorrect wage. In review of the
                  worker.                     documentation, it appears that all wage rates were correct.
      11          The incorrect wage rate     This was a project that was implemented in a period that
                  was paid for the type of    overlapped the off-season and during the harvest period.
                  worker.                     The wage rate was agreed at the onset of the program, and
                                              was agreed at a rate of $5/day as that is the rate for the
                                              harvest period. It would be impractical to have the workers
                                              agree to one rate for one day and another rate for the
                                              following day. Since the rate paid was per the project
                                              agreement, these costs should be considered allowable.




                                                51
                                                                                           Page 5 of 14
                                                                                        APPENDIX A




Sample Nos.      Condition Noted in Audit     Notes on Allowability
     35          The incorrect wage rate      This was for a project in October 2010 when the number of
                 was paid for the type of     hours worked during the work day had to be extended to
                 worker.                      finish the project within the timeframe established. The
                                              associated wage was also increased to correspond with the
                                              extension of work day. Mercy Corps is responsible to ensure
                                              effective implementation and the wage increase was
                                              deemed necessary for implementation. This wage increase
                                              on this project didn’t require formal modification as outlined
                                              in 22 CFR 226, and therefore should be deemed allowable.
      37         Deputy program manager       It is agreed that there is one timesheet that was not signed
                 did not approve              by the Deputy Program Manager. However, it is also a
                 timesheets for all workers   requirement that the Payment Summary Form be signed by
                                              the Deputy Program Manager. The Payment Summary Form
                                              and all other remaining timesheets were signed, so it is likely
                                              an oversight that this one timesheet wasn’t signed. Given
                                              that there were compensating controls, the costs should be
                                              deemed allowable.
    41, 56       Fingerprints were printed    Following a Fingerprint and Compliance Training session in
                 in identical square shapes   Kabul for the CDP program, in an effort to make his
                                              paperwork appear neater, a Site Supervisor cut out a small
                                              cardboard square to have people fingerprint through. It was
                                              identified that this was not to be done, and the Site
                                              Supervisor was instructed to discontinue this practice.
41, 46, 55, 56   Fingerprints were            This is an unfortunate hazard when doing Cash-for-Work
                 unreadable; Fingerprints     programming in a remote operating environment within
                 were smeared                 Afghanistan. As mentioned, workers were fingerprinted on
                                              hand-held pieces of paper, with locally available inkpads, in
                                              conditions that were often dusty or windy, and workers’
                                              hands were often dirty from construction materials. Given
                                              the number of workers and conditions, it is difficult to ensure
                                              that each fingerprint is completely clear. This is recognized,
                                              and therefore the procedure included compensating
                                              controls, such as Site Supervisor, Area Manager and Program
                                              Manager review and approval to ensure that workers
                                              received the correct wages.

Save the Children also had similar procedures for Cash-for-Work distributions. There was not time
during the audit period for the auditors to review the original source documents relating to the Cash-
for-Work payments since the audit was conducted in Portland, Oregon and the original documentation
was in Afghanistan. This would have cleared many of the findings. Scanned documents proved to be




                                                 52
                                                                                            Page 6 of 14
                                                                                       APPENDIX A




insufficient to address many of the finding relating to CFW exceptions. Additionally, due to when the
documents were provided to the auditors, there wasn’t the ability for Save the Children to advise the
auditors how the documentation addressed the exceptions. Original documentation is available in
Afghanistan for review by SIGAR or USAID/Afghanistan. Details on each of the findings are included in
the Annex to Mercy Corps’ Findings. There were seven findings often repeated in the observations,
and Save the Children has a “common response” to those findings, which are detailed below.

  Audit Finding           SC Response to audit finding
  Fingerprints of the      1. Due consideration should be given to the rural operating environment in
  workers were                Afghanistan w h e r e    fingerprints were collected using locally
  unclear or absent           available inkpads and provincial staff. The documents were then scanned
  on timesheets.              to share with the auditors and more definition was lost.
  Instead of               2. At the beginning of the project checkmarks were introduced instead of
  fingerprints there          fingerprints due to insufficient space in the timesheet format. From the
  were checkmarks             beginning of the project it was not mandatory to use fingerprints of the
  on all timesheets.          workers to the time sheets.       After revision of the time sheets to allow
                              enough space for fingerprints, use of fingerprints became mandatory.
  No project               3. During the project cycle Save the Children continuously monitored project
  monitoring reports          sites. All project motoring was conducted by the project staff (Area
  provided.                   Supervisors; Engineers; Community Mobilizers; M&E staff; project
                              coordinator; project manager, etc.) The monitoring reports were kept in
                              the separate files from the project agreement files. SC is able to share
                              samples of the monitoring reports if required. Based on daily monitoring
                              reports, SC staff prepared the weekly summary reports (e.g. “FIRUP Weekly
                              Project Summary”) which were kept in the project agreement files.
  Materials/refuse         4. As per Save the Children internal policy on supply chain management, Save
  tracking form not           the Children had used its own materials/refuse tracking format named
  provided.                   “Released Order Note”. The documents were filed and kept in the logistic
                              department. This practice is used for items moved from the warehouse to
                              the project sites. This is SC standard practice. In addition, Save the
                              Children gradually used the materials/refuse tracking sheets in CFW
                              projects funded by USAID.
  No group photo or        5. From the beginning of the project group photos and project completion
  finished project            photos were taken at all the times. But some cases those photos were not
  photo provided.             put into the project but kept in the computer. At the beginning of the
                              project it was not a mandatory requirement to keep photos and
                              completion finished photos in the project file document. That’s why some
                              occasions the project photos including group and finished photos were not
                              available in the project file.




                                                 53
                                                                                           Page 7 of 14
                                                                                        APPENDIX A




  Audit Finding           SC Response to audit finding
  The village was not      6. Save the Children made an agreement with the CDC (Community
  listed on any of the        Development Council) while developing and implementing CFW projects
  project documents.          funded by USAID. The CDC name was mentioned in the agreement and
                              timesheets as indicated as a location of the project. In most of the cases
                              the CDC names are the same as village names.
  No group photos or       7. The referenced project activities were for women. Owing to conservative
  finished project            cultural values, communities initially did not allow pictures to be taken of
  photos:                     their women. Some photos were taken during the project life after this
                              was accepted by the communities and beneficiaries.

There is also reference in observations related to Save the Children regarding fingerprints printed in
identical square or triangular shapes. This was due to staff using a paper stencil so that the finger
prints would not be too large or overlap each other. The result is that many finger prints have the
same triangle, square or parallelograms outside dimensions with the fingerprints inside those stenciled
shapes are clearly unique.

Given that Mercy Corps and Save the Children followed their own guidelines relating to cash
disbursement throughout the program, and there is a reasonable explanation for the exceptions, the
costs should be deemed eligible.

2013-2: Personnel Costs Claimed for Non-Program Personnel and Missing Documentation

Management Response:

Mercy Corps disagrees in part with this finding. Mercy Corps has designed the Personnel Activity
Report to fulfill two functions, 1) to document the distribution of time to awards and 2) to track paid-
time off for tracking by the HR department. It is for this reason that Mercy Corps policy is that the
supervisor should review and approve the monthly timesheet. The requirement in OMB Circular A-133,
Attachment B., Paragraph 8 Compensation for personal services, m. Support of salaries and wages, (2)
states in part that the “(c) The reports must be signed by the individual employee, or by a responsible
supervisory official having first-hand knowledge of the activities performed by the employee…” Mercy
Corps has met this compliance requirement with the signature of the employee. The documented
calculation of salary and wages and net pay is approved by a responsible party of the organization,
meeting the requirements outlined in OMB Circular A-133, Attachment B., Paragraph 8 Compensation
for personal services, m. Support of salaries and wages, (1). Therefore, Mercy Corps disagrees that
$7,681 and associated fringe should be a questioned cost.

Mercy Corps disagrees that $836 and associated fringe should be questioned due to a missing
employment agreement. There is other documentation that supports the amount agreed and paid to




                                                  54
                                                                                            Page 8 of 14
                                                                                          APPENDIX A




the employee, such as the offer letter or pay slip. The cost can be determined reasonable by reviewing
the salary scale and position for the employee referenced.

Mercy Corps accepts that $1,853 in ineligible costs should be questioned. The allocation of salary in
excess of time work was an error in the allocation of payroll. The per diem allowance was for drivers
that did support the program. However, the associated time for the drivers wasn’t charged to the
program. In absence of such support, Mercy Corps will accept the questioned costs. We also accept
$11,388 in questioned costs relating to missing timesheets. While it is felt that there is sufficient
evidence that the employees did work on the program, and it is likely that timesheets are missing due
to in-country audits and closure of the related offices, we recognize that we do not have support of the
allocation to the program. A total of $17,961 for the costs, associated fringe and indirect costs will be
removed from the program. An updated final report will be submitted to USAID and funds will be
returned via Mercy Corps’ Letter of Credit (LOC).

Missing timesheets and employment agreements for Save the Children for $160,764, plus associated
fringe, have been located and are available for review and can be shared with the auditors or USAID.

2013-3: Missing or Insufficient Source Documentation to Support Expenses

Management Responses:

Mercy Corps disagrees that $495 in Travel related costs were unsupported. The ticket change fee of
$80 was approved by the traveler as well as the Country Director who had signed off on the
Operational Expense Report that showed evidence of the tickets purchased and associated costs. For
the Certification for non-US flight carrier, there is not a requirement that this be approved. To
document our compliance with the Fly America Act, Mercy Corps has added a Certification of
Unavailability of US Carrier to be filed with the associated Travel Approval form in the case that a U.S.
Carrier is unavailable. The travel in question was from Kabul to Dubai, and there is no U.S. Flag Carrier
that provides service between these destinations. The traveler had completed the Certification
electronically and had attached it to his submitted Travel Approval form. While he failed to complete
the “Certified By” section of the form, all other sections where complete and the associated travel
approval from was properly approved and financially reviewed. As the compliance requirement is to fly
U.S. Flag Carrier when available, we’ve meet the basic compliance requirement. As such, these costs
are documented and supported and therefore should not be questioned.

Mercy Corps accepts the observation related to the journal entry that was not reviewed and approved
for $3,101 and will remove the amount from the program. An updated final report will be submitted
to USAID and funds will be returned via the LOC.

Save the Children have reviewed the related observations, and have confirmed that there is sufficient
documentation to support $21,558 of the referenced $33,480. Some of these documents were




                                                  55
                                                                                              Page 9 of 14
                                                                                         APPENDIX A




provided during audit field work, but there was insufficient time to address the auditors’ questions
prior to finalizing the audit. Additional document has been located in Afghanistan and available for
USAID’s review. The following includes the amount that has been located by Save the Children.

                                                                              Number of
                               Observation                                   Transactions    Amount
Invoices, purchase orders and receiving reports provided were ineligible          1           $ 4,235
No payment voucher and cancelled check provided                                   1                366
No receipt for travel expense provided                                            1                120
No invoice provided                                                               1                139
No purpose of trip on Travel Authorization Request                                1                400
No support provided                                                               3             16,298
                                                                                             $ 21,558

Additional details on the samples are included in the Annex to Mercy Corps’ Findings. Due to the time
limitations in responding to the audit and number of questions costs, Save the Children focused on
responding to the major issues and didn’t comment on each transaction. Documentation is available
for USAID/Afghanistan’s review.

2013-4: Lack of Adherence to Procurement Procedures

Management Response:

Mercy Corps disagrees that the referenced costs should be questions. Mercy Corps recognizes the
importance of following Mercy Corps’ procurement policy in order to evidence the compliance with the
Procurement Standards in 22 CFR 226.40 through 22 CFR 226.49. While not all steps in the
procurement process where documented according to our procurement manual, the procurements
where done in a manner to ensure open and free competition and to ensure reasonable and necessary
costs to the program.

    1. $1,699 relates to a payment to Roshan GSM for mobile phone usage. A preferred supplier
       agreement was signed with Roshan GSM in May 2010 that establishes pricing, billing and other
       terms of the contract. While the Afghanistan team is unable to provide the competitive
       process documentation associated with this procurement, the selection of Roshan GSM was
       done based on the requirements necessary for such service. Roshan GSM was selected due to
       its’ coverage throughout Afghanistan, quality of services and tariff rates. Information from the
       vendors within Afghanistan is publically available on the internet, and so a review of the market
       place could have been done without receiving individual quotes. Additionally, almost all




                                                   56
                                                                                            Page 10 of 14
                                                                                          APPENDIX A




        national and international NGOs use Roshan because of their coverage area. There are limited
        service providers in Afghanistan that have such an expansive network.

    2. $621 relates to a service contract to support the program by provide training and identification
       of income generation projects in Mazar-i Sharif. A Purchase Request was raised and properly
       approved for this transaction. A request for quotation and quotation analysis are missing from
       the documentation, and in lieu a Curriculum Vitae was provided as support of the qualifications
       of the individual. As there are limited individuals in Mazar-i Sharif with the required skill sets,
       and the service contract was properly executed, the costs should be deemed reasonable and
       necessary.

    3. $2,314 relates to a procurement of gravel where there were only two members that signed off
       on the quotation analysis, a member from the Procurement Department and the Manager of
       the Originator’s Program, who happened to have the appropriate approval authority over this
       transaction. There might have been some confusion, as the third member of the committee is
       someone with approval authority. While the document itself is missing this third signature, the
       contract issued to the vendor was signed by the Deputy Country Director and reviewed by
       Finance. This is a compensating control to ensure that procurement transactions are
       conducted with free and open competition. Had there been an issue with the selection of the
       company, the Deputy Country Director would not have signed the contract. It should also be
       noted that the company selected offered the lowest price.

The six transactions for Save the Children are under $500, and do not require quotation and bid
analysis per Save the Children’s procurement policy. As these transactions are in line with the
procurement policy, we ask that this observation be removed.

2013-5: Need to Review the Excluded Parties List

Management Response:

Mercy Corps disagrees with this finding and we ask that it be removed from the report because both
Mercy Corps’ and SCF’s policies are in compliance with the applicable thresholds for the verification of
debarment and suspension.

First, it should be noted that the previous draft of this report which was reviewed by Mercy Corps did
not fully reference the criteria which now appears in this final draft in relation to list-checking
compliance (Finding 2013-5). The comments attributed to Mercy Corps, “…Both Mercy Corps and SCF
were of the opinion that a threshold could be set for performing the search based on reasonableness of




                                                   57
                                                                                             Page 11 of 14
                                                                                        APPENDIX A




dollar amount...”, do not reflect our opinion related to compliance with the USG rules on Debarment
and Suspension. Had the debarment and suspension criteria which now appear in this report been
presented in the initial draft, Mercy Corps would have provided the following response:

1. While we agree that the criteria cited, (22 CFR 226.13, Debarment and Suspension; and the
   Standard Provision, Attachment C, Section C.10, Debarment, Suspension, and Other Responsibility
   Matters (January 2004)), do apply to transactions incurred under this award, the citations in the
   report do not go far enough to accurately state the applicable thresholds, which are contained in 2
   CFR 180.

2. 2 CFR 180 applies to this award because:
       a. The award contained the Standard Provision, Attachment C, Section C.10, Debarment,
           Suspension, and Other Responsibility Matters (January 2004).
       b. Paragraph c of this Standard Provision (which was omitted in the audit report criteria)
           references the applicability of 22 CFR 208:
               “c. The policies and procedures applicable to debarment, suspension, and ineligibility
               under USAID-financed transactions are set forth in 22 CFR Part 208.”
       c. In August 2005, OMB updated its guidance on nonprocurement debarment and
           suspension [Federal Register; August 31, 2005, Vol. 70, No. 168]. In doing so, 22 CFR 208
           was superseded and government-wide guidance was re-issued as 2 CFR 180.

3. 2 CFR 180.300 and 2 CFR 180.220, taken together, require that checking the EPLS (or other
   methods of assurance) be performed for procurement transactions under nonprocurement
   instruments when the amount of the contract equals or exceeds $25,000.

        §180.300 What must I do before I enter into a covered transaction with another person at the
        next lower tier?

        When you enter into a covered transaction with another person at the next lower tier, you must
        verify that the person with whom you intend to do business is not excluded or disqualified. You
        do this by:

        (a) Checking the EPLS; or
        (b) Collecting a certification from that person; or
        (c) Adding a clause or condition to the covered transaction with that person.

        [70 FR 51865, Aug. 31, 2005, as amended at 71 FR 66432, Nov. 15, 2006]




                                                  58
                                                                                           Page 12 of 14
                                                                                            APPENDIX A




       §180.220 Are any procurement contracts included as covered transactions?

       (a) Covered transactions under this part—

       (1) Do not include any procurement contracts awarded directly by a Federal agency; but
       (2) Do include some procurement contracts awarded by non-Federal participants in
       nonprocurement covered transactions.

       (b) Specifically, a contract for goods or services is a covered transaction if any of the following
       applies:

       (1) The contract is awarded by a participant in a nonprocurement transaction that is covered
       under §180.210, and the amount of the contract is expected to equal or exceed $25,000.
       (2) The contract requires the consent of an official of a Federal agency. In that case, the
       contract, regardless of the amount, always is a covered transaction, and it does not matter who
       awarded it. For example, it could be a subcontract awarded by a contractor at a tier below a
       nonprocurement transaction, as shown in the appendix to this part.
       (3) The contract is for Federally-required audit services.

       (c) A subcontract also is a covered transaction if,—
       (1) It is awarded by a participant in a procurement transaction under a nonprocurement
       transaction of a Federal agency that extends the coverage of paragraph (b)(1) of this section to
       additional tiers of contracts (see the diagram in the appendix to this part showing that optional
       lower tier coverage); and
       (2) The value of the subcontract is expected to equal or exceed $25,000.

       [70 FR 51865, Aug. 31, 2005, as amended at 71 FR 66432, Nov. 15, 2006]

4. Both Mercy Corps’ and SCF’s policies require verification of debarment and suspension for
   transactions greater than or equal to $25,000 and are, therefore, in compliance with the applicable
   rules and list-checking was not required on these non-threshold transactions.

2013-6: Lack of Segregation of Duties within Cash Disbursement Process

Management Response:

Mercy Corps disagrees with this finding. The subjournal voucher is not a control document related to
the disbursement of cash, but rather serves as a coversheet for the supporting documentation for each
transaction. The subjournal voucher summarizes the key financial information related to the
transactions and provides a unique tracking number, linking a line entry in the accounting system with
the original documentation that supports the transaction. The subjournal voucher is entered into a




                                                   59
                                                                                               Page 13 of 14
                                                                                          APPENDIX A




subjournal and uploaded monthly into the financial system. The subjournal is prepared and reviewed
by separate individuals. Cash disbursements are approved via a payment request or employee expense
report. There were no noted issues with the segregations of duties on the payment request or
employee expense reports referenced in these samples.

2013-7: Misclassified Expenses

Management Response:

Mercy Corps recognizes the importance of properly classifying expenses and will continue to reinforce
our policies surrounding financial review of transactions. These are rare instances of miscoding that
weren’t identified and corrected within the financial system.

2013-8: Foreign Tax Reports Missing

Management Response:

Mercy Corps accepts this finding and additional care will be taken to ensure electronic filing of the
submission of the Foreign Tax Reports. Mercy Corps will contact the Mission and determine if the
required report has been filed. It should be noted that no foreign taxes would have been reported
under this cooperative agreement.

2013-9: Property Management System Lacked Approval

Management Response:

Mercy Corps accepts this finding and will strive to improve filing of such approvals for future awards
which contain the Standard Provision, Title to and Care of Property (Cooperating Country Title)
(November 1985).

While Mercy Corps was not able to produce documentation evidencing Mission approval for this
specific award, Mercy Corps’ systems for property management do comply with the applicable
requirements set out in the Standard Provision and in 22 CFR 226.30-37. Compliance with these
standards is audited as required in Mercy Corps’ A-133 audit.




                                                   60
                                                                                             Page 14 of 14
Annex to Mercy Corps' Findings                                                                   APPENDIX A




                                        November 22, 2013

To:                 Amy Mulkerin, Global Finance Director Mercy Corps
From:               Paul Barker, Country Director SCI in Afghanistan
Subject:            SC response to the draft audit report


Dear Amy,
Thanks for sending us the draft audit report and giving us an opportunity to share our
comments on the contents of the audit and the questioned costs.
We had difficulty in responding more fully during the audit due to the enormity of the
document requests, the remote sub office locations in which many documents were
stored, the limited time allotted to find and deliver the documentation (even when
considering the time extensions), and the heavy competing demands of other
simultaneously ongoing audits and our own extensive ongoing work requirements. The
sharing of documentation further exacerbated by the need to scan these documents
and send them to MC through email and file exchange. These factors contribute to
irregularities and inadequate reconciliation as we hurried to provide data to the auditors.
Since our last response we have been able to find a lot of information including time
sheets, employment contracts, some of the project cash for work payment summaries
and some missing vouchers which had been stored in the field offices. These
documents will be available for review by the auditors. Our responses to the audit are
based on the current status and hard documents that we have on hand as of this date.
These documents will be presented to the auditor.
Responses to the audit report are grouped in the following categories:
      a.    Procurement exceptions
      b.    CFW exceptions
      c.    Missing or inadequate support exceptions
      d.    Payroll exceptions
      e.    Excluded party exceptions

The detailed information for the above categories and our comments regarding various
transactions and samples is listed in the follow on pages.
We know that we were not able to provide the required information in the given time
frame due to reasons explained above. Since many of the additional documents were
located recently in the field offices and will be available in the country office, we
recommend that these documents be reviewed by auditor before the audit report is

Afghanistan Country Office                Save the Children International   A company limited by guarantee and
Save the Children                         St Vincent's House                registered charity in England and Wales
P.O. Box 642                              30 Orange Street                  Registered Charity Number 1076822
Kabul                                     London WC2H 7HH                   Registered Company Number 3732267
Afghanistan                               United Kingdom                    www.savethechildren.net


                                                       61                                                             1
Annex to Mercy Corps' Findings                                                            APPENDIX A




finalized. It would be easy for the local SIGAR office in Afghanistan to see these
documents and then finalize the audit report based on the final review of
documentations.

Best regards,




Paul Barker
Country Director
Save the Children International in Afghanistan




Afghanistan Country Office         Save the Children International   A company limited by guarantee and
Save the Children                  St Vincent's House                registered charity in England and Wales
P.O. Box 642                       30 Orange Street                  Registered Charity Number 1076822
Kabul                              London WC2H 7HH                   Registered Company Number 3732267
Afghanistan                        United Kingdom                    www.savethechildren.net


                                                62                                                             2
Annex to Mercy Corps' Findings                                                   APPENDIX A




PROCUREMENT EXCEPTIONS
Exception tick 69 sample 38 reference CDB 1396 for AFN 11,015 equivalent to USD 244.07 for
purchase of project Materials & stationary for BAM.PA # 3028 is in line with procurement policy
and there are various invoices available.

Exception tick 33 sample 39 reference CDB 1396 for AFN 11,015 equivalent to USD 244.07 for
Materials & stationary for BAM.PA # 3033 is in line with procurement policy and any
procurement for less than USD 500, does not require quotation and bids analysis. Therefore
this item should be removed from the list of questionable costs.

Exception tick # 30 sample # sample# 44, sample #47, sample # 147 and sample # 150 reference
vouchers CBB 1197 for AFN 624 equivalent to USD 12.77 reference voucher # CBB 1206 for AFN
7,520 equivalent USD 154, reference voucher # CBK-1009 for USD 385 and reference voucher
# CBK-1034 for USD 385 are all according to SC procurement policy under which procurement
valued less than USD 500 does not require quotations. It is also lower than the threshold for
clearing excluded party. We believe that all the costs indicated here are appropriate and
should be removed from the questionable costs.




                                              63                                              3
Annex to Mercy Corps' Findings                                                                APPENDIX A



CASH FOR WORK EXCEPTIONS

Common Findings and SC Response:
Audit Finding       SC Response to audit finding
Fingerprints of the  1. Due consideration should be given to the rural operating environment in
workers were            Afghanistan where fingerprints were collected using locally available
unclear or absent       inkpads and provincial staff. The documents were then scanned to share
on timesheets.          with the auditors and more definition was lost.
Instead of           2. At the beginning of the project checkmarks were introduced instead of
fingerprints there      fingerprints due to insufficient space in the timesheet format. From the
were checkmarks         beginning of the project it was not mandatory to use fingerprints of the
on all timesheets.      workers to the time sheets. After revision of the time sheets to allow
                                  enough space for fingerprints, use of fingerprints became mandatory.
No project                   3.   During the project cycle Save the Children continuously monitored project
monitoring reports                sites. All project motoring was conducted by the project staff (Area
provided.                         Supervisors; Engineers; Community Mobilizers; M&E staff; project
                                  coordinator; project manager, etc.) The monitoring reports were kept in
                                  the separate files from the project agreement files. SC is able to share
                                  samples of the monitoring reports if required. Based on daily monitoring
                                  reports, SC staff prepared the weekly summary reports (e.g. “FIRUP Weekly
                                  Project Summary”) which were kept in the project agreement files.
Materials/refuse             4.   As per Save the Children internal policy on supply chain management, Save
tracking form not                 the Children had used its own materials/refuse tracking format named
provided.                         “Released Order Note”. The documents were filed and kept in the logistic
                                  department. This practice is used for items moved from the warehouse to
                                  the project sites. This is SC standard practice. In addition, Save the
                                  Children gradually used the materials/refuse tracking sheets in CFW
                                  projects funded by USAID.
No group photo or            5.   From the beginning of the project group photos and project completion
finished project                  photos were taken at all the times. But some cases those photos were not
photo provided.                   put into the project but kept in the computer. At the beginning of the
                                  project it was not a mandatory requirement to keep photos and
                                  completion finished photos in the project file document. That’s why some
                                  occasions the project photos including group and finished photos were not
                                  available in the project file.
The village was not          6.   Save the Children made an agreement with the CDC (Community
listed on any of the              Development Council) while developing and implementing CFW projects
project documents.                funded by USAID. The CDC name was mentioned in the agreement and
                                  timesheets as indicated as a location of the project. In most of the cases
                                  the CDC names are the same as village names.
No group photos or           7.   The referenced project activities were for women. Owing to conservative
finished project                  cultural values, communities initially did not allow pictures to be taken of
photos:                           their women. Some photos were taken during the project life after this
                                  was accepted by the communities and beneficiaries.




                                                       64                                                   4
Annex to Mercy Corps' Findings                                                       APPENDIX A



SAMPLE: 49; Reference Number: CDMM1969; Expenditure Description: 5th week payment for
project FAR-PA 0096
Finding: Fingerprints of the workers were unclear or absent on timesheets. Payment summary
report not provided. Total amount on timesheet differs from cash disbursement amount. The
village was not listed on any of the project documents. No group photo or finished project
photo provided. No project monitoring reports provided.

SC Response on audit finding:
Fingerprint Issues: Common response1. Payment Summary report: Sometimes the payment
summary reports were kept with finance documents in separate files and were not copied in
the payment sheets alongside with the timesheets. SC is able to provide the payments summary
reports to the auditors. Differences between timesheets and payments: The total amount for
laborers is 50,206 AFS and remaining 1,394 AFS is for the site supervisor (selected from the
communities to supervise the group leaders in the project sites). Unfortunately a time sheet for
the supervisor is missing here. It is possible to find out the times and share with the auditors for
their process. Village name: Common response 6. No group photos or finished project photos:
Common response 5. In addition to this as per submission the project files for FAR-PA-0096
(CDMM1969) to the audit the group photos are available. No project monitoring report:
Common response 3.

SAMPLE: 5; Reference Number: JVB-9059; Expenditure Description: Week 2 payment for
project # BAM 0104, 0105
Finding: Instead of fingerprints there were checkmarks on all timesheets by checkmarks.
Materials/refuse tracking form not provided. No group photo or finished project photo
provided. No project monitoring reports provided.
SC Response on audit finding:
Checkmarks: Common response2. Payment Summary Report: SC Finance team has submitted
the payment summary for the project# BAM 0104 & 0105 (e.g. JVB- 9059-Part Four scanned
documents submitted to Audit), please see page number 3. Differences between timesheets
and payments: Total amounts for the labor cost are as follows: Skilled labor and group leaders:
13,500 AFS; Site Supervisor: 3,300 AFS and unskilled labor cost: 69,000 AFS; total cost as per
time sheet is 85,500 AFS. There is no difference between payment and time sheets (e.g. JVB-
9059-Part Four scanned documents submitted to Audit). Materials/refuse tracking: Common
response 4. No group photos or finished project photos: Common response 5. No project
monitoring report: Common response 3.

SAMPLE: 76; Reference Number: CDB-1499; Expenditure Description: 1st, 2nd, 3rd, 4th, and
5th weekly payments for BAM-PA # 0117 and 0118
Finding: Instead if fingerprints there were checkmarks on all timesheets by checkmarks.
Materials/refuse tracking form not provided. No group photo or finished project photo
provided. No project monitoring reports provided.

SC Response on audit finding:




                                                65                                                 5
Annex to Mercy Corps' Findings                                                  APPENDIX A



Checkmarks: Common response 2. . Materials/refuse tracking: Common response 4. No group
photos or finished project photos: Common response 5. There are some available photos
during the project life (Reference# BAM 0017, page number 81; Reference# BAM 0018, page
number 54). No project monitoring report: Common response 3. Note: Instead of project
number BAM-PA#0117 and 0118 it was BAM-PA# 0017 & #0018. There were mistakes in the
summary description of the project.

SAMPLE: 172; Reference Number: CPFYB1198; Expenditure Description: 7th & 8th week
payment of (3125,3126,3127) for CDP women projects
Finding: Fingerprints of the workers were unclear or smeared on timesheets. Some timesheets
do not contain fingerprints and contain checkmarks instead. Materials/refuse tracking form not
provided. No group photo or finished project photo provided. No project monitoring reports
provided.

SC Response on audit finding:
Fingerprints and used of Checkmarks: Common response and addition to this: There are no
checkmarks in the timesheets (reference: PCV FAR 1198 which was submitted to the Audit by
SC) Materials/refuse tracking: The submission of reference number FAR 3125 (page # 18),FAR
3126 (page#26). No group photos or finished project photos: Common response 5. There are
some available photos during the project life (Reference# FAR 3125, page number 6;
Reference# FAR 3126, page number 38) No project monitoring report: Common response 3.

SAMPLE: 163; Reference Number: CPBMY1355; Expenditure Description: BAM-PA# 3129,
3130, 9th wp IN Pitab Zarin Yakawlang
Finding: Fingerprints of the workers were unclear or smeared on timesheets. Some timesheets
do not contain fingerprints and contain checkmarks instead. Some fingerprints are covered over
by checkmarks. Materials/refuse tracking form not provided. No group photo or finished
project photo provided. No project monitoring reports provided.

SC Response on audit finding:
Fingerprints and used of Checkmarks: Common response 1 and addition to: Here fingerprints
were used on all time sheets (Reference #PCV BMY 1355 was submitted to the audit). Some
fingerprints covered over by checkmarks: Common response 2. Materials/refuse tracking: The
reference number BAM 3129 (page #2) and BAM 3130 (page # 8) were submitted to the audit
where the materials/refuse tracking information was available. No group photos or finished
project photos: Common response 5. No project monitoring report: Common response 3.

SAMPLE: 166; Reference Number: PCVSRP0137; Expenditure Description: 9th week payment
of CDP Construction Canal SAR Project No: 3154
Finding: Fingerprints of the workers were unclear or absent on timesheets. Materials/refuse
tracking form not provided. The village was not listed on any of the project documents. No
group photo or finished project photo provided. No project monitoring reports provided.

SC Response on audit finding:



                                             66                                              6
Annex to Mercy Corps' Findings                                                   APPENDIX A



Fingerprints: Common response 1. Materials/refuse tracking: The reference number SAR
3154 (page #19) was submitted to the audit where the materials/refuse tracking information
was available. No group photos or finished project photos: The group photos are available in
the documents submitted to Audit (Reference number: SAR3154, page #16). The project
completion photos were taken during the project life. But unfortunately it was not put in the
project file. No project monitoring report: Common response 3.

SAMPLE: 173; Reference Number: CPFYB1196; Expenditure Description: 7th & 8th week
payment of CDP 3122, 3123, 3124 women projects
Finding: Fingerprints of the workers were unclear or absent on timesheets. Materials/refuse
tracking form not provided. The village was not listed on any of the project documents. No
group photo or finished project photo provided. No project monitoring reports provided.

SC Response on audit finding:
Fingerprints: Common response 1. Materials/refuse tracking: The reference number FAR 3154
(page #28), FAR 3123 (page#25) and FAR 3124 (page# 24) were submitted to the audit where
the materials/refuse tracking information were available. No group photos or finished project
photos: Common response 7. There are some photos available in the submission documents to
audit (Reference number: FAR3122, page #40; FAR 3123, page# 39 and FAR 3124, page #36,
37). The project completion photos were taken during the project life. But unfortunately it was
missing in the project file. No project monitoring report: Common response 3.

SAMPLE: 184; Reference Number: CPFYB0986; Expenditure Description: 4th & 5th & 6th week
PAY of project (3149, 3150) CDP Man project
Finding: Fingerprints of the workers were unclear or absent on timesheets. Materials/refuse
tracking form not provided. The village was not listed on any of the project documents. No
group photo or finished project photo provided. No project monitoring reports provided.

SC Response on audit finding:
Fingerprints: Common response 1. Materials/refuse tracking: Common response 4. No group
photos or finished project photos: Common response 5. No project monitoring report:
Common response 3.

SAMPLE: 188; Reference Number: CPFYB0964; Expenditure Description: 4th, 5th, & 6th week
payment of 3146, 3147, 3148 for CDP women projects
Finding: Fingerprints of the workers were unclear or absent on timesheets. Materials/refuse
tracking form not provided. The village was not listed on any of the project documents. No
group photo or finished project photo provided. No project monitoring reports provided.

SC Response on audit finding:
Fingerprints: Common response 1. Materials/refuse tracking: The reference number FAR 3146
(page #18), FAR 3147 (page#18) and FAR 3148 (page# 25) were submitted to the audit where
the materials/refuse tracking information was available. No group photos or finished project
photos: Common response 7. There are some photos available in the submission documents to



                                              67                                              7
Annex to Mercy Corps' Findings                                                  APPENDIX A



audit (Reference number: FAR3146, page #6; FAR 3147, page# 34 and FAR 3148, page #37).
The project completions photos were taken during the project life. But unfortunately they were
missing in the project file. No project monitoring report: Common response 3.

SAMPLE: 189; Reference Number: CPFYB0965; Expenditure Description: 4th, 5th, & 6th week
payment of 3122, 3123, 3124 for CDP women projects
Finding: Fingerprints of the workers were unclear or absent on timesheets. Materials/refuse
tracking form not provided. The village was not listed on any of the project documents. No
group photo or finished project photo provided. No project monitoring reports provided.

SC Response on audit finding:
Fingerprints: Common response 1. Materials/refuse tracking: The reference number FAR 3122
(page #28; 40), FAR 3123 (page#25) and FAR 3124 (page# 24) were submitted to the audit
where the materials/refuse tracking information were available. No group photos or finished
project photos: common response 7. There are some photos available in the submission
documents to audit (Reference number: FAR3122, page #39; 43 FAR 3123, page# 34 and FAR
3124, page #36; 37). The project completion photos were taken during the project life. But
unfortunately they were missing in the project file. No project monitoring report: Common
response 3.
SAMPLE: 192; Reference Number: CPFYB1017; Expenditure Description: 7th 8th & 9th week
payment of CDP 3184, 3185 men projects
Finding: Fingerprints of the workers were unclear or absent on timesheets. Materials/refuse
tracking form not provided. The village was not listed on any of the project documents. No
group photo or finished project photo provided. No project monitoring reports provided.

SC Response on audit finding:
Fingerprints: Common response 1. Materials/refuse tracking: Common response 4.. No group
photos or finished project photos: Common response 5. No project monitoring report:
Common response 3.

SAMPLE: 193; Reference Number: CPFYB0987; Expenditure Description: 6th, 7th, 8th, & pth
week payment of (3090, 3091, 3092,) CDP women projects
Finding: Fingerprints of the workers were unclear or absent on timesheets. Materials/refuse
tracking form not provided. The village was not listed on any of the project documents. No
group photo or finished project photo provided. No project monitoring reports provided.

SC Response on audit finding:
Fingerprints: Common response 1. Materials/refuse tracking: The reference number FAR 3090
(page #27), FAR 3091 (page#28) and FAR 3092 (page# 26) were submitted to the audit where
the materials/refuse tracking information were available. No group photos or finished project
photos: Common response 7. There are some photos available in the submission documents to
audit (Reference number: FAR3090, page #39; 43 FAR 3091, page# 41 and FAR 3092, page #39).
The project completions photos were taken during the project life, but unfortunately they were
missing in the project file. No project monitoring report: Common response 3.



                                             68                                              8
Annex to Mercy Corps' Findings                                                  APPENDIX A



SAMPLE: 194; Reference Number: CPBMY1322; Expenditure Description: BAM-PA# 3137,
3138, 3139, 3140 7th week payment in Koshkak Yakawlang
Finding: Fingerprints of the workers were unclear or smeared on timesheets. Some timesheets
do not contain fingerprints and contain checkmarks instead. Some fingerprints are covered over
by checkmarks. Materials/refuse tracking form not provided. No group photo or finished
project photo provided. No project monitoring reports provided.

SC Response on audit finding:
Fingerprints and used of Checkmarks: Common response 1 and addition to: Here all the time
sheets were used with fingerprints (Reference #PCV BMY 1322 was submitted to the audit)..
Some fingerprints covered over by checkmarks: Common response 2. Materials/refuse
tracking: Common response 4. And addition to this SC waybill or release order note was
available in the submission document to audit (e.g. Reference number: 3137, page # 19; 3138,
page # 13; 3139, page # 11). No group photos or finished project photos: Common response 5.
No project monitoring report: Common response 3.

SAMPLE: 195; Reference Number: CPFYB0786; Expenditure Description: 1st 2nd week
payment of CDP 3151, 3168, 3169, 3170, 3171 men projects
Finding: Fingerprints of the workers were unclear or absent on timesheets. Materials/refuse
tracking form not provided. The village was not listed on any of the project documents. No
group photo or finished project photo provided. No project monitoring reports provided.

SC Response on audit finding:
Fingerprints: Common response 1. Materials/refuse tracking: The reference number FAR 3151
(page #26), FAR 3168 (page#25), FAR 3170 (page# 27) and 3170 (page# 30) were submitted to
the audit where the materials/refuse tracking information were available. No group photos or
finished project photos: The reference numbers 3151 at page number 41 and 42 finished
photos, reference number 3170 at page number 43 are available. Group photos at page # 43
(reference FAR 3151; page number 42 (Reference 3168); 41 pages on FAR 3170; page number
46 (reference 3171); page number 47 (reference 3171) No project monitoring report: Common
response 3.

SAMPLE: 79; Reference Number: CDB-1544; Expenditure Description: 5th week payment for
project BAM-PA # 0078, 0079, 0080, 0081, 0082, 0083
Finding: Fingerprints of the workers were unclear or smeared on timesheets. Some timesheets
do not contain fingerprints and contain checkmarks instead. Some fingerprints are covered over
by checkmarks. Materials/refuse tracking form not provided. No group photo or finished
project photo provided. No project monitoring reports provided.

SC Response on audit finding:
Fingerprints and used of Checkmarks: Common response1. Some fingerprints covered over by
checkmarks: Common response2. Materials/refuse tracking: Common response 4. No group
photos or finished project photos: Common response 5.. No project monitoring report:
Common response 3.



                                             69                                              9
Annex to Mercy Corps' Findings                                                   APPENDIX A



SAMPLE: 80; Reference Number: CDB-1544; Expenditure Description: 6th week payment for
project BAM-PA # 0078, 0079, 0080, 0081, 0082, 0083.
Finding: Fingerprints of the workers were unclear or smeared on timesheets. Some timesheets
do not contain fingerprints and contain checkmarks instead. Some fingerprints are covered over
by checkmarks. Materials/refuse tracking form not provided. No group photo or finished
project photo provided. No project monitoring reports provided.

SC Response on audit finding:
Fingerprints and used of Checkmarks: Common response 1. Some fingerprints covered over by
checkmarks: Common response 2. Materials/refuse tracking: Common response 4. No group
photos or finished project photos: Common response 5. No project monitoring report:
Common response 3.

SAMPLE: 190; Reference Number: CPFYB0968; Expenditure Description: 6th, 7th, 8th, 9th
week skill labor and 5th, 6th, & 8th week payment of non skill labour 3105, 3106 for CDP PDH
Projects
Finding: Fingerprints of the workers were unclear or absent on timesheets. No group photo or
completed project photo. Laborer's home villages not listed. No group photo or finished project
photo provided. No project monitoring reports provided.

SC Response on audit finding:
Fingerprints: Common response1. Labor’s home Village name: Common response 6. No group
photos or finished project photos: Common response 5. . No project monitoring report:
Common response 3.

SAMPLE: 196; Reference Number: CPFYB0801; Expenditure Description: 5th & 6th week
payment of (3088, 3089)
Finding: Fingerprints of the workers were unclear or absent on timesheets. No group photo or
finished project photo provided. No project monitoring reports provided.

SC Response on audit finding:
Fingerprints: Common response 1. No group photos or finished project photos: The reference
numbers 3088 and 3089 at page number 82 finished photos, finished project photos reference
number 3088 & 3089 at page number 83 and 84 are available. No project monitoring report:
Common response 3.

SAMPLE: 46; Reference Number: CDB-1627; Expenditure Description: Weekly payments for
Lala Khail Female Project # BAM-PA 0130, 0131, and 0132
Finding: Fingerprints of the workers were unclear or smeared on timesheets. Some timesheets
do not contain fingerprints and contain checkmarks instead. Some fingerprints are covered over
by checkmarks. Materials/refuse tracking form not provided. No group photo or finished
project photo provided. No project monitoring reports provided.

SC Response on audit finding:



                                              70                                             10
Annex to Mercy Corps' Findings                                                  APPENDIX A



Fingerprints and used of Checkmarks: Common response 1. Some fingerprints covered over by
checkmarks: Common response2. Materials/refuse tracking: Common response 4. No group
photos or finished project photos: Common response 5. No project monitoring report:
Common response 3.

SAMPLE: 65; Reference Number: CDMM1427; Expenditure Description: Weekly payments for
Projects # FAR-PA 0023, 0024, 0018, 0015, 0021, 0016, 0022, 0017, 0020
Finding: Fingerprints of the workers were unclear or smeared on timesheets. Some timesheets
do not contain fingerprints and contain checkmarks instead. Materials/refuse tracking form not
provided. No group photo or finished project photo provided. No project monitoring reports
provided.

SC Response on audit finding:
Fingerprints and used of Checkmarks: Common response 1. Materials/refuse tracking:
Common response 4. No group photos or finished project photos: Group photos are available
in the submission documents (page # 53; 54; #30; 86; 85;87; and 29) to the audit (Reference
number: # FAR-PA 0023, 0024, 0018, 0015, 0021, 0016, 0022, 0017, and 0020). No project
monitoring report: Common response 3.
SAMPLE: 68; Reference Number: CDMM1453; Expenditure Description: Weekly payments for
Projects # FAR-PA 0047, 0048, 0026, 0027, 0028, 0025, and 0013
Finding: Fingerprints of the workers were unclear or smeared on timesheets. Some timesheets
do not contain fingerprints and contain checkmarks instead. Some fingerprints are oddly
shaped. Materials/refuse tracking form not provided. No group photo or finished project photo
provided. No project monitoring reports provided.

SC Response on audit finding:
Fingerprints and used of Checkmarks: Common response 1. Oddly Shape: Due to the low
quality of the ink pad, some fingerprints had changed later with different shapes. And
sometimes the workers would not put their fingerprint correctly on the time sheets which were
not observed by the community workers (group leader; site supervisor) and SC staff.
Materials/refuse tracking: Common response 4. No group photos or finished project photos:
The group photos are available in the project documents (e.g. FAR: 0027 at page number 30
and project finished report is at page number 31). All submitted documents to the audit the
group photos and finished project photos are available. No project monitoring report:
Common response 3.

SAMPLE: 69; Reference Number: CDMM1454; Expenditure Description: Weekly payments for
Projects # FAR-PA 0017, 0020, 0018, 0019, 0021, 0016, 0032, 0040
Finding: Fingerprints of the workers were unclear or smeared on timesheets. Some timesheets
do not contain fingerprints and contain checkmarks instead. Some fingerprints are oddly
shaped. Materials/refuse tracking form not provided. No group photo or finished project photo
provided. No project monitoring reports provided.

SC Response on audit finding:



                                             71                                             11
Annex to Mercy Corps' Findings                                                  APPENDIX A



Fingerprints and used of Checkmarks: Common response 1. Oddly Shape: Due to low quality of
the available ink pads, some fingerprints changed later with different shapes. Sometimes the
workers would not put their fingerprints correctly in the time sheets which were not observed
by the community workers (group leader; site supervisor) and SC staff. Materials/refuse
tracking: Common response 4. No group photos or finished project photos: The group photos
and finished project photos are available at the end of the submission documents (# FAR-PA
0017, 0020, 0018, 0019, 0021, 0016, 0032, and 0040). No project monitoring report: Common
response 3.

SAMPLE: 70; Reference Number: CDMM1466; Expenditure Description: Weekly payments for
Projects # FAR-PA 0017, 0020, 0023, 0024, 0051, 0054, 0041, 0042, 0043, 0031, 0032
Finding: Fingerprints of the workers were unclear or smeared on timesheets. Some timesheets
do not contain fingerprints and contain checkmarks instead. Materials/refuse tracking form not
provided. No group photo or finished project photo provided. No project monitoring reports
provided.

SC Response on audit finding:
Fingerprints and used of Checkmarks: Common response 1. Materials/refuse tracking:
Common response 4. No group photos or finished project photos: The group photos are
available at the end of the submission documents (# FAR-PA 0017, 0020, 0023, 0024, 0051,
0054, 0041, 0042, 0043, 0031, 0032). No project monitoring report: Common response 3.

SAMPLE: 71; Reference Number: CDMM1487; Expenditure Description: Weekly payments for
Projects # FAR-PA 0046, 0044, 0061, 0062, 0063, 0064, 0047, 0048, 0025, 0059
Finding: Fingerprints of the workers were unclear or smeared on timesheets. Some timesheets
do not contain fingerprints and contain checkmarks instead. Materials/refuse tracking form not
provided. No group photo or finished project photo provided. No project monitoring reports
provided.

SC Response on audit finding:
Fingerprints and used of Checkmarks: Common response 1. Materials/refuse tracking:
Common response 4. No group photos or finished project photos: Common response 7.. No
project monitoring report: Common response 3.
SAMPLE: 72; Reference Number: CDMM1489; Expenditure Description: Weekly payments for
Projects # FAR-PA 0016, 0022, 0018, 0019, 0021, 0037, 0040, 0067
Finding: Fingerprints of the workers were unclear or smeared on timesheets. Some timesheets
do not contain fingerprints and contain checkmarks instead. Materials/refuse tracking form not
provided. No group photo or finished project photo provided. No project monitoring reports
provided.

SC Response on audit finding:
Fingerprints and used of Checkmarks: Common response 1. Materials/refuse tracking:
Common response 4. No group photos or finished project photos: Common response 7. No
project monitoring report: Common response 3.



                                             72                                             12
Annex to Mercy Corps' Findings                                                    APPENDIX A



SAMPLE: 74; Reference Number: CDMM1551; Expenditure Description: Weekly Payments for
Projects # FAR-PA 0081, 0077, 0079, 0072, 0074, 0047, 0048, 0029
Finding: Fingerprints of the workers were unclear or smeared on timesheets. Some timesheets
do not contain fingerprints and contain checkmarks instead. Materials/refuse tracking form not
provided. No group photo or finished project photo provided. No project monitoring reports
provided.

SC Response on audit finding:
Fingerprints and used of Checkmarks: Common response 1. Materials/refuse tracking:
Common response 4. No group photos or finished project photos: Common response 7. There
are some photos available in the submission documents to audit (e.g. Reference FAR 0081 at
page 29). No project monitoring report: Common response 3.

SAMPLE: 75; Reference Number: CDMM1576; Expenditure Description: Weekly Payments for
Projects # FAR-PA 0082, 0083, 0084, 0068, 0066, 0067, 0068, 0069
Finding: Fingerprints of the workers were unclear or smeared on timesheets. Some timesheets
do not contain fingerprints and contain checkmarks instead. Materials/refuse tracking form not
provided. No group photo or finished project photo provided. No project monitoring reports
provided.

SC Response on audit finding:
Fingerprints and used of Checkmarks: Common response 1. Materials/refuse tracking:
Common response 4.. No group photos or finished project photos: The above mentioned
projects were women projects. Due to the cultural barriers the group photos were not taken at
the beginning of the project. There were some photos were taken during the project life after it
was agreed by the communities and beneficiaries (e.g. Reference FAR 0082 at page 5). No
project monitoring report: Common response 3.

SAMPLE: 81; Reference Number: CDMM2121; Expenditure Description: 5 days of extention
payment for (0157) to men CDP / FIRUP projects
Finding: Fingerprints of the workers were unclear or absent on timesheets. Payment summary
report not provided. Materials/refuse tracking form not provided. No group photo or finished
project photo provided. No project monitoring reports provided.

SC Response on audit finding:
Fingerprints: Common response 1. Payment Summary report: Sometimes the payment
summary report was kept usually with the finance document in separate files which were not
copy in the payment sheets alongside with the timesheets. Materials/refuse tracking: The
reference number FAR 3151 (page #26) was submitted to the audit where the materials/refuse
tracking information were available. No group photos or finished project photos: The group
and the finished project photos were at the FAR 3151 project document which was submitted
to Audit (Page number 42 & 43). No project monitoring report: Common response 3.




                                              73                                              13
Annex to Mercy Corps' Findings                                                  APPENDIX A



SAMPLE: 37; Reference Number: CDMM1724; Expenditure Description: 2nd week payment of
project # FER-PA 0112
Finding: Fingerprints of the workers were unclear or absent on timesheets. Payment summary
report not provided. No materials/refuse tracking form. No group photo or finished project
photo provided. No project monitoring reports provided.

SC Response on audit finding:
Fingerprints: Common response1. Payment Summary report: Sometimes the payment
summary report was kept usually with the finance document in separate files which were not
copy in the payment sheets alongside with the timesheets. Materials/refuse tracking: Common
response 4. No group photos or finished project photos: The group and the finished project
photos were at the FAR 3112 project document. No project monitoring report: Common
response 3.

SAMPLE: 64; Reference Number: CDMM1426; Expenditure Description: Weekly payments for
Projects # FAR-PA 0030, 0033, 0052, 0053, 0038, and 0039
Finding: Fingerprints of the workers were unclear or smeared on timesheets. Some timesheets
do not contain fingerprints and contain checkmarks instead. Materials/refuse tracking form not
provided. No group photo or finished project photo provided. No project monitoring reports
provided.

SC Response on audit finding:
Fingerprints and used of Checkmarks: Common response 1. Materials/refuse tracking:
Common response 4. No group photos or finished project photos: The group and the finished
project photos were in the project document (e.g. FAR 0053 at page number 3 & 4). No project
monitoring report: Common response 3.

SAMPLE: 66; Reference Number: CDMM1436; Expenditure Description: Weekly payments for
Projects # FAR-PA 0012, 0011, 0041, 0042, 0043, 0034, 0035, 0036, 0051, and 0054
Finding: Fingerprints of the workers were unclear or smeared on timesheets. Some timesheets
do not contain fingerprints and contain checkmarks instead. Materials/refuse tracking form not
provided. No group photo or finished project photo provided. No project monitoring reports
provided.

SC Response on audit finding:
Fingerprints and used of Checkmarks: Common response 1. Materials/refuse tracking:
Common response 4. No group photos or finished project photos: The group and the finished
project photos were in the project document (e.g. FAR 0041 at page number 5, 6, 7 & 20). No
project monitoring report: Common response 3.

SAMPLE: 36; Reference Number: CDMM1620; Expenditure Description: 1st week payment for
Project # FAR-PA 0092




                                             74                                             14
Annex to Mercy Corps' Findings                                                  APPENDIX A



Finding: Fingerprints of the workers were unclear or absent on timesheets. Payment summary
report not provided. The village was not listed on any of the project documents. No group
photo or finished project photo provided. No project monitoring reports provided.

SC Response on audit finding:
Fingerprints: Common response 1. Payment Summary report: Sometimes the payment
summary reports were kept with finance documents in separate files which were not copied in
the payment sheets alongside with the timesheets. Materials/refuse tracking: The reference
number FAR 3092 (page #26) was submitted to the audit where the materials/refuse tracking
information were available. No group photos or finished project photos: Common response 7.
There are some photos available in the submission documents to audit (e.g. FAR 0092 at page
number 13 & 39). No project monitoring report: Common response 3.

SAMPLE: 67; Reference Number: CDMM1452; Expenditure Description: Weekly payments for
Projects # FAR-PA 0025, 0031, 0032, 0033, 0052
Finding: Fingerprints of the workers were unclear or absent on timesheets. Payment summary
report not provided. The village was not listed on any of the project documents. No group
photo or finished project photo provided. No project monitoring reports provided.

SC Response on audit finding:
Fingerprints: Common response 1. Payment Summary report: Sometimes the payment
summary reports were kept with finance documents in separate files and sometimes it was in
project file (e.g. Reference FAR 0025 at page 1-5). Materials/refuse tracking: The reference
number FAR 31 (page #26) was submitted to the audit where the materials/refuse tracking
information was available. No group photos or finished project photos: Common response 7.
There are some photos available in the submission documents to audit (e.g. FAR 0025 at page
number 6 & 34). No project monitoring report: Common response 3.

SAMPLE: 78; Reference Number: CDB-1543; Expenditure Description: 8th week payment for
project BAM-PA # 0078, 0079, 0080, 0081, 0082, 0083
Finding: Fingerprints of the workers were unclear or smeared on timesheets. Some timesheets
do not contain fingerprints and contain checkmarks instead. Some fingerprints are covered over
by checkmarks. Materials/refuse tracking form not provided. No group photo or finished
project photo provided. No project monitoring reports provided.

SC Response on audit finding:
Fingerprints and used of Checkmarks: Common response 1. Some fingerprints covered over by
checkmarks: Common response 2. Materials/refuse tracking: Common response 4. No group
photos or finished project photos: Common response 5. No project monitoring report:
Common response 3.

SAMPLE: 185; Reference Number: CPFYB0962; Expenditure Description: 4th, 5th, & 6th week
payment of 3125, 3126, 3127 for CDP women projects




                                             75                                             15
Annex to Mercy Corps' Findings                                                   APPENDIX A



Finding: Fingerprints of the workers were unclear or absent on timesheets. The village was not
listed on any of the project documents. No group photo or finished project photo provided. No
project monitoring reports provided.

SC Response on audit finding:
Fingerprints: Common response 1. Village name: Common response 6. No group photos or
finished project photos: Common response 7. There are some photos available in the
submission documents to audit (e.g. FAR 3125 at page number 6 & 34). No project monitoring
report: Common response 3.

SAMPLE: 186; Reference Number: CPFYB0995; Expenditure Description: 4th & 5th & 6th week
PAY of project (3119, 3120) CDP Man project
Finding: Fingerprints of the workers were unclear or absent on timesheets. The village was not
listed on any of the project documents. No group photo or finished project photo provided. No
project monitoring reports provided.

SC Response on audit finding:
Fingerprints: Common response 1. Village name: Common response 6. No group photos or
finished project photos: The reference FAR 3119 & 3120 (e.g. at 68, 69, 70 & 80) group photos
and finished project photos are available. No project monitoring report: Common response 3.

SAMPLE: 198; Reference Number: CPFYB0963; Expenditure Description: 4th, 5th, & 6th week
payment of 3143, 3144, 3145 for CDP women projects
Finding: Fingerprints of the workers were unclear or absent on timesheets. The village was not
listed on any of the project documents. No group photo or finished project photo provided. No
project monitoring reports provided.
SC Response on audit finding:
Fingerprints: Common response 1. Village name: Common response 6. No group photos or
finished project photos: Common response 7. There are some photos available in the
submission documents to audit. The reference FAR 3143, 3144 & 3145 (e.g. FAR 3143 & 3144
at 6,) group photos and finished project photos are available. No project monitoring report:
Common response 3.

SAMPLE:29; Reference Number: CBSR1182; Expenditure Description: 3rd week payment for
CDP Women Project # SAR-P-3003
Finding: Fingerprints unclear for some employees. Payment summary report was not prepared
by the area supervisor. No materials/refuse tracking form. Village not listed under the program
province. No group photo or finished project photo provided. No project monitoring reports
provided.

SC Response on audit finding:
Fingerprints: Common response 1. Payment Summary report: The payment summary was sent
to audit (Reference CBSR 1182 at page number 2; 14). Village name: Common response 6. No
group photos or finished project photos: Common response 7. The reference SAR-PA-3003



                                              76                                             16
Annex to Mercy Corps' Findings                                                   APPENDIX A



(e.g. SAR 3003 at page 9) group photos and finished project photos are available. No project
monitoring report: Common response 3.

SAMPLE: 30; Reference Number: CBSR1182; Expenditure Description: 3rd week payment for
CDP Women Project # SAR-P-3004
Finding: Fingerprints unclear for some employees. Payment summary report was not prepared
by the area supervisor. No materials/refuse tracking form. Village not listed under the program
province. No group photo or finished project photo provided. No project monitoring reports
provided.
SC Response on audit finding:
Fingerprints: Common response 1. Payment Summary signature: The payment summary was
sent to audit (Reference CBSR 1182 at page number 2; 14). Materials/refuse tracking:
Common response 4. Village name: Common response 6. No group photos or finished project
photos: Common response 7. The reference SAR-PA-3004 (e.g. SAR 3004 at page 10) group
photos and finished project photos are available. No project monitoring report: Common
response 3.

SAMPLE: 31; Reference Number: CBSR1182; Expenditure Description: 3rd week payment for
CDP Women Project # SAR-P-3006
Finding: Fingerprints unclear for some employees. Payment summary report was not prepared
by the area supervisor. No materials/refuse tracking form. Village not listed under the program
province. No group photo or finished project photo provided. No project monitoring reports
provided.

SC Response on audit finding:
Fingerprints: Common response 1. Payment Summary signature: The payment summary was
sent to audit (Reference CBSR 1182 at page number 2; 14). Materials/refuse tracking: Common
response 4. Village name: Common response 6. No group photos or finished project photos:
Common response 7. The reference SAR-PA-3006 (e.g. SAR 3006 at page 8) group photos and
finished project photos are available. No project monitoring report: Common response 3.

SAMPLE: 28; Reference Number: CBSR1182; Expenditure Description: 3rd week payment for
CDP Women Project # SAR-P-3001
Finding: Fingerprints unclear for some employees. Payment summary report was not prepared
by the area supervisor. Village not listed under the program province. No group photo or
finished project photo provided. No project monitoring reports provided.

SC Response on audit finding:
Fingerprints: Common response 1. Payment Summary signature: The payment summary was
sent to audit (Reference CBSR 1182 at page number 2; 14). Village name: Common response 6.
No group photos or finished project photos: Common response 7. The reference SAR-PA-3001
(e.g. SAR 3001 at page 12) group photos and finished project photos are available. No project
monitoring report: Common response 3.




                                              77                                             17
Annex to Mercy Corps' Findings                                                    APPENDIX A



SAMPLE: 187; Reference Number: CPFYB0967; Expenditure Description: 2nd, 3rd, & 4th week
payment of 3152, 3153, for CDP women projects
Finding: No support provided.
SC Response on audit finding:
The PCV FYB 0967 and the project files FAR 3152 & FAR 3152 were submitted to the audit.
Remarks: Save the Children is able to provide all necessary documents for this cost if requested
by the auditors.

SAMPLE: 197; Reference Number: CPFYB0148; Expenditure Description: 2nd, 3rd, & 4th week
payment of 3053, 3054, for CDP women projects.
Finding: No support provided.
SC Response on audit finding:
The PCV FYB 0148 and the project files FAR 3053 & FAR 3054 were submitted to the audit.
Remarks: Save the Children is able to provide all necessary documents for this cost if requested
by the auditors.

SAMPLE: 200; Reference Number: CPFYB0775; Expenditure Description: 2nd & 3rd week
payment of CDP 3119, 3120 men projects
Finding: No support provided.
The PCV FYB 0775 and the project files FAR 3119 & FAR 3120 were submitted to the audit.
Remarks: Save the Children is able to provide all necessary documents for this cost if requested
by the auditors.

SAMPLE: 191; Reference Number: CPFYB0980; Expenditure Description: 4th, 5th, & 6th week
payment of CDP 3133, 3134 men projects
Finding: Many fingerprints smeared/illegible. The village was not listed on any of the project
documents. No group photo or finished project photo provided. No project monitoring reports
provided.
SC Response on audit finding:
Fingerprints: Common response 1. Village name: Common response 6. No group photos or
finished project photos: The reference FAR 3133 & 3134 (e.g. at page 11) some photos are
available. No project monitoring report: Common response 3.

SAMPLE: 82; Reference Number: CDMM2169; Expenditure Description: Two days of extension
with (0161) CDP Men Projects
Finding: Missing project payment summary sheet. Materials/refuse tracking form not provided.
No group photo or finished project photo provided. No project monitoring reports provided.
SC Response on audit finding:
Payment summary sheets: Sometimes the payment summary reports were kept with finance
documents in separate files. That’s why they were not in the financial transaction documents.
Materials/refuse tracking: Common response 4. No group photos or finished project photos:
The reference FAR 3161 (e.g. at page 38) some photos are available. No project monitoring
report: Common response 3.




                                              78                                              18
Annex to Mercy Corps' Findings                                                  APPENDIX A



SAMPLE: 169; Reference Number: CPFYB0689; Expenditure Description: 8th & 9th week
payment of project (3070, 3071)
Finding: Payment summary reported was not prepared by the area supervisor. Materials/refuse
tracking form not provided. No group photo or finished project photo provided. No project
monitoring reports provided.

SC Response on audit finding:
Payment Summary: The payment summary document was sent to audit CPFYB0689 (Reference
page number 2) and the project file FAR 3070 (page: 38-45) and FAR 3071 (page: 1-7).
Materials/refuse tracking: Common response 4. No group photos or finished project photos:
Those group photos and the finished project photos were taken but those were not kept in the
project files. The project completion report showed those photos which were collected
(Reference: FAR 3071 at page number 10 and FAR 3070 at page number 37). No project
monitoring report: Common response 3.

SAMPLE: 50; Reference Number: CDMM1926; Expenditure Description: 5th week payment for
project FAR-PA 0108
Finding: Payment summary report not provided. Materials/refuse tracking form not provided.
The village was not listed on any of the project documents. No group photo or finished project
photo provided. No project monitoring reports provided.

SC Response on audit finding:
Payment Summary report: The payment summary reports were usually kept with the finance
documents in separate files and were not copied in the payment sheets alongside with the
timesheets. Materials/refuse tracking: Common response 4. No group photos or finished
project photos: The reference FAR 0108 (e.g. at page 31 and 32) some photos are available. No
project monitoring report: Common response.

SAMPLE: 73; Reference Number: CDMM1389; Expenditure Description: Payments for project
FAR-PA 0044, 0046, 0016, 0099, 0030, 0033, 0017, 0014, and 0015
Finding: Payment summary report not provided. Materials/refuse tracking form not provided.
The village was not listed on any of the project documents. No group photo or finished project
photo provided. No project monitoring reports provided.

SC Response on audit finding:
Payment Summary report: The payment summary reports were usually kept with the finance
documents in separate files and were not copied in the payment sheets alongside with the
timesheets. Materials/refuse tracking: Common response 4. No group photos or finished
project photos: Common response 7. There are some photos available in the submission
documents to audit (e.g. FAR-PA 0044, 0046, 0016, 0099, 0030, 0033, 0017, 0014, and 0015) to
the audit (e.g. FAR 0017 at page 30). No project monitoring report: Common response 3.

SAMPLE: 171; Reference Number: PCVSRP0094; Expenditure Description: 3rd week payment
for CDP project # SAR 3079-SAR 3080



                                             79                                             19
Annex to Mercy Corps' Findings                                                 APPENDIX A



Finding: Payment summary reported was not prepared by the area supervisor. Materials/refuse
tracking form not provided. No group photo or finished project photo provided. No project
monitoring reports provided.

SC Response on audit finding:
Payment Summary signature: The payment summary signatories in Save the Children are as
follows: Initial payment summary is manually prepared by the area supervisors; then it is
computerized by the finance team according to the timesheets submitted by the project
laborers; these are checked by the finance team; the area supervisor checks; and finally the
project coordinator or project manager approves payment. Materials/refuse tracking:
Common response 4. No group photos or finished project photos: Common response 7. There
are some photos available in the submission documents to audit (e.g. SAR 0079 at page 13). No
project monitoring report: Common response 3.

SAMPLE: 199; Reference Number: CPBMY0968; Expenditure Description: BAM PA #3137,
3138, 3139, 3140, 3041, 5th week payment in Koshkak Yakawlang
Finding: Payment summary reported was not prepared by the area supervisor. Materials/refuse
tracking form not provided. No group photo or finished project photo provided. No project
monitoring reports provided.

SC Response on audit finding:
Payment Summary report: The payment summary signatory process is described above in
response to SAMPLE 171. Materials/refuse tracking: Common response 4. No group photos or
finished project photos: Common response 5. No project monitoring report: Common
response 3.

SAMPLE: 77; Reference Number: CDB-1543; Expenditure Description: 7th week payment for
project BAM-PA # 0078, 0079, 0080, 0081, 0082, 0083
Finding: Project payment summary sheet missing approval signatures. Materials/refuse
tracking form not provided. The village was not listed on any of the project documents. No
group photo or finished project photo provided. No project monitoring reports provided.

SC Response on audit finding:
Project Payment summary missing approval signature: The payment summary signatory
process is described above in response to SAMPLE 171. The reference (CDB-1543 at page
number 3, 46 & 88) showed all relevant staff signed the payment summary. Materials/refuse
tracking: Common response 4. No group photos or finished project photos: Common response
5. No project monitoring report: Common response 3.

SAMPLE: 175; Reference Number: BPVSRP00116; Expenditure Description: 9th week payment
of CDP Gravelling SAR Project No: 3024
Finding: Sample differs to supporting documents by 233 Afghans. Materials/refuse tracking
form not provided. The village was not listed on any of the project documents. No group photo
or finished project photo provided. No project monitoring reports provided.



                                             80                                            20
Annex to Mercy Corps' Findings                                                        APPENDIX A



SC Response on audit finding:
Sample differs to supporting documents by 233 Afghans: Total cost is 16,900 AFS (reference
BPVSRP00116 at page 28-36 and payment summary sheet at page number20 in BPVSRP00116)
as per time sheets and differences 367 AFS. This mistake was made during data entry to the
system. Materials/refuse tracking: Common response 4. No group photos or finished project
photos: The reference SAR 3024 (e.g. at page 24) some photos are available. No project
monitoring report: Common response 3.

MISSING OR INADEQUATE SUPPORT EXCEPTIONS:
The draft audit report indicates a total of USD 33,480 as the questionable cost because of
inadequate support or missing documents. However, our review indicates that out of the said
amount there are sufficient documents available for USD 21,558. The summary of this amount
is indicated in the table below: We believe this shall be removed from the list of questionable
costs. We believe these should be removed from the list of questioned costs.

 Remarks                                                                     Amount USD
 Exception tick mark # 37 or sample 94 reference CDMM1866                      4,235
 Exception tick mark # 39 or ample #183 reference JRNVSRP0002                      366
 Exception tick mark no 41 or Sample # 142 reference CDMM1156                      120
 Exception tick mark # 47 or sample # 87 reference CDB 1163                        139
 Exception tick mark # 48 or sample # 19 reference CDK-9442                        400
 Exception tick mark # 49 or sample # 13 reference CDB9222                       5,000
 Exception tick mark # 49 or sample # 103 reference CDB 1102                       400
 Exception tick mark # 49 or sample # 93 reference voucher CDMM 1474            10,898
 Total                                                                         21,558

The full explanation of the cost indicated in the above table is reflected in the detail as follows:
Exception tick mark # 37 or sample 94 reference CDMM1866. There are sufficient documents
to support the transactions amounting for procurement of 586 bags of cement amounting AFN
193,380 equivalent to USD 4,235.22
Exception tick mark # 39 or ample #183 reference JRNVSRP0002 for AFN 17,500 equivalent to
USD 366.11 provided on 12 Sep 2013 to MC office in Kabul. The payment voucher and contract
are attached and is well supported by documents. The voucher can be sent by email again.
This should be removed from the list of questionable costs
Exception tick mark no 41 or Sample # 142 reference CDMM1156 for AFN AF5,750 or
equivalent to USD 119.69. This is well supported by petty cash voucher, travel expense report
and travel authorization.
Exception tick mark # 47 or sample # 87 reference CDB 1163 for AFN 6,285.44 equivalent to
USD 138.66. This has an invoice from the medicos plus USD 150 as per SCI policy (see email
attached t the voucher).




                                                 81                                               21
Annex to Mercy Corps' Findings                                                    APPENDIX A



Exception tick mark # 48 or sample # 19 reference CDK-9442 for USD 400 is supported by
approved travel authorization, tickets etc. It is true that the purpose is not reflected on the
TOR but the information for funding source clearly indicates CFW.
Exception tick mark # 49 or sample # 13 reference CDB9222 for AFN 247,500 equivalent to USD
5,000 is well supported by all documents including quotations, bids analysis, purchase order,
good received note etc.
Exception tick mark # 49 or sample # 103 reference CDB 1102 for USD 400 was sent on 6 Sep
2013 and is well supported. The voucher can be provided again if required.
Exception tick mark # 49 or sample # 93 reference voucher CDMM 1474 for AFN 550,680
equivalent to USD 10,898 has been located and all the required documents such as purchase
requests, quotations, bids analysis, purchase order, good received note, invoice and copy of the
check are all attached to the payment voucher.
Exception tick mark # 70 or sample # 84 reference CDMM11071 for USD 138 is for travel costs
and has all its supporting documents.
Exception tick mark # 70 or sample # 126 to 132 reference CDK 1670 fore USD 2,338 tickets for
SCI staff has the necessary required travel documents and we believe this shall be removed
from the questionable costs.

PAYROLL EXCEPTIONS
The draft audit report indicates that a total of USD 162,808 salary is in the category of
questionable costs due to lack of time sheets and employees agreements. While going through
the vouchers, time sheets and employee agreements we found that almost all of the time
sheets and employee agreements were found in our field offices. These are being shifted to the
Kabul office and can be shared with the auditors. We believe that a total of about USD 160,764
out of the above mentioned amount is well supported by timesheets and employee
agreements. The summary of these amounts is indicated in the able below:

 Remarks                                                            Amount USD
 Exception tick # 55 or sample # 62 reference CDB-1396                 12,451
 Exception tick # 55 or sample # 63 reference CDB-1396                 15,015
 Exception tick # 56                                                   33,390
 Exception tick # 57 or sample # 8 reference voucher #
                                                 CDB-9419              13,261
 Exception tick # 58 sample # 59 voucher # CBB1054                     19,664
 Exception tick # 58 sample # 60 voucher # CBB 1108                    20,047
 Exception tick # 58 sample # 61 voucher # CBSR 1143                   25,842
 Exception tick # 61 sample # 58 voucher # CBB 1028                    21,095
 Total                                                                160,764

The detailed explanation and information regarding the above table is indicated below:
Exception tick # 55 or sample # 62 reference CDB-1396 for AFN 561,895 or equivalent to USD
12,451 for salary. The payment voucher was already shared with the auditors and time sheet




                                                  82                                          22
Annex to Mercy Corps' Findings                                                    APPENDIX A



and employees contracts have been located in the field office and are available for review and
can be shared with the auditors.
Exception tick # 55 or sample # 63 reference CDB-1396 for AFN 677,640.90 or equivalent to USD
15,015 for salary of program staff was shared with the auditor. Time sheets and employee
contracts have been located in the field office and all are now available for review. We believe
that the exception tick # 55 for USD 27,466 shall be removed from the questionable finding
after we share the employees contract and time sheets.
Exception tick # 56 or sample # 2, sample # 151, sample #152 and sample # 153 reference
voucher # 23008 for USD 16,829,29, voucher # 23008c for USD 244.45, voucher # 23002 for
USD 8,274.31 and voucher # 23002 for USD 8,041.98 are all supported by the employee
timesheet and other information sent by SCUS (Fariz) to MC on 26 Sep 2013. This amount
should be removed from the questioned costs.
Exception tick # 57 or sample # 8 reference voucher # CDB-9419 for AFN 657,749.91 or USD
13,261 along with time sheets and employee contracts is ready for review. Out of 28 time
sheet, 26 timesheets and employee contracts are available for review and can be shared with
the auditors.
Exception tick # 58 sample # 59 voucher # CBB1054 for AFN 953,682 or equivalent USD
19,663.55 for salary has is supported with documents. Time sheets and employees contracts of
39 staff out of 47 have been located. The time sheet and employees contracts for 23 out of 27
staff under Exception tick # 58 sample # 60 voucher # CBB 1108 for AFN 931, 277.67 or
equivalent USD 20,046.88 have been located. The time sheets and employees contracts for all
staff in Exception tick # 58 sample # 61 voucher # CBSR 1143 for AFN 1,171,433 or equivalent
USD 25,842 have been located and can be shared with auditors
Exception tick # 61 sample # 58 voucher # CBB 1028 for AFN 991,511.89 or equivalent USD
21,095 has already been provided to the auditors and the time sheets and employee contracts
for 40 out of 48 staff members have been located in the field office and can be shared with the
auditors.

EXCLUDED PARTY EXCEPTION
Exception ticket mark # 32 transactions for excluded amounting to USD 59,326 are all below the
threshold considered by SCI ( USD 25,000) for excluded party checking.




                                              83                                              23
                                                                                                                 APPENDIX B
                                                      MERCY CORPS

                                            Detailed Results for Finding 2013-1



                                                                                                     Number of   Questioned
Sample No. (a)                                      Conditions                                        Errors       Costs
                 Contractual (program):
      1            Project completion report was not completed; signature was missing from a                 1   $      774
                   worker; picture of completed project was not provided; photo of workgroup
                   was not provided at the beginning of the project; and monthly, daily and
                   weekly Project Summary Report was not completed.

      2             Fingerprints were tampered by pen mark; fingerprints for the same worker                 1           30
                    appears different; picture of completed project was not provided; photo of
                    workgroup was not taken at the beginning of the project; and daily project
                    report was not completed.

      4             Signature was missing for a worker; fingerprints are similar for multiple                1          190
                    workers; picture of completed project was not provided; photo of workgroup
                    was not taken at the beginning of the project; and daily and weekly project
                    report was not completed.

      5             Fingerprints for the same workers appear different; fingerprints were                    1          153
                    identical; photo of workgroup was not completed at the beginning of the
                    project; and the daily project report was not completed.

      6             Fingerprints for the same workers appear different; fingerprint were identical           1          219
                    for different workers; picture of completed project was not provided; photo
                    of workgroup was not taken at the beginning of the project; and the daily
                    and weekly project reports were not completed.

      7             Fingerprints are similar for multiple workers; picture of completed project              1           61
                    was not provided; photo of workgroup was not taken at the beginning of the
                    project; and the daily and weekly project reports were not completed.

      9             Signature was missing of a worker; fingerprints are similar for multiple                 1          249
                    workers; picture of completed project was not provided; photo of workgroup
                    was not taken at the beginning of project; and the daily project report was
                    not completed.

     10             Signature was missing for a worker; the incorrect wage rate was paid for                 1          203
                    the type of worker; picture of the completed project was not provided; photo
                    of workgroup was not taken at the beginning of the project; and the daily
                    project report was not completed.

     11             Incorrect wage rate was paid for type of worker; fingerprints are similar for            1          428
                    multiple workers; picture of the completed project was not provided; photo
                    of workgroup was not taken at the beginning of the project; and daily and
                    weekly project reports were not completed.

     12             Signature was missing for worker; picture of completed project was not                   1           72
                    provided; and daily project report was not completed.

     13             Fingerprints for the same workers appear different; signature was not                    1            5
                    obtained for all participants receiving equipment on the PEDL; picture of the
                    completed project was not provided; photo of workgroup was not taken at
                    the beginning of the project; and the daily project report was not completed.




                                                               84
                                                                                                             APPENDIX B
                                                   MERCY CORPS

                                         Detailed Results for Finding 2013-1



                                                                                                 Number of   Questioned
Sample No. (a)                                   Conditions                                       Errors       Costs
     14          Signature was missing for a worker; signature was not obtained for all                  1   $       69
                 participants receiving equipment on the PEDL; and the monthly and daily
                 project reports were not completed.

     15          Project completion report was not completed; the equipment distribution list            1        1,065
                 was not provided; picture of completed project was not provided; photo of
                 workgroup was not taken at the beginning of the project; and the monthly
                 daily and weekly project report was not completed.

     17          Signature was missing for a worker; signature was not obtained for all                  1           68
                 participants receiving equipment on the PEDL; photo of workgroup was not
                 taken at the beginning of the project; and the monthly and daily project
                 reports were not completed.

  19, 24, 30     Signature was missing for a worker; and the monthly and daily project                   3          214
                 reports were not completed.

     22          Fingerprints are similar for multiple workers; picture of completed project             1           65
                 was not provided; photo of workgroup was not taken at the beginning of the
                 project; and the daily project report was not completed.

    23, 26       Fingerprints were tampered by pen mark; fingerprints for the same workers               2           50
                 appear different; picture of completed project was not provided; photo of
                 workgroup was not taken at the beginning of theproject; and monthly and
                 daily project report was not completed.

     31          Fingerprint was similar for multiple workers; signature was not obtained for            1           67
                 all participants receiving equipment on the PEDL; picture of the completed
                 project was not provided; photo of workgroup was not taken at the
                 beginning of the project; and the monthly and daily project reports were not
                 completed.

     32          Fingerprints for the same workers appear different; the daily project report            1          109
                 was not completed.

     33          Fingerprints for the same workers appear different; fingerprints were                   1           34
                 tampered by pen mark; picture of the completed project was not provided;
                 and the monthly and daily project report was not completed.

     34          Signature was missing for a worker; fingerprints for the same workers                   1          171
                 appear different; signature was not obtained for all participants receiving
                 equipment on the PEDL; photo of workgroup was not taken at the
                 beginning of the project; and monthly and daily project reports were not
                 completed.

     35          Incorrect wage rate was paid for type of worker; fingerprints are similar for           1          348
                 multiple workers; picture of the completed project was not provided; photo
                 of workgroup was not taken at the beginning of the project; and monthly
                 and daily project reports were not completed.

     36          Signature was missing for a worker; signature was not obtained for all                  1   $       30
                 participants receiving equipment on the PEDL; incorrect wage rate was paid
                 for type of worker; and the daily field report was not completed.



                                                            85
                                                                                                                APPENDIX B
                                                   MERCY CORPS

                                         Detailed Results for Finding 2013-1



                                                                                                    Number of   Questioned
Sample No. (a)                                   Conditions                                          Errors       Costs
     37          Signature was not obtained for all participants receiving equipment on the                 1          233
                 PEDL; deputy program manager did not approve timesheets for all workers;
                 photo of workgroup was not taken at the beginning of the project; and the
                 monthly and daily project reports were not completed.

     38          Signature was missing for a worker; fingerprints are similar for multiple                  1          243
                 workers; picture of completed project was not provided; photo of workgroup
                 was not taken at the beginning of the project; and the monthly and daily
                 project reports were not completed.

     40          Project completion report was not completed; the equipment distribution list               1        1,122
                 was not provided; picture of completed project was not provided; and the
                 monthly, daily and weekly project reports were not completed.

     41          Fingerprints were tampered by pen mark; fingerprints for the same workers                  1           70
                 appear different; fingerprints were printed in identical square shapes for
                 different workers, fingerprints were unreadable; signature was missing for a
                 worker; and the monthly, daily and weekly project reports were not
                 completed.

     43          Signature was missing for a worker; fingerprints for the same workers                      1           73
                 appear different; fingerprints are identical for different workers; signature
                 was not obtained for all participants receiving equipment on the PEDL;
                 picture of completed project was not provided; and monthly, daily and
                 weekly project reports were not provided.

     45          Fingerprints for the same workers appear different; fingerprints were                      1          270
                 identical for different workers; signature was not obtained for all participants
                 receiving equipment on the PEDL; photo of workgroup was not taken at the
                 beginning of the project; and monthly, daily and weekly project reports were
                 not completed.

     46          Fingerprints were tampered by pen mark; fingerprints were smeared;                         1        1,105
                 picture of completed project was not provided; and the monthly and daily
                 project reports were not completed.

     47          Fingerprint is similar for multiple workers; and the monthly and daily project             1           65
                 reports were not completed.

     51          Signature was missing for a worker; fingerprints were tampered by pen                      1           68
                 mark; fingerprints were smeared; and monthly and daily project reports
                 were not completed.

     52          Information was missing to determine correct project worked and related                    1        1,199
                 pay period; and monthly and daily project reports were not completed.

     53          Fingerprints for the same workers appear different; the equipment                          1   $      807
                 distribution list was not provided; and the monthly and daily project reports
                 were not completed.

     55          Fingerprints were smeared; fingerprints for the same workers appear                        1          135
                 different; and the monthly and daily project reports were not completed.




                                                             86
                                                                                                               APPENDIX B
                                                       MERCY CORPS

                                           Detailed Results for Finding 2013-1



                                                                                                   Number of   Questioned
Sample No. (a)                                     Conditions                                       Errors       Costs
     56             Signature was missing for a worker; fingerprints were tampered by pen                  1        1,332
                    mark; fingerprints were printed in identical square shapes for different
                    workers; fingerprints were unreadable; fingerprints were smeared; and the
                    monthly and daily project report was not completed.

     57             Equipment distribution list was not provided; fingerprints are similar for             1           63
                    multiple workers; photo of workgroup was not taken at the beginning of the
                    project; and the monthly, daily and weekly project reports were not
                    completed.

     58             Signature was missing for a worker; the equipment distribution list was not            1           28
                    provided; picture of completed project was not provided; and monthly and
                    daily project reports were not completed.

     59             Project completion report was not completed; fingerprints were tampered by             1           24
                    pen mark; and monthly and daily project reports were not completed.


                      Subtotal contractual (program)                                                      42       11,511


                 Contractual (sub-grant):
      5            Instead of fingerprints, there were checkmarks on all timesheets;                       1        1,771
                   materials/refuse tracking form not provided; no group photo or finished
                   project photo provided; and no project monitoring reports provided.

     28             Fingerprints were printed in identical square shapes for different workers;            1        1,306
                    fingerprints were unreadable; payment summary report was not prepared by
                    the area supervisor; village not listed under the program province; no group
                    photo or finished project photo provided; and no project monitoring reports
                    provided.

  29, 30, 31        Fingerprints were printed in identical square shapes for different workers;            3        3,918
                    fingerprints were unreadable; payment summary report was not prepared by
                    the area supervisor; no materials/refuse tracking form; village not listed
                    under the program province; no group photo or finished project photo
                    provided; and no project monitoring reports provided.

    36, 67          Fingerprints were printed in identical square and triangluar shapes for                2       11,337
                    different workers; fingerprints were unreadable; workers timesheets were
                    missing; payment summary report not provided; the village was not listed on
                    any of the project documents; no group photo or finished project photo
                    provided; and no project monitoring reports provided.

     37             Fingerprints of the workers were unclear or absent on timesheets; payment              1   $    1,123
                    summary report not provided; no materials/refuse tracking form; no group
                    photo or finished project photo provided; and no project monitoring reports
                    provided.

  46, 78, 79,       Fingerprints of the workers were unclear or smeared on timesheets; some                6       31,670
 80,163, 194        timesheets do not contain fingerprints but contain checkmarks instead;
                    some fingerprints are overwritten by checkmarks; materials/refuse tracking
                    form not provided; no group photo or finished project photo provided; and
                    no project monitoring reports provided.


                                                             87
                                                                                                               APPENDIX B
                                                   MERCY CORPS

                                         Detailed Results for Finding 2013-1



                                                                                                   Number of   Questioned
Sample No. (a)                                   Conditions                                         Errors       Costs
      49          Fingerprints were printed in identical square shapes for different workers;              1        1,143
                  fingerprints were unclear; workers timesheets were missing; payment
                  summary report not provided; total amount on timesheet differs from cash
                  disbursement amount; the village was not listed on any of the project
                  documents; no group photo or finished project photo provided; and no
                  project monitoring reports provided.

    50, 73        Payment summary report not provided; materials/refuse tracking form not                  2       11,380
                  provided; the village was not listed on any of the project documents; no
                  group photo or finished project photo provided; and no project monitoring
                  reports provided.

      56          There were multiple supporting documents for the same amount but no                      1          133
                  indication as to which supports the sample; no group photo or finished
                  project photo provided; and no project monitoring reports provided.

64, 65, 66, 70,   Fingerprints were printed in identical square and triangluar shapes for                  9       94,083
71, 72, 74, 75,   different workers; fingerprints were unreadable or smeared; some
      76          timesheets did not contain fingerprints but contained checkmarks instead;
                  materials/refuse tracking form not provided; no group photo or finished
                  project photo provided; and no project monitoring reports provided.


    68. 69        Fingerprints were printed in identical square shapes for different workers;              2       19,455
                  Fingerprints were unreadable; fingerprints were smeared; timesheets do not
                  contain fingerprints but contained checkmarks instead; materials/refuse
                  tracking form not provided; no group photo or finished project photo
                  provided; and no project monitoring reports provided.

      77          Project payment summary sheet missing approval signatures;                               1        6,694
                  materials/refuse tracking form not provided; the village was not listed on any
                  of the project documents; no group photo or finished project photo
                  provided; and no project monitoring reports provided.

      81          Fingerprints of the workers were unclear or absent on timesheets; payment                1          815
                  summary report not provided; materials/refuse tracking form not provided;
                  no group photo or finished project photo provided; and no project
                  monitoring reports provided.

      82          Missing project payment summary sheet; materials/refuse tracking form not                1   $      505
                  provided; no group photo or finished project photo provided; and no project
                  monitoring reports provided.

166, 173, 184,    Fingerprints were printed in identical square or small circle shapes for                 8       48,201
188, 189, 192,    different workers; fingerprints were unreadable or smeared; some
  193, 195        timesheets do not contain fingerprints but contained checkmarks instead;
                  some fingerprints are overwritten by checkmarks; materials/refuse tracking
                  form not provided; no group photo or finished project photo provided; and
                  no project monitoring reports provided.

169, 171, 199     Payment summary reported was not prepared by the area supervisor;                        3       10,516
                  materials/refuse tracking form not provided; no group photo or finished
                  project photo provided; and no project monitoring reports provided.



                                                            88
                                                                                                            APPENDIX B
                                                  MERCY CORPS

                                         Detailed Results for Finding 2013-1



                                                                                                Number of   Questioned
Sample No. (a)                                   Conditions                                      Errors       Costs
     172         Fingerprints of the workers were unclear or smeared on timesheets; some                1         4,535
                 timesheets do not contain fingerprints but contain checkmarks instead;
                 materials/refuse tracking form not provided; no group photo or finished
                 project photo provided; and no project monitoring reports provided.


185, 186, 198    Fingerprints of the workers were unclear or absent on timesheets; the                  3        24,790
                 village was not listed on any of the project documents; no group photo or
                 finished project photo provided; and no project monitoring reports provided.


187, 197, 200    No support provided                                                                    3        18,989
     175         Sample differs to supporting documents by 233 Afghans; materials/refuse                1             5
                 tracking form not provided; the village was not listed on any of the project
                 documents; no group photo or finished project photo provided; and no
                 project monitoring reports provided.

     190         Fingerprints of the workers were unclear or absent on timesheets; no group             1         6,462
                 photo or completed project photo; worker's home villages not listed; and no
                 project monitoring reports provided.

     191         Fingerprints were unreadable or smeared; the village was not listed on any             1         7,404
                 of the project documents; no group photo or finished project photo
                 provided; and no project monitoring reports provided.

     196         Fingerprints of the workers were unclear or absent on timesheet; no group              1         6,031
                 photo or finished project photo provided; and no project monitoring reports
                 provided.


                  Subtotal contractual (subgrant)                                                      54       312,266

                 Total questioned costs Finding 2013-1                                                 96   $   323,777



     (a)         The sample number represents the number assigned by MHM to the sample selected. Mercy Coprs
                 provided a separate CFW population and the samples were numbered 1 through 59. However, SCF
                 provided a combined population from which a combined sample of 200 were selected. As such, the
                 CFW samples are not in sequential order.




                                                           89
                                                                                         APPENDIX C
                                           MERCY CORPS

                               Financial Audit of Costs Incurred Under
                          Cooperative Agreement No. 306-A-00-09-00512-00

                              Auditors’ Rebuttal to Response to Findings

                      For the Period March 10, 2009 through December 31, 2011


Mercy Corps provided a general management response to the audit and audit report, as well as specific
disagreements to 6 out of the 9 findings presented in this report. We have reviewed its management
responses and offer the following rebuttals to the general management responses, as well as each of
the findings to which it disagreed.


Rebuttal to Management General Response

Mercy Corps indicated that SCF has an additional $90,859 of indirect costs which were not claimed and
any questioned costs should be offset against these unclaimed costs. Any costs not included on the
Fund Accountability Statement and not claimed by Mercy Corps and/or SCF were not audited. As
such, the decision as to whether additional costs not claimed or audited would be accepted rests with
USAID. No changes have been made to the report.

Mercy Corps also identified indirect cost rates by year. We agree with these indirect cost rates and
have updated Note 10 accordingly. However, the correct indirect cost rates were used when
calculating associated questioned indirect costs.


Rebuttal to Specific Findings in Which Mercy Corps Disagreed

2013-1: Lack of Complete Documentation to Support Cash-for-Work Programs

Mercy Corps disagrees with this finding. It states that the FIRUP CFW Guidelines only offer a
framework to the various steps and parties in monitoring and implementing the CFW program and not
all documentation that was missing should result in questioned costs. SCF indicated the original
documentation, which was maintained in Afghanistan, was and is available for review.

When auditing the CFW program, we utilized all sources available in determining whether costs were
reasonable, allowable and allocable under the Agreement. The FIRUP CFW Guidelines outline specific
procedures that employees are to follow in processing and documenting cash disbursements. These
procedures become part of the organizations internal control system in the field. If Mercy Corps and/or
SCF did not follow its established procedures for processing and/or documenting its disbursements,
then doubt was raised as to the allowability of the cost.

In planning this audit, we discussed with Mercy Corps and SCF as to the location of records for audit. It
was agreed that SCF would forward its records to Mercy Corps in Portland, Oregon for our review. To
the extent that copies were made by SCF, and those copies were illegible, SCF should have reviewed
the quality of the documentation provided prior to sending it to Mercy Corps. SCF was slow in
providing documentation requested. As soon as the documentation was provided and we were able to
review it, we notified both Mercy Corps and SCF that certain of the documents were illegible. However,
since SCF was slow in providing documentation to our initial request, the time period in which Mercy



                                                   90
                                                                                          APPENDIX C
                                           MERCY CORPS

                               Financial Audit of Costs Incurred Under
                          Cooperative Agreement No. 306-A-00-09-00512-00

                               Auditors’ Rebuttal to Response to Findings

                                              (Continued)


Corps and SCF could provide additional documentation or clarification for these illegible items was only
a few days before the previously established cutoff date for documentation. Had SCF originally
responded in a timely fashion, they would have left themselves more time to respond to our questions.
Furthermore, it was not until the exit conference, which was after the cut-off date for providing
documents, that SCF indicated that original documents could be made available for review in
Afghanistan.

Additionally, only 13% of the sampled items were questioned due to being illegible. The remaining 87%
was questioned due to tickmarks being used in lieu of required fingerprints, only a very small portion of
a fingerprint was imprinted on a timesheet, no fingerprints were on the timesheet or no timesheets were
provided.

Our recommendation remains unchanged.

Mercy Corps and SCF also provided specific management responses to each questioned transaction.
These detailed responses and our rebuttal are presented in Appendix D of this report.


2013-2: Personnel Costs Claimed for Non-Program Personnel and Missing Documentation

Mercy Corps partially disagrees with this finding. It states that it is in compliance with OMB Circular A-
133 as the timesheets were signed by the employees and the documented calculation of salary, wages
and net pay was approved by a responsible party of the organization. Mercy Corps disagrees with the
questioned costs due to missing employment agreements, as it believes there is other documentation
that supports the amount agreed and paid to the employee, such as the offer letter or pay slip. Mercy
Corps does accept the ineligible costs and questioned costs relating to missing timesheets. The
missing timesheets and employment agreements for SCF have been located and are available for
review.

While Mercy Corps may be in compliance with OMB Circular A-133 requirements related to approvals
of timesheets, it is not in compliance with OMB Circular A-122 and its own policies and procedures that
require the timesheets be signed a supervisor. Additionally, without a signed employment agreement,
we were unable to determine whether the individual paid was actually an employee and whether they
were paid at the approved rate of pay. As such, our recommendation remains unchanged.


2013-3: Missing or Insufficient Source Documentation to Support Expenses

MC partially disagrees with this finding. The ticket change fee was approved by the traveler and the
Country Director who had signed off on the Operational Expense Report that showed evidence of the
tickets purchased and associated costs. However, approval by the Country Director is required prior to
travel, and actual approval was not obtained until after travel was completed, which is in violation of



                                                   91
                                                                                          APPENDIX C
                                           MERCY CORPS

                               Financial Audit of Costs Incurred Under
                          Cooperative Agreement No. 306-A-00-09-00512-00

                               Auditors’ Rebuttal to Response to Findings

                                              (Continued)


Mercy Corps’ policy. For the Certification for a non-U.S. flight carrier, Mercy Corps states that there is
not a requirement that this be approved. The travel in question was from Kabul to Dubai, and there is
no U.S. Flag carrier that provides service between these destinations. The traveler had completed the
Certification electronically and had attached it to his submitted Travel Approval form. Mercy Corps
accepts the observation related to the journal entry that was not reviewed and approved. SCF stated
that some of the documents were provided during audit, but there was insufficient time to address the
auditors’ questions prior to finalizing the audit. Additional documents have been located in Afghanistan
and available for review.

According to Mercy Corps’ internal travel policy, all work-related travel by employees must be approved
in advance by the traveler’s supervisor before travel arrangements are made. However, in this
instance, the employee failed to obtain supervisor approval prior to making the flight change. We have
added additional criteria from Mercy Corps’ Field Financial Manual which requires prior supervisor
approval for clarification. The questioned cost related to the “Certification of Unavailability” not being
provided for our review for the flight from Kabul to Dubai has been dropped. This consisted of $415 of
direct costs and $43 of associated indirect costs, for a total of $458.

SCF has also provided a specific management response to each questioned transaction.               These
detailed responses and our rebuttal are presented in Appendix D of this report.


2013-4: Lack of Adherence to Procurement Procedures

MC disagrees with this finding. It recognizes the importance of following its procurement policy in order
to document compliance with the Procurement Standards in 22 CFR 226.40 through 22 CFR 226.49.
While not all steps in the procurement process were documented according to its procurement manual,
the procurements were done in a manner to ensure open and free competition and to ensure
reasonable and necessary costs to the program. The six transactions for SCF were under $500, and it
states a quotation and bid analysis is not required per its procurement policy.

In the 3 instances that Mercy Corps has provided its response, no documentation was available for
review to indicate that the contract for mobile phone usage and the service contract for support training
were competitively bid. Additionally, although there were 2 of 3 required signatures on the third item,
the third signature was missing. This signature was required per Mercy Corps’ procurement policies.
As to SCF’s response, its procurement policy does require a quotation from 1 vendor for procurements
under $500. A quotation was not provided for our review. We have added this additional criteria to the
finding for clarification. As such, our recommendation remains unchanged.




                                                   92
                                                                                         APPENDIX C
                                           MERCY CORPS

                               Financial Audit of Costs Incurred Under
                          Cooperative Agreement No. 306-A-00-09-00512-00

                              Auditors’ Rebuttal to Response to Findings

                                              (Continued)


2013-5: Need to Review the Excluded Parties List

Mercy Corps disagrees with this finding. Mercy Corps states that its and SCF’s policies are in
compliance with the applicable thresholds for the verification of debarment and suspension for
transactions greater than or equal to $25,000, and are in compliance with the applicable rules and list-
checking was not required on these non-threshold transactions. Additionally, just 1 of the sampled
transactions for SCF exceeded $25,000.

After discussion with USAID, we agree that both Mercy Corps and SCF were in compliance with 22
CFR 226.13 and have therefore removed this criterion from the finding. However, both entities were
not in compliance with the section C.10.b. of the Agreement. Our recommendation remains
unchanged.


2013-6: Lack of Segregation of Duties within Cash Disbursement Process

Mercy Corps disagrees with this finding. It indicates that the subjournal voucher is not a control
document related to the disbursement of cash, but rather serves as a coversheet for the supporting
documentation for each transaction. The subjournal voucher summarizes the key financial information
related to the transactions and provides a unique tracking number, linking a line entry in the accounting
system with the original documentation that supports the transaction. The subjournal voucher is
entered into a subjournal and uploaded monthly into the financial system. The subjournal is prepared
and reviewed by separate individuals.

The subjournal voucher was the only documentary evidence that Mercy Corps provided that was used
to convert the local currency to the US dollar. As such, if a mistake was made on the subjournal
voucher related to the conversion rate, there would have been no review procedure in place to correct
such an error. Our recommendation remains unchanged.




                                                   93
                                                                                           APPENDIX D
                                         MERCY CORPS

                             Financial Audit of Costs Incurred under
                        Cooperative Agreement No. 306-A-00-09-00512-00

     Management Responses to Specific Transactions Questioned and Auditor’s Rebuttal

                           March 10, 2009 through December 31, 2011


Summarized below is Mercy Corps’ and SCF’s responses to each specific transaction we questioned to
which they disagree. The last column includes our rebuttal.


Mercy Corps Specific Responses to Finding 2013-1 and Auditor Rebuttal:

     Sample           Condition
     Number        Noted in Audit           Management Response                         Auditor Rebuttal
    1, 4, 9, 10,   Signature was    This finding relates to testing of Site       In the absence of a
    12, 14, 17,    missing from a   Supervisor timesheets. In these cases         fingerprint each day, Mercy
    19, 24, 30,    worker           the Site Supervisor did not finger print      Corps is unable to prove that
    34, 36, 37,                     on each day of work, but rather signed        the Site Supervisor worked
    43, 51, 56,                     or finger printed when the entire wage        the entire period for which
         58                         was received and signed or finger             he was paid. No change in
                                    printed the wage approval. Each               questioned transactions.
                                    morning and afternoon worker was
                                    marked as worked. This complies with
                                    the requirements detailed above as the
                                    Area Supervisor maintains the
                                    timesheet and has noted when the
                                    time has been worked, and the Site
                                    Supervisor acknowledges the wage to
                                    be received and the payment received.
                                    There is no missing signature, and as
                                    such the costs should not be
                                    questioned.

     2, 23, 26,    Fingerprints     There are pen marks on the timesheet,         The pen marks on the
    33, 41, 46,    were tampered    but it is unclear if this was done prior to   fingerprints distort the
    51, 56, 59     by pen mark      or after the fingerprint. There are           fingerprint and makes it
                                    marks on the days to show when                harder to distinguish 1 finger
                                    morning and afternoons have been              print from another. No
                                    worked, and at times a single pen             change in questioned
                                    mark in the wage approval or wage             transactions.
                                    received box. These are likely there to
                                    serve as a reminder that the fingerprint
                                    needs to be made or to document
                                    review of the fingerprint, or sometimes
                                    would have been the result of monitors
                                    or Site Supervisors double-checking
                                    the attendance of the workers listed.
                                    These sheets are generally printed or
                                    photocopied in the field where
                                    conditions can be challenging. This
                                    can also lead to marks on the sheets
                                    and then compounded if a Site



                                                  94
                                                                                       APPENDIX D
                                       MERCY CORPS

                         Financial Audit of Costs Incurred under
                    Cooperative Agreement No. 306-A-00-09-00512-00

 Management Responses to Specific Transactions Questioned and Auditor’s Rebuttal

                                          (Continued)


 Sample          Condition
 Number        Noted in Audit            Management Response                       Auditor Rebuttal
                                  Supervisor ticks or marks to aid in their
                                  review. These marks have not altered
                                  the presentation or presence of the
                                  fingerprint and so it is inaccurate to
                                  suggest that the finger print has been
                                  “tampered” by pen mark.

2, 5, 6, 13,   Fingerprints for   The auditor did not provide specific        During fieldwork, an itemized
26, 32, 33,    the same worker    reference to which worker’s fingerprint     listing of the workers whose
34, 43, 45,    appears            appears different so we cannot speak        fingerprints had issues was
  53, 55       different          to each specific example. However,          provided to Mercy Corps. If
                                  this is a common issue with many            the variances in fingerprints
                                  NGOs performing CFW programming             were due to the reasons
                                  and we also saw this in our own             listed, then the Site
                                  monitoring of the program. Various          Supervisor should have
                                  reasons for the appearance of different     included a comment to
                                  finger prints include:                      explain this variance in
                                  • Workers used different fingers due to     fingerprints to a cold
                                  injury or a rush to complete the            reviewer. No change in
                                  timesheet. While this was not the           questioned transactions.
                                  procedure, it happened on occasion.
                                  • On occasions where a worker was ill
                                  or unable to attend work, which
                                  inevitably happens in a program of this
                                  size, that worker would sometimes
                                  send a relative to complete work in his
                                  place, hence the appearance of
                                  apparently different fingerprints for the
                                  “same” worker.
                                  • Laborers were not informed in
                                  advance when wages would be
                                  distributed due to security reasons,
                                  and therefore may be absent when the
                                  wage was distributed. Payment was
                                  then made to a relatives, co-worker or
                                  community leader and later handed
                                  over to the beneficiary.
                                  Each timesheet would have been
                                  prepared by the group leader; the Site
                                  Supervisor would ensure that the
                                  timesheet is being properly
                                  maintained; the timesheets would have
                                  been reviewed and approved by the
                                  Area Supervisor and from this the
                                  Payment Summary Form would have


                                                95
                                                                                           APPENDIX D
                                          MERCY CORPS

                            Financial Audit of Costs Incurred under
                       Cooperative Agreement No. 306-A-00-09-00512-00

  Management Responses to Specific Transactions Questioned and Auditor’s Rebuttal

                                             (Continued)


  Sample           Condition
  Number         Noted in Audit              Management Response                       Auditor Rebuttal
                                     been completed. The Program
                                     Manager would review and approve
                                     the Payment Summary form. There
                                     was also monitoring of the projects by
                                     Mercy Corps staff and a
                                     USAID/Afghanistan contracted third
                                     party. As such, there were sufficient
                                     compensating controls to ensure that
                                     beneficiaries received the CFW
                                     payments even if there were
                                     irregularities in the fingerprinting.

4, 5, 6, 7, 9,   Fingerprints are    The auditor did not provide specific         During fieldwork, an itemized
 11, 22, 31,     similar/identical   reference to which worker’s fingerprint      listing of the workers whose
 38, 43, 45,     for multiple        appears different so we cannot speak         fingerprints had issues was
   47, 57        workers             to each specific example. However,           provided to Mercy Corps.
                                     this was also observed by Mercy              As the fingerprints were the
                                     Corps during program implementation.         only means of control for this
                                     On several occasions Mercy Corps             high risk area of cash
                                     team member specifically investigated        disbursement, it is important
                                     what appeared to be similar or               to have tight controls in
                                     identical fingerprints for different         place to ensure that
                                     workers, but on-site verification with       payment is made to the
                                     actual workers present in fact               correct beneficiary. No
                                     confirmed that the fingerprints – while      change in questioned
                                     appearing similar – were accurate (that      transactions.
                                     is, were from different workers as
                                     listed). The similar appearance of
                                     fingerprints is due to the conditions
                                     under which fingerprinting was
                                     conducted: workers were fingerprinted
                                     on hand-held pieces of paper in
                                     conditions that were often dusty or
                                     windy, and workers’ hands were often
                                     dirty from construction materials,
                                     therefore making the resulting
                                     fingerprints either indistinct or similar-
                                     looking.

     10          The incorrect       The auditors did not provide a               During fieldwork, we
                 wage rate was       reference to which worker was paid the       communicated with Mercy
                 paid for the type   incorrect wage. In review of the             Corps that the wage rate
                 of worker.          documentation, it appears that all           had a variance where the
                                     wage rates were correct.                     pay period crossed between



                                                   96
                                                                                   APPENDIX D
                                  MERCY CORPS

                     Financial Audit of Costs Incurred under
                Cooperative Agreement No. 306-A-00-09-00512-00

Management Responses to Specific Transactions Questioned and Auditor’s Rebuttal

                                      (Continued)


Sample       Condition
Number     Noted in Audit            Management Response                        Auditor Rebuttal
                                                                          harvest and non-harvest.
                                                                          However, all workers were
                                                                          paid at harvest rates. Per
                                                                          confirmation provided by
                                                                          USAID, if Mercy Corps
                                                                          decided to pay a flat fee,
                                                                          which contradicts the
                                                                          Agreement, USAID prior
                                                                          approval should have been
                                                                          obtained. No change in
                                                                          questioned transactions.

  11      The incorrect       This was a project that was                 Per confirmation provided by
          wage rate was       implemented in a period that                USAID, if Mercy Corps
          paid for the type   overlapped the off-season and during        decided to pay a flat fee,
          of worker.          the harvest period. The wage rate was       which contradicts the
                              agreed at the onset of the program,         Agreement, USAID prior
                              and was agreed at a rate of $5/day as       approval should have been
                              that is the rate for the harvest period.    obtained. No change in
                              It would be impractical to have the         questioned transactions.
                              workers agree to one rate for one day
                              and another rate for the following day.
                              Since the rate paid was per the project
                              agreement, these costs should be
                              considered allowable.

  35      The incorrect       This was for a project in October 2010      Per confirmation provided by
          wage rate was       when the number of hours worked             USAID, if Mercy Corps
          paid for the type   during the work day had to be               decided to pay a flat fee,
          of worker.          extended to finish the project within the   which contradicts the
                              timeframe established. The                  Agreement, USAID prior
                              associated wage was also increased to       approval should have been
                              correspond with the extension of work       obtained. No change in
                              day. Mercy Corps is responsible to          questioned transactions.
                              ensure effective implementation and
                              the wage increase was deemed
                              necessary for implementation. This
                              wage increase on this project didn’t
                              require formal modification as outlined
                              in 22 CFR 226, and therefore should
                              be deemed allowable.

  37      Deputy program      It is agreed that there is one timesheet    When the compensating
          manager did not     that was not signed by the Deputy           controls were taking place,



                                            97
                                                                                       APPENDIX D
                                        MERCY CORPS

                           Financial Audit of Costs Incurred under
                      Cooperative Agreement No. 306-A-00-09-00512-00

     Management Responses to Specific Transactions Questioned and Auditor’s Rebuttal

                                            (Continued)


    Sample           Condition
    Number        Noted in Audit              Management Response                   Auditor Rebuttal
                 approve            Program Manager. However, it is also      then someone should have
                 timesheets for     a requirement that the Payment            raised the question as to
                 all workers        Summary Form be signed by the             whether that person worked
                                    Deputy Program Manager. The               the said time during the pay
                                    Payment Summary Form and all other        period and if so why the
                                    remaining timesheets were signed, so      Deputy Program Manager
                                    it is likely an oversight that this one   had not signed the
                                    timesheet wasn’t signed. Given that       timesheet. No change in
                                    there were compensating controls, the     questioned transactions.
                                    costs should be deemed allowable.



SCF Specific Responses to Finding 2013-1 and Auditor Rebuttal:

     Sample          Condition
     Number       Noted in Audit            Management Response                     Auditor Rebuttal
    28, 29,30,   Fingerprints       DR # CBSR1182 - Payment Summary           As indicated in the finding,
      & 31       unclear for some   report: The payment summary was           the Payment Summary
                 employees.         sent to audit (Reference CBSR 1182 at     report was provided but as
                 Payment            page number 2; 14). No group photos       required by the internal
                 summary report     or finished project photos: The           control procedures, it was
                 was not            reference SAR-PA-3003 (e.g. SAR           not prepared by the Area
                 prepared by the    3003 at page 9) group photos and          Supervisor. DR #
                 Area Supervisor.   finished project photos are available.    CBSR1182 provided had
                 No materials/                                                timesheets on the 25 pages,
                 refuse tracking                                              but no group photos or
                 form. Village                                                finished project photos. No
                 not listed under                                             change in questioned
                 the program                                                  transactions.
                 province. No
                 group photo or
                 finished project
                 photo provided.
                 No project
                 monitoring
                 reports
                 provided.

       36        Fingerprints of    DR # CDMM1620 - Materials/refuse          DR # CDMM1620 provided
                 the workers        tracking: The reference number FAR        had timesheets on the 46
                 were unclear or    3092 (page #26) was submitted to the      pages provided, but no
                 absent on          audit where the materials/refuse          materials/refuse tracking
                 timesheets.        tracking information were available.      form, group photos or



                                                 98
                                                                                 APPENDIX D
                                  MERCY CORPS

                     Financial Audit of Costs Incurred under
                Cooperative Agreement No. 306-A-00-09-00512-00

Management Responses to Specific Transactions Questioned and Auditor’s Rebuttal

                                      (Continued)


Sample        Condition
Number     Noted in Audit            Management Response                      Auditor Rebuttal
          Payment             No group photos or finished project       finished project photos. No
          summary report      photos: There are some photos             change in questioned
          not provided.       available in the submission documents     transactions.
          The village was     to audit (e.g. FAR 0092 at page
          not listed on any   number 13 & 39).
          of the project
          documents. No
          group photo or
          finished project
          photo provided.
          No project
          monitoring
          reports
          provided.

  37      Fingerprints of     DR # CDMM1724 - No group photos or        DR # CDMM1724 provided
          the workers         finished project photos: The group and    had timesheets on the 7
          were unclear or     the finished project photos were at the   pages provided, but no
          absent on           FAR 3112 project document.                group photos or finished
          timesheets.                                                   project photos. No change
          Payment                                                       in questioned transactions.
          summary report
          not provided.
          No materials/
          refuse tracking
          form. No group
          photo or finished
          project photo
          provided. No
          project
          monitoring
          reports
          provided.

  50      Payment             DR # CDMM1926 - No group photos or        DR # CDMM1926 provided
          summary report      finished project photos: The reference    had timesheets on page 31
          not provided.       FAR 0108 (e.g. at page 31 and 32)         and 32, but no group photos
          Materials/refuse    some photos are available.                or finished project photos.
          tracking form not                                             No change in questioned
          provided. The                                                 transactions.
          village was not
          listed on any of
          the project
          documents. No



                                           99
                                                                                 APPENDIX D
                                  MERCY CORPS

                    Financial Audit of Costs Incurred under
               Cooperative Agreement No. 306-A-00-09-00512-00

Management Responses to Specific Transactions Questioned and Auditor’s Rebuttal

                                      (Continued)


Sample        Condition
Number     Noted in Audit           Management Response                      Auditor Rebuttal
          group photo or
          finished project
          photo provided.
          No project
          monitoring
          reports
          provided.
  64      Fingerprints of     DR # CDMM1426 - No group photos or        DR # CDMM1426 provided
          the workers         finished project photos: The group and    had timesheets on the 49
          were unclear or     the finished project photos were in the   pages provided, but no
          smeared on          project document (e.g. FAR 0053 at        group photos or finished
          timesheets.         page number 3 & 4).                       project photos. No change
          Some                                                          in questioned transactions.
          timesheets do
          not contain
          fingerprints and
          contain
          checkmarks
          instead.
          Materials/refuse
          tracking form not
          provided. No
          group photo or
          finished project
          photo provided.
          No project
          monitoring
          reports
          provided.

  65      Fingerprints of     DR # CDMM1427 - No group photos           DR # CDMM1427 provided
          the workers         or finished project photos: Group         had timesheets on all 53
          were unclear or     photos are available in the submission    pages provided, but no
          smeared on          documents (page # 53; 54; #30; 86;        group photos. No change in
          timesheets.         85;87; and 29) to the audit (Reference    questioned transactions.
          Some                number: # FAR-PA 0023, 0024, 0018,
          timesheets do       0015, 0021, 0016, 0022, 0017, and
          not contain         0020).
          fingerprints and
          contain
          checkmarks
          instead.
          Materials/refuse
          tracking form not



                                          100
                                                                                 APPENDIX D
                                  MERCY CORPS

                     Financial Audit of Costs Incurred under
                Cooperative Agreement No. 306-A-00-09-00512-00

Management Responses to Specific Transactions Questioned and Auditor’s Rebuttal

                                      (Continued)


Sample        Condition
Number     Noted in Audit           Management Response                      Auditor Rebuttal
          provided. No
          group photo or
          finished project
          photo provided.
          No project
          monitoring
          reports
          provided.

  66      Fingerprints of     DR # CDMM1436 - No group photos or        DR # CDMM1436 provided
          the workers         finished project photos: The group and    had timesheets on the 69
          were unclear or     the finished project photos were in the   pages provided, but no
          smeared on          project document (e.g. FAR 0041 at        group photos or finished
          timesheets.         page number 5, 6, 7 & 20).                project photos. No change
          Some                                                          in questioned transactions.
          timesheets do
          not contain
          finger prints and
          contain
          checkmarks
          instead.
          Materials/refuse
          tracking form not
          provided. No
          group photo or
          finished project
          photo provided.
          No project
          monitoring
          reports
          provided.

  67      Fingerprints of     DR # CDMM1452 - Materials/ refuse         DR # CDMM1452 provided
          the workers         tracking: The reference number FAR        had timesheets on the 54
          were unclear or     31 (page #26) was submitted to the        pages provided, but no
          absent on           audit where the materials/refuse          materials/refuse tracking
          timesheets.         tracking information was available. No    form, group photos or
          Payment             group photos or finished project          finished project photos. No
          summary report      photos: There are some photos             change in questioned
          not provided.       available in the submission documents     transactions.
          The village was     to audit (e.g. FAR 0025 at page
          not listed on any   number 6 & 34).
          of the project
          documents. No



                                          101
                                                                                APPENDIX D
                                  MERCY CORPS

                    Financial Audit of Costs Incurred under
               Cooperative Agreement No. 306-A-00-09-00512-00

Management Responses to Specific Transactions Questioned and Auditor’s Rebuttal

                                      (Continued)


Sample        Condition
Number     Noted in Audit           Management Response                     Auditor Rebuttal
          group photo or
          finished project
          photo provided.
          No project
          monitoring
          reports
          provided.

  68      Fingerprints of     DR # CDMM1453 - No group photos          DR # CDMM1453 provided
          the workers         or finished project photos: The group    had timesheets on all 54
          were unclear or     photos are available in the project      pages provided, but no
          smeared on          documents (e.g. FAR: 0027 at page        group photos. No change in
          timesheets.         number 30 and project finished report    questioned transactions.
          Some                is at page number 31). All submitted
          timesheets do       documents to the audit the group
          not contain         photos and finished project photos are
          finger prints and   available.
          contain
          checkmarks
          instead. Some
          fingerprints are
          oddly shaped.
          Materials/refuse
          tracking form not
          provided. No
          group photo or
          finished project
          photo provided.
          No project
          monitoring
          reports
          provided.

  69      Fingerprints of     DR # CDMM1454 - No group photos          DR # CDMM1454 provided
          the workers         or finished project photos: The group    had timesheets on all 53
          were unclear or     photos and finished project photos are   pages provided, but no
          smeared on          available at the end of the submission   group photos or finished
          timesheets.         documents (# FAR-PA 0017, 0020,          project photos. No change
          Some                0018, 0019, 0021, 0016, 0032, and        in questioned transactions.
          timesheets do       0040).
          not contain
          fingerprints and
          contain
          checkmarks



                                          102
                                                                                APPENDIX D
                                  MERCY CORPS

                    Financial Audit of Costs Incurred under
               Cooperative Agreement No. 306-A-00-09-00512-00

Management Responses to Specific Transactions Questioned and Auditor’s Rebuttal

                                      (Continued)


Sample        Condition
Number     Noted in Audit           Management Response                     Auditor Rebuttal
          instead. Some
          fingerprints are
          oddly shaped.
          Materials/refuse
          tracking form not
          provided. No
          group photo or
          finished project
          photo provided.
          No project
          monitoring
          reports
          provided.

  70      Fingerprints of     DR # CDMM1466 - No group photos or       DR # CDMM1466 provided
          the workers         finished project photos: The group       had timesheets on all 61
          were unclear or     photos are available at the end of the   pages provided, but no
          smeared on          submission documents (# FAR-PA           group photos. No change in
          timesheets.         0017, 0020, 0023, 0024, 0051, 0054,      questioned transactions.
          Some                0041, 0042, 0043, 0031, 0032).
          timesheets do
          not contain
          fingerprints and
          contain
          checkmarks
          instead.
          Materials/refuse
          tracking form not
          provided. No
          group photo or
          finished project
          photo provided.
          No project
          monitoring
          reports
          provided.

  73      Payment             DR # CDMM1389 - No group photos or       DR # CDMM1389 provided
          summary report      finished project photos: There are       had timesheet on page 30,
          not provided.       some photos available in the             but no group photos or
          Materials/refuse    submission documents to audit (e.g.      finished project photos. No
          tracking form not   FAR-PA 0044, 0046, 0016, 0099,           change in questioned
          provided. The       0030, 0033, 0017, 0014, and 0015) to     transactions.
          village was not     the audit (e.g. FAR 0017 at page 30).



                                          103
                                                                                APPENDIX D
                                  MERCY CORPS

                    Financial Audit of Costs Incurred under
               Cooperative Agreement No. 306-A-00-09-00512-00

Management Responses to Specific Transactions Questioned and Auditor’s Rebuttal

                                      (Continued)


Sample        Condition
Number     Noted in Audit            Management Response                     Auditor Rebuttal
          listed on any of
          the project
          documents. No
          group photo or
          finished project
          photo provided.
          No project
          monitoring
          reports
          provided.

  74      Fingerprints of     DR # CDMM1551 - There are some            DR # CDMM1551 provided
          the workers         photos available in the submission        had timesheets on all 53
          were unclear or     documents to audit (e.g. Reference        pages provided, but no
          smeared on          FAR 0081 at page 29).                     group photos. No change in
          timesheets.                                                   questioned transactions.
          Some
          timesheets do
          not contain
          fingerprints and
          contain
          checkmarks
          instead.
          Materials/refuse
          tracking form not
          provided. No
          group photo or
          finished project
          photo provided.
          No project
          monitoring
          reports
          provided.

  75      Fingerprints of     DR # CDMM1576 - No group photos           DR # CDMM1576 provided
          the workers         or finished project photos: The above     had only timesheets on page
          were unclear or     mentioned projects were women             5 but not the referenced
          smeared on          projects. Due to the cultural barriers    documentation. No change
          timesheets.         the group photos were not taken at the    in questioned transactions.
          Some                beginning of the project. There were
          timesheets do       some photos were taken during the
          not contain         project life after it was agreed by the
          fingerprints and    communities and beneficiaries (e.g.
          contain             Reference FAR 0082 at page 5).



                                           104
                                                                                  APPENDIX D
                                  MERCY CORPS

                    Financial Audit of Costs Incurred under
               Cooperative Agreement No. 306-A-00-09-00512-00

Management Responses to Specific Transactions Questioned and Auditor’s Rebuttal

                                      (Continued)


Sample        Condition
Number     Noted in Audit            Management Response                      Auditor Rebuttal
          checkmarks
          instead.
          Materials/refuse
          tracking form not
          provided. No
          group photo or
          finished project
          photo provided.
          No project
          monitoring
          reports
          provided.

  76      Instead of          Document Reference (DR) # CDB              DR #CDB 1499 provided
          fingerprints        1499 - No group photos or finished         contained only 74 pages and
          there were          project photos: There are some             page 54 is a timesheet for
          checkmarks on       available photos during the project life   the period 03/07/10 to
          all timesheets by   (Reference# BAM 0017, page number          08/07/10 but no photographs
          checkmarks.         81; Reference# BAM 0018, page              of the project. No change in
          Materials/refuse    number 54).                                questioned transactions.
          tracking form not   Note: Instead of project number BAM-
          provided. No        PA#0117 and 0118 it was BAM-PA#
          group photo or      0017 & #0018. There were mistakes
          finished project    in the summary description of the
          photo provided.     project.
          No project
          monitoring
          reports
          provided.

  77      Project payment     DR # CDB-1543 - Project Payment            The condition related to
          summary sheet       summary missing approval signature:        missing approval signature,
          missing             The reference (CDB-1543 at page            not staff’s signature. No
          approval            number 3, 46 & 88) showed all              change in questioned
          signatures.         relevant staff signed the payment          transactions.
          Materials/refuse    summary.
          tracking form not
          provided. The
          village was not
          listed on any of
          the project
          documents. No
          group photo or
          finished project



                                           105
                                                                                APPENDIX D
                                  MERCY CORPS

                    Financial Audit of Costs Incurred under
               Cooperative Agreement No. 306-A-00-09-00512-00

Management Responses to Specific Transactions Questioned and Auditor’s Rebuttal

                                      (Continued)


Sample       Condition
Number     Noted in Audit           Management Response                     Auditor Rebuttal
          photo provided.
          No project
          monitoring
          reports
          provided.

  81      Fingerprints of     DR # CDMM2121 - Materials/ refuse        DR # CDMM1551 provided
          the workers         tracking: The reference number FAR       had timesheets on the 12
          were unclear or     3151 (page #26) was submitted to the     pages provided, but no
          absent on           audit where the materials/refuse         Materials/refuse tracking,
          timesheets.         tracking information were available.     group photos or finished
          Payment             No group photos or finished project      project photos. DR #
          summary report      photos: The group and the finished       CDMM1551 provided had
          not provided.       project photos were at the FAR 3151      timesheets on the 12 pages
          Materials/refuse    project document which was submitted     provided, but no
          tracking form not   to Audit (Page number 42 & 43).          Materials/refuse tracking,
          provided. No                                                 group photos or finished
          group photo or                                               project photos. No change
          finished project                                             in questioned transactions.
          photo provided.
          No project
          monitoring
          reports
          provided.

  82      Missing project     DR # CDMM2169 - No group photos or       DR # CDMM2169 provided
          payment             finished project photos: The reference   had 19 pages, but no group
          summary sheet.      FAR 3161 (e.g. at page 38) some          photos or finished project
          Materials/ refuse   photos are available.                    photos. No change in
          tracking form not                                            questioned transactions.
          provided. No
          group photo or
          finished project
          photo provided.
          No project
          monitoring
          reports
          provided.
 163      Fingerprints of     DR #PCVBMY1355 - Here fingerprints       Agreed that fingerprints were
          the workers         were used on all time sheets             on all timesheets, but the
          were unclear or     (Reference #PCV BMY 1355 was             fingerprints were unclear or
          smeared on          submitted to the audit). Some            smeared or covered with
          timesheets.         fingerprints covered over by             checkmarks. DR
          Some                checkmarks. Materials/refuse tracking:   #PCVBMY1355 provided



                                          106
                                                                                 APPENDIX D
                                  MERCY CORPS

                    Financial Audit of Costs Incurred under
               Cooperative Agreement No. 306-A-00-09-00512-00

Management Responses to Specific Transactions Questioned and Auditor’s Rebuttal

                                      (Continued)


Sample        Condition
Number     Noted in Audit            Management Response                      Auditor Rebuttal
          timesheets do       The reference number BAM 3129             had the CDP Payment
          not contain         (page #2) and BAM 3130 (page # 8)         Summary on page 2 and a
          fingerprints and    were submitted to the audit where the     timesheet on page but no
          contain             materials/refuse tracking information     material refuse form. No
          checkmarks          was available.                            change in questioned
          instead. Some                                                 transactions.
          fingerprints are
          covered over by
          checkmarks.
          Materials/refuse
          tracking form not
          provided. No
          group photo or
          finished project
          photo provided.
          No project
          monitoring
          reports
          provided.

 166      Fingerprints of     DR #PCVSRP00137 - Materials/              DR #PCVSRP00137
          the workers         refuse tracking: The reference number     provided only had 9 pages
          were unclear or     SAR 3154 (page #19) was submitted         with timesheets only but not
          absent on           to the audit where the materials/refuse   the referenced
          timesheets.         tracking information was available. No    documentation. No change
          Materials/refuse    group photos or finished project          in questioned transactions.
          tracking form not   photos: The group photos are available
          provided. The       in the documents submitted to Audit
          village was not     (Reference number: SAR3154, page
          listed on any of    #16).
          the project
          documents. No
          group photo or
          finished project
          photo provided.
          No project
          monitoring
          reports
          provided.

 169      Payment             DR # CPFYB0689 - Payment                  As indicated in the finding,
          summary             Summary: The payment summary              the Payment Summary
          reported was not    document was sent to audit                report was provided (page 2)
          prepared by the     (Reference page number 2) and the         but as required by the



                                          107
                                                                                 APPENDIX D
                                  MERCY CORPS

                    Financial Audit of Costs Incurred under
               Cooperative Agreement No. 306-A-00-09-00512-00

Management Responses to Specific Transactions Questioned and Auditor’s Rebuttal

                                      (Continued)


Sample        Condition
Number     Noted in Audit            Management Response                      Auditor Rebuttal
          area supervisor.    project file FAR 3070 (page: 38-45)       internal control procedures,
          Materials/refuse    and FAR 3071 (page: 1-7). No group        it was not prepared by the
          tracking form not   photos or finished project photos:        Area Supervisor. DR #
          provided. No        Those group photos and the finished       CPFYB0689 provided had
          group photo or      project photos were taken but those       timesheets on the 28 pages,
          finished project    were not kept in the project files. The   but no group photos or
          photo provided.     project completion report showed          finished project photos. No
          No project          those photos which were collected         change in questioned
          monitoring          (Reference: FAR 3071 at page number       transactions.
          reports             10 and FAR 3070 at page number 37).
          provided.

 171      Payment             DR # PCVSRP0094 - No group photos         DR # PCVSRP0094
          summary             or finished project photos: There are     provided had timesheets, but
          reported was not    some photos available in the              no group photos or finished
          prepared by the     submission documents to audit (e.g.       project photos, including on
          area supervisor.    SAR 0079 at page 13).                     page 13. No change in
          Materials/refuse                                              questioned transactions.
          tracking form not
          provided. No
          group photo or
          finished project
          photo provided.
          No project
          monitoring
          reports
          provided.

 172      Fingerprints of     DR # CPVFYB1198 -Fingerprints and         There is no reference in this
          the workers         used of Checkmarks: There are no          finding to checkmarks.
          were unclear or     checkmarks in the timesheets              There was no “Released
          absent on           (reference: PCV FAR 1198 which was        Order Note/ Materials/ refuse
          timesheets.         submitted to the Audit by SC)             tracking form” included on
          Materials/refuse    Materials/refuse tracking: The            page 18 or 26 on DR #
          tracking form not   submission of reference number FAR        CPVFYB1198 provided, both
          provided. No        3125 (page # 18), FAR 3126                pages are timesheets.
          group photo or      (page#26). No group photos or             Further pages 6 and 38 had
          finished project    finished project photos: There are        timesheets but no
          photo provided.     some available photos during the          referenced documents. No
          No project          project life (Reference# FAR 3125,        change in questioned
          monitoring          page number 6; Reference# FAR             transactions.
          reports             3126, page number 38).
          provided.




                                          108
                                                                                APPENDIX D
                                  MERCY CORPS

                    Financial Audit of Costs Incurred under
               Cooperative Agreement No. 306-A-00-09-00512-00

Management Responses to Specific Transactions Questioned and Auditor’s Rebuttal

                                      (Continued)


Sample        Condition
Number     Noted in Audit            Management Response                     Auditor Rebuttal
  173     Fingerprints of     DR # CPFYB1196 - Materials/ refuse       DR # CPFYB1196 provided
          the workers         tracking: The reference number FAR       had timesheets on pages 28,
          were unclear or     3154 (page #28), FAR 3123 (page#25)      25 24,40, 39, 36 and 37 but
          absent on           and FAR 3124 (page# 24) were             not the referenced
          timesheets.         submitted to the audit where the         documentation. No change
          Materials/refuse    materials/refuse tracking information    in questioned transactions.
          tracking form not   were available. No group photos or
          provided. The       finished project photos: There are
          village was not     some photos available in the
          listed on any of    submission documents to audit
          the project         (Reference number: FAR3122, page
          documents. No       #40; FAR 3123, page# 39 and FAR
          group photo or      3124, page #36, 37).
          finished project
          photo provided.
          No project
          monitoring
          reports
          provided.

 175      Sample differs      DR # BPVSRP00116 - No group              DR # BPVSRP00116
          to supporting       photos or finished project photos: The   provided had timesheets, but
          documents by        reference SAR 3024 (e.g. at page 24)     no group photos or finished
          233 Afghans.        some photos are available.               project photos, including on
          Materials/refuse                                             page 24. No change in
          tracking form not                                            questioned transactions.
          provided. The
          village was not
          listed on any of
          the project
          documents. No
          group photo or
          finished project
          photo provided.
          No project
          monitoring
          reports
          provided.

 185      Fingerprints of     DR # CPFYB0962 - No group photos         DR # CPFYB0962 provided
          the workers         or finished project photos: There are    had timesheets on pages 6
          were unclear or     some photos available in the             and 34, but no group photos
          absent on           submission documents to audit (e.g.      or finished project photos.
          timesheets. The     FAR 3125 at page number 6 & 34).         No change in questioned



                                           109
                                                                               APPENDIX D
                                 MERCY CORPS

                    Financial Audit of Costs Incurred under
               Cooperative Agreement No. 306-A-00-09-00512-00

Management Responses to Specific Transactions Questioned and Auditor’s Rebuttal

                                     (Continued)


Sample        Condition
Number     Noted in Audit           Management Response                     Auditor Rebuttal
          village was not                                             transactions.
          listed on any of
          the project
          documents. No
          group photo or
          finished project
          photo provided.
          No project
          monitoring
          reports
          provided.

 186      Fingerprints of    DR # CPFYB0995 - No group photos         DR # CPFYB0995 provided
          the workers        or finished project photos: The          had only 45 pages but no
          were unclear or    reference FAR 3119 & 3120 (e.g. at       photos provided. No change
          absent on          68, 69, 70 & 80) group photos and        in questioned transactions.
          timesheets. The    finished project photos are available.
          village was not
          listed on any of
          the project
          documents. No
          group photo or
          finished project
          photo provided.
          No project
          monitoring
          reports
          provided.

 187      No support         DR # PCV FYB 0967 and the project        Per GL the DR # is CPF
          provided.          files FAR 3152 & FAR 3152 were           YB0967 for which no support
                             submitted to the audit. Remarks: Save    was provided. However we
                             the Children is able to provide all      were provided with DR #
                             necessary documents for this cost if     PCV FYB 0967 as indicated
                             requested by the auditors.               in the SCF response, which
                                                                      contained the petty cash
                                                                      voucher, CDP Payment
                                                                      Summary Form and time
                                                                      sheets on which the
                                                                      fingerprints of the workers
                                                                      were unclear or smeared.
                                                                      But there were no group
                                                                      photo, finished project photo
                                                                      or project monitoring reports.



                                          110
                                                                                APPENDIX D
                                  MERCY CORPS

                      Financial Audit of Costs Incurred under
                 Cooperative Agreement No. 306-A-00-09-00512-00

Management Responses to Specific Transactions Questioned and Auditor’s Rebuttal

                                      (Continued)


Sample       Condition
Number     Noted in Audit           Management Response                      Auditor Rebuttal
                                                                       No change in questioned
                                                                       transactions.

 188      Fingerprints of     DR # CPFYB0964 - Materials/ refuse       DR # CPFYB0964 provided
          the workers         tracking: The reference number FAR       had timesheets on pages 6,
          were unclear or     3146 (page #18), FAR 3147 (page#18)      18, 25 34 and 37 but not the
          absent on           and FAR 3148 (page# 25) were             referenced documentation.
          timesheets.         submitted to the audit where the         No change in questioned
          Materials/refuse    materials/ refuse tracking information   transactions.
          tracking form not   was available. No group photos or
          provided. The       finished project photos: There are
          village was not     some photos available in the
          listed on any of    submission documents to audit
          the project         (Reference number: FAR3146, page
          documents. No       #6; FAR 3147, page# 34 and FAR
          group photo or      3148, page #37).
          finished project
          photo provided.
          No project
          monitoring
          reports
          provided.

 189      Fingerprints of     DR # CPFYB0965 - Materials/ refuse       DR # CPFYB0965 provided
          the workers         tracking: The reference number FAR       had timesheets on pages 28,
          were unclear or     3122 (page #28; 40), FAR 3123            25, 24,40, 39, 34, 36 and 37
          absent on           (page#25) and FAR 3124 (page# 24)        but not the referenced
          timesheets.         were submitted to the audit where the    documentation. No change
          Materials/ refuse   materials/refuse tracking information    in questioned transactions.
          tracking form not   were available. No group photos or
          provided. The       finished project photos: There are
          village was not     some photos available in the
          listed on any of    submission documents to audit
          the project         (Reference number: page #39; 43,
          documents. No       page# 34 and page #36; 37).
          group photo or
          finished project
          photo provided.
          No project
          monitoring
          reports
          provided.

 191      Many                DR # CPFYB0980 - No group photos         DR # CPFYB0980 provided



                                          111
                                                                                APPENDIX D
                                  MERCY CORPS

                     Financial Audit of Costs Incurred under
                Cooperative Agreement No. 306-A-00-09-00512-00

Management Responses to Specific Transactions Questioned and Auditor’s Rebuttal

                                      (Continued)


Sample        Condition
Number     Noted in Audit             Management Response                    Auditor Rebuttal
          fingerprints        or finished project photos: The          had timesheets on page 11,
          smeared/            reference FAR 3133 & 3134 (e.g. at       but no group photos or
          illegible. The      page 11) some photos are available.      finished project photos. No
          village was not                                              change in questioned
          listed on any of                                             transactions.
          the project
          documents. No
          group photo or
          finished project
          photo provided.
          No project
          monitoring
          reports
          provided.

 193      Fingerprints of     DR # CPFYB0987 - Materials/ refuse       DR # CPFYB0987 provided
          the workers         tracking: The reference number FAR       had only timesheets on
          were unclear or     3090 (page #27), FAR 3091 (page#28)      pages 27, 28 26, 43, 41 and
          absent on           and FAR 3092 (page# 26) were             39 but not the referenced
          timesheets.         submitted to the audit where the         documentation. No change
          Materials/refuse    materials/ refuse tracking information   in questioned transactions.
          tracking form not   were available. No group photos or
          provided. The       finished project photos: There are
          village was not     some photos available in the
          listed on any of    submission documents to audit
          the project         (Reference number: FAR3090, page
          documents. No       #39; 43 FAR 3091, page# 41 and FAR
          group photo or      3092, page #39).
          finished project
          photo provided.
          No project
          monitoring
          reports
          provided.

 194      Fingerprints of     DR # CPBMY1322 - Fingerprints and        Agree that there were
          the workers         used of Checkmarks: Here all the time    fingerprints on all
          were unclear or     sheets were used with fingerprints       timesheets, but the
          smeared on          (Reference #PCV BMY 1322 was             fingerprints were either
          timesheets.         submitted to the audit). Some            unclear or smeared or
          Some                fingerprints covered over by             contain checkmarks. DR #
          timesheets do       checkmarks: Materials/refuse tracking:   CPBMY1322 provided had
          not contain         SC waybill or release order note was     timesheets on pages 19, 13
          fingerprints and    available in the submission document     and 11 but not the reference



                                          112
                                                                                APPENDIX D
                                  MERCY CORPS

                    Financial Audit of Costs Incurred under
               Cooperative Agreement No. 306-A-00-09-00512-00

Management Responses to Specific Transactions Questioned and Auditor’s Rebuttal

                                      (Continued)


Sample        Condition
Number     Noted in Audit            Management Response                     Auditor Rebuttal
          contain             to audit (e.g. Reference number: 3137,   documentation. No change
          checkmarks          page # 19; 3138, page # 13; 3139,        in questioned transactions.
          instead. Some       page # 11).
          fingerprints are
          covered over by
          checkmarks.
          Materials/ refuse
          tracking form not
          provided. No
          group photo or
          finished project
          photo provided.
          No project
          monitoring
          reports
          provided.

 195      Fingerprints of     DR # CPFYB0786 - Materials/ refuse       DR # CPFYB0786 provided
          the workers         tracking: The reference number FAR       had timesheets on all 42
          were unclear or     3151 (page #26), FAR 3168                pages provided but no
          absent on           (page#25), FAR 3170 (page# 27) and       materials/refuse tracking,
          timesheets.         3170 (page# 30) were submitted to the    group photos or finished
          Materials/refuse    audit where the materials/refuse         project photos. No change
          tracking form not   tracking information were available.     in questioned transactions.
          provided. The       No group photos or finished project
          village was not     photos: The reference numbers 3151
          listed on any of    at pages 41 and 42 finished photos,
          the project         ref: 3170 at page number 43 are
          documents. No       available. Group photos at page # 43
          group photo or      (ref: FAR 3151; page 42 (Ref: 3168);
          finished project    41 pages on FAR 3170; page 46 (ref:
          photo provided.     3171); page 47 (ref: 3171).
          No project
          monitoring
          reports
          provided.

 196      Fingerprints of     DR # PCVFYB0801 - No group photos        DR # PCVFYB0801
          the workers         or finished project photos: The          provided had timesheets on
          were unclear or     reference #s 3088 and 3089 at page       all 24 pages provided, but no
          absent on           number 82 finished photos, finished      Materials/refuse tracking,
          timesheets. No      project photos reference number 3088     group photos or finished
          group photo or      & 3089 at page number 83 and 84 are      project photos. No change
          finished project    available.                               in questioned transactions.



                                          113
                                                                                APPENDIX D
                                 MERCY CORPS

                    Financial Audit of Costs Incurred under
               Cooperative Agreement No. 306-A-00-09-00512-00

Management Responses to Specific Transactions Questioned and Auditor’s Rebuttal

                                     (Continued)


Sample       Condition
Number     Noted in Audit           Management Response                     Auditor Rebuttal
          photo provided.
          No project
          monitoring
          reports
          provided.

 197      No support         Expenditure Description: 2nd, 3rd, &      Per GL the DR # is
          provided.          4th week payment of 3053, 3054, for       CPFYB0148 for which no
                             CDP women projects. DR # PCV FYB          support was provided.
                             0148 and the project files FAR 3053 &     However, we were provided
                             FAR 3054 were submitted to the audit.     with DR # PCV FYB 0148 as
                             Remarks: Save the Children is able to     indicated in the management
                             provide all necessary documents for       response, which contained
                             this cost if requested by the auditors.   the petty cash voucher, CDP
                                                                       Payment Summary Form
                                                                       and timesheets foe weeks 1
                                                                       and 2 (no week 3 & 4), on
                                                                       which the fingerprints of the
                                                                       workers were unclear or
                                                                       smeared. But there were no
                                                                       group photo, finished project
                                                                       photo provided or project
                                                                       monitoring reports provided.

 198      Fingerprints of    DR # CPFYB0963 - No group photos          DR # CPFYB0963 provided
          the workers        or finished project photos: There are     had what appear to be
          were unclear or    some photos available in the              identity cards for 2 women,
          absent on          submission documents to audit. The        but no group photos or
          timesheets. The    reference FAR 3143, 3144 & 3145           finished project photos. No
          village was not    (e.g. FAR 3143 & 3144 at 6,) group        change in questioned
          listed on any of   photos and finished project photos are    transactions.
          the project        available.
          documents. No
          group photo or
          finished project
          photo provided.
          No project
          monitoring
          reports
          provided.

 200      No support         Expenditure Description: 2nd & 3rd        Per GL the DR # is
          provided.          week payment of CDP 3119, 3120            CPFYB0775 for which no
                             men projects. DR # PCV FYB 0775           support was provided.



                                          114
                                                                                          APPENDIX D
                                        MERCY CORPS

                          Financial Audit of Costs Incurred under
                     Cooperative Agreement No. 306-A-00-09-00512-00

     Management Responses to Specific Transactions Questioned and Auditor’s Rebuttal

                                            (Continued)


    Sample        Condition
    Number      Noted in Audit            Management Response                          Auditor Rebuttal
                                   and the project files FAR 3119 & FAR          However we were provided
                                   3120 were submitted to the audit.             with DR # PCV FYB 0775 as
                                   Remarks: Save the Children is able to         indicated in the management
                                   provide all necessary documents for           response, which contained
                                   this cost if requested by the auditors.       the petty cash voucher, CDP
                                                                                 Payment Summary Form
                                                                                 and workers timesheets on
                                                                                 which the fingerprints of the
                                                                                 workers were unclear or
                                                                                 smeared. But there were no
                                                                                 site supervisor’s timesheet,
                                                                                 group photo, finished project
                                                                                 photo or project monitoring
                                                                                 reports provided. No change
                                                                                 in questioned transactions.



SCF Specific Responses to Finding 2013-3 and Auditor Rebuttal:

    Sample        Condition
    Number      Noted in Audit             Management Response                         Auditor Rebuttal
      13       No support          DR # CDB9222 for AFN 247,500                  Support with the DR #
               provided.           equivalent to $5,000 is well supported        CDB9222 was not provided.
                                   by all documents including quotations,        No change in questioned
                                   bids analysis, purchase order, good           transactions.
                                   received note etc.

       19      No purpose of       DR # CDK-9442 for $400 is supported           With no purpose indicated,
               trip on Travel      by approved travel authorization,             we are unable to determine
               Authorization       tickets etc. It is true that the purpose is   whether the travel is related
               Request.            not reflected on the TOR, but the             to and authorized by the
                                   information for funding source clearly        Agreement. No change in
                                   indicates CFW.                                questioned transactions.

       84      Sample is           DR # CDMM11071 for $138 is for                The receipts provided were
               supported by        travel costs and has all its supporting       illegible and did not support
               partial invoices.   documents.                                    the travel expenses of $138.
                                                                                 No change in questioned
                                                                                 transactions.

       87      No invoice          DR # CDB 1163 for AFN 6,285.44                In the 8 pages provided for
               provided.           equivalent to $138.66. This has an            DR # CDB 1163, there is no
                                   invoice from the Medicos Plus $150 as         invoice from Medicos Plus.



                                                 115
                                                                                    APPENDIX D
                                     MERCY CORPS

                        Financial Audit of Costs Incurred under
                   Cooperative Agreement No. 306-A-00-09-00512-00

 Management Responses to Specific Transactions Questioned and Auditor’s Rebuttal

                                         (Continued)


 Sample        Condition
 Number      Noted in Audit            Management Response                       Auditor Rebuttal
                                 per SCI policy                            No change in questioned
                                                                           transactions.

   93        No support          DR # CDMM 1474 for AFN 550,680            Support with the DR #
             provided.           equivalent to $10,898 has been            CDMM 1474 was not
                                 located and all the required documents    provided. No change in
                                 such as purchase requests,                questioned transactions.
                                 quotations, bids analysis, purchase
                                 order, good received note, invoice and
                                 copy of the check are all attached to
                                 the payment voucher.

   94        Invoices,           DR # CDMM1866 - There are sufficient      As mentioned in the finding
             purchase orders     documents to support the transactions     the preprinted purchase
             and receiving       amounting for procurement of 586          order and GRN appear
             reports (GRN)       bags of cement amounting AFN              blank. No change in
             provided were       193,380 equivalent to $4,235.22.          questioned transactions.
             ineligible.

   103       No support          DR # CDB 1102 for $400 was sent on        Support with the DR #
             provided.           6 Sep 2013 and is well supported. The     CDB9222 was not provided.
                                 voucher can be provided again if          No change in questioned
                                 required.                                 transactions.

 126, 127,   Sample is           DR # CDK 1670 fore USD 2,338              Only Pamir Airways invoice
 128, 129    supported by        tickets for SCF staff has the necessary   for $67 and UNHAS receipt
130, 131 &   partial invoices.   required travel documents and we          for $200 were provided,
   132                           believe this shall be removed from the    which totals $267 and not
                                 questionable costs.                       the $334 claimed per
                                                                           employee. The UNHAS
                                                                           travel approval form was not
                                                                           provided. No change in
                                                                           questioned transactions.

   142       Receipts for        DR # CDMM1156 for AFN 5,750 or            As indicated in the finding,
             travel expenses     equivalent to $119.69. This is well       no receipts were provided to
             not provided.       supported by petty cash voucher,          support the travel expenses.
                                 travel expense report and travel          No change in questioned
                                 authorization.                            transactions.

   183       Payment             DR # JRNVSRP0002 for AFN 17,500           The lease and general
             voucher and         equivalent to $366.11 provided on 12      journal were provided, but as
             cancelled check     Sep 2013 to MC office in Kabul. The       indicated in the finding the
             not provided.       payment voucher and contract are          payment voucher and



                                              116
                                                                         APPENDIX D
                                MERCY CORPS

                    Financial Audit of Costs Incurred under
               Cooperative Agreement No. 306-A-00-09-00512-00

Management Responses to Specific Transactions Questioned and Auditor’s Rebuttal

                                    (Continued)


Sample       Condition
Number     Noted in Audit          Management Response                Auditor Rebuttal
                            attached and is well supported by   cancelled check was not
                            documents.                          provided. No change in
                                                                questioned transactions.




                                        117
                               The mission of the Special Inspector General for Afghanistan
           SIGAR’s Mission     Reconstruction (SIGAR) is to enhance oversight of programs for the
                               reconstruction of Afghanistan by conducting independent and
                               objective audits, inspections, and investigations on the use of
                               taxpayer dollars and related funds. SIGAR works to provide accurate
                               and balanced information, evaluations, analysis, and
                               recommendations to help the U.S. Congress, U.S. agencies, and
                               other decision-makers to make informed oversight, policy, and
                               funding decisions to:
                                        •   improve effectiveness of the overall reconstruction
                                            strategy and its component programs;
                                        •   improve management and accountability over funds
                                            administered by U.S. and Afghan agencies and their
                                            contractors;
                                        •   improve contracting and contract management
                                            processes;
                                        •   prevent fraud, waste, and abuse; and
                                        •   advance U.S. interests in reconstructing Afghanistan.


  Obtaining Copies of SIGAR    To obtain copies of SIGAR documents at no cost, go to SIGAR’s Web
   Reports and Testimonies     site (www.sigar.mil). SIGAR posts all publically released reports,
                               testimonies, and correspondence on its Web site.




To Report Fraud, Waste, and    To help prevent fraud, waste, and abuse by reporting allegations of
                               fraud, waste, abuse, mismanagement, and reprisal, contact SIGAR’s
      Abuse in Afghanistan     hotline:
   Reconstruction Programs
                                        •   Web: www.sigar.mil/fraud
                                        •   Email: sigar.pentagon.inv.mbx.hotline@mail.mil
                                        •   Phone Afghanistan: +93 (0) 700-10-7300
                                        •   Phone DSN Afghanistan: 318-237-3912 ext. 7303
                                        •   Phone International: +1-866-329-8893
                                        •   Phone DSN International: 312-664-0378
                                        •   U.S. fax: +1-703-601-4065




                               Public Affairs Officer
              Public Affairs
                                        •   Phone: 703-545-5974
                                        •   Email: sigar.pentagon.ccr.mbx.public-affairs@mail.mil
                                        •   Mail: SIGAR Public Affairs
                                            2530 Crystal Drive
                                            Arlington, VA 22202
